<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 HAROLD ROGERS, Kentucky            JOSE E. SERRANO, New York
 JIM KOLBE, Arizona                 ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina  LUCILLE ROYBAL-ALLARD, California
 RALPH REGULA, Ohio                 ROBERT E. ``BUD'' CRAMER, Jr., 
 TOM LATHAM, Iowa                   Alabama
 DAN MILLER, Florida                PATRICK J. KENNEDY, Rhode Island 
 DAVID VITTER, Louisiana            
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
    Gail Del Balzo, Mike Ringler, Christine Ryan, and Leslie Albright
                           Subcommittee Staff
         Printed for the use of the Committee on Appropriations
                                ________
                                 PART 7
                                                                   Page
 Secretary of State...............................................    1
 Administration of Foreign Affairs................................  121
 International Organizations and Peacekeeping.....................  217
 National Endowment for Democracy.................................  303

                              <snowflake>

                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 77-311                     WASHINGTON : 2002




                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)




 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2002

                              ----------                             

                                           Thursday, April 26, 2001

                          DEPARTMENT OF STATE

                                WITNESS

HON. COLIN L. POWELL, SECRETARY OF STATE

             Opening Remarks of Subcommittee Chairman Wolf

    Mr. Wolf. Welcome, Mr. Secretary. The hearing will begin. 
There is a lot of traffic in northern Virginia, so there may be 
some members that are on the Beltway or tied up. But we will 
begin. Also we want to announce the Secretary can only stay 
until 12:45. We have arranged that so we appreciate you working 
that out.
    In the interest of time, since I know there are a lot of 
questions and let me just--I will just submit my opening 
statement for the record. I just want to welcome you. I 
personally appreciate your service to the country as much as 
what you did before this job as well as this job. And the 
committee looks forward to working with you to give you the 
tools to help you do what you and the people at your department 
want to do. So I think we will have a great relationship over 
the many, many years.
    But with that, I will just recognize Mr. Young, the full 
committee chairman.

              OPENING REMARKS OF COMMITTEE CHAIRMAN YOUNG

    Mr. Young. Mr. Secretary, I just wanted to add my welcome 
as well and to tell you in the few visits I have made overseas 
to visit with our troops there, foreign service officers, 
diplomatic corps, that without any solicitation from me, almost 
to a person, they indicated how much improved was the morale in 
the diplomatic corps since you came into that distinguished 
office. We are really, really proud of, as Frank said, your 
role in the Nation prior to this time and especially now the 
really good job you are doing. Thanks for being available today 
for us.
    Secretary Powell. Thank you, Mr. Young.
    Mr. Wolf. Mr. Obey, ranking member of the committee.

            OPENING REMARKS OF COMMITTEE RANKING MEMBER OBEY

    Mr. Obey. Thank you, Mr. Chairman. Mr. Secretary, welcome. 
I will save my comments on any substantive problems until after 
your statement. Let me simply say that I note that your 
department has probably the largest increase in the budget 
request of any program. And I welcome the opportunity to try to 
work with you to beef up our ability to represent American 
interests overseas. I do hope that you will be able to find a 
way to convince the House Foreign Affairs Committee to reverse 
its position on the question of U.N. Arrearages. I am concerned 
that they are waiting for full consideration of the State 
Department authorization bill in order to take up the bill that 
would provide those arrearages to the U.N., a bill which passed 
99 to nothing.
    I hope you can prevail the committee to change their mind 
on that so the U.N. can get its money. I think most members 
think they have already gotten it and they haven't. And 
secondly, I hope that you will be able to cast a wide net in 
filling these staff vacancies that you have. It is important 
that we have a broad variety of people represented and I would 
also hope that they wind up being equipped not just with 
diplomatic talents, but with the ability to understand our 
economic interests abroad. I think there is considerable 
shortcomings in that regard. With that I thank the chairman for 
the time.
    Mr. Wolf. Also recognize Mr. Serrano, the ranking member of 
the subcommittee.
    Mr. Serrano.

         OPENING REMARKS OF SUBCOMMITTEE RANKING MEMBER SERRANO

    Mr. Serrano. Thank you, Mr. Chairman. Let me, first of all, 
welcome you Mr. Secretary, and I guess under the heading of it 
is a great country, it is very rare to have a kid from the 
South Bronx welcome another kid from the South Bronx. So I 
welcome you with great pride and anticipation of the fine work 
you will do.
    I realize that the job before you is a difficult one. There 
are some things you want to change at the Department that I 
want to be very much a part of. And I stand here ready, in my 
capacity as ranking member of this committee, to assist Mr. 
Wolf and this committee in doing what we can to help you, 
especially in the most sensitive area of making sure that our 
foreign policy in the future is formulated at all levels by 
people who represent the diversity that is America. This is 
something that I am very much interested in, and something that 
I know you shall do. So welcome. Thank you for being here. And 
count me as an ally.
    Secretary Powell. Thank you, sir.
    Mr. Wolf. Mr. Secretary, your full statement will appear in 
the record as read, but you can proceed as you see fit.

          OPENING STATEMENT OF SECRETARY OF STATE COLIN POWELL

    Secretary Powell. Thank very much, Mr. Chairman, members of 
the committee, for your warm welcome and thank you, Mr. 
Chairman for allowing me to submit my full statement for the 
record. Let me make a brief opening statement, then I would be 
more than pleased to take any questions you might have.
    I am pleased to appear before you for the first time as 
Secretary of State and to testify in support of the President's 
State Department budget for fiscal year 2002. This budget, as 
has been noted, represents a significant increase in the 
Department's resources for the upcoming fiscal year, and we are 
very pleased with that. This is a very good start on helping to 
get the Department ready for the 21st century. But it is really 
just the first fiscal step in our efforts to align both the 
organization for and the conduct of America's foreign relations 
with the dictates and the demands of the 21st century.
    As Secretary of State I wear two hats: one as CEO of the 
Department, the other as the President's principal foreign 
policy advisor. Being successful in both roles is important, 
because we must be properly organized, equipped and manned to 
conduct America's foreign policy as well as to formulate good 
policy. So wearing my CEO hat, I want to highlight what this 
budget contains with respect to mythree highest priorities, the 
President's three highest priorities, with respect to the running of 
the State Department.
    First, embassy construction and security; second, 
information technology; and third, hiring new people. Frankly, 
I would just as soon put hiring new people first because people 
are the lifeblood of the State Department and of our diplomatic 
efforts. Our important multi-year program for embassy 
construction, refurbishment, security and maintenance will 
continue at pace if this budget is approved. $1.3 billion 
supports those efforts for FY 2002 including $665 million for 
construction of new secure facilities.
    In addition to continuing this ambitious program set in 
place by my predecessors, and by the Congress last year, we are 
using new and more efficient ways to execute the program. For 
example, as we have notified the Congress, I intend to move the 
Foreign Buildings Office out from under the Bureau of 
Administration and put it directly under the Under Secretary 
for Management, Mr. Grant Green, a distinguished leader and 
management expert, and by the way, a close friend of 20 years 
who knows how to run things.
    Moreover, to run the Foreign Buildings Office, I have hired 
another experienced executive, Major General Charles Williams, 
United States Army Corps of Engineers. Chuck Williams is well 
known throughout the congressional community, and the military 
community for his ability to get construction projects 
completed on time, under cost and in the most efficient way 
possible. He built the Dulles Greenway, he helped refurbish the 
Washington D.C. Schools, he did the same thing in New York 
City, and he has worked with Congress. He is already making a 
difference in the running of this important office of talented, 
experienced, dedicated people running this very important and 
expensive program. His adaptation of industry best practices to 
our overall program, plus skilled management techniques, are 
going to make this program hum.
    We are committed to getting the average cost of embassy 
construction below the current figure of $100 million per 
embassy. If anyone can do it, Chuck Williams can. It will be no 
mean feat because, as you are well aware, there are special 
provisions and requirements for every embassy. These provisions 
and requirements drive up costs enormously, but we will give it 
all we have got to get the price down and under control.
    Along with well-built, secure, and modern embassies, we 
want broad-based Internet-access for all our people. I want 
every employee in the Department of State, no matter where they 
are located throughout the world, to have access to the 
Internet--access to the power of the information revolution so 
that they can get their jobs done in a more efficient way and 
bring them all 21st century technology. We also want to 
modernize our classified information systems. We have $210 
million in the budget for that purpose.
    There is no disputing the fact that America needs to have 
the right people on the front lines of diplomacy, but we also 
need to have enough people. The budget has $134.5 million for 
major investment to recruit, hire and train sufficient new 
people, not only to fill critical posts, but to create a 
training float so that we have enough people we can send to 
school, and also have a little bit of reserve so that we can 
deal with high profile problems that come along without robbing 
Peter to pay Paul.
    In addition, we are seeking $488 million to continue and 
enhance our worldwide security readiness program. This 
enhancement includes hiring more security personnel, and we 
have a request for $17.1 million within the $488 million 
request to hire those security people.
    On the CEO side of my ledger, these are the priorities: 
embassies, people, and information technology. Wrap all three 
up in a fourth priority called security, and you have the high 
points of the President's fiscal year 2002 budget for State 
operations. I know that Deputy Secretary Armitage and Under 
Secretary Green will be meeting with you in three weeks or so 
to examine more closely the individual pieces of the 
Department's operations, and Assistant Secretary David Welch, 
and, if confirmed by then, Ambassador John Negroponte, will be 
here to talk about international organizations. I ask you and 
encourage you to press these people on all of the detailed 
issues that you have concerns about and that you want to know 
about.
    I want to also talk about one other change. There are many 
other changes that we are making, but one other change I wanted 
to highlight. This has to do with the way we manage our 
finances.
    When I first arrived at State and looked around during the 
transition period, I could not find any single authority in 
charge of all of the Department's financial activities. There 
was a chief financial officer, but he had no control over the 
foreign operations portion of the money, two-thirds of the 
overall budget, and I knew that we needed to change that 
situation. Under our plan to change, we will bring together all 
our dollars, both for State operations and for foreign 
operations. We will bring them together and we will put them 
all under one bureau headed by an Assistant Secretary of State 
for Resource Management.
    The Assistant Secretary will report directly to the Deputy 
Secretary. This new bureau will also be responsible for 
strategic planning so we can link strategic planning firmly and 
closely to fiscal planning and fiscal accountability and 
responsibility. This is just a highlight of some of the things 
we are doing, Mr. Chairman.
    I want to close though with one observation about the 
management style we are going to be using down at the State 
Department, the leadership style that we already are 
implementing. I am not just somebody who worries about getting 
an EP-3 plane back from China or a particular problem we have 
in the Middle East. The Department has been given to me to lead 
and to manage as the Secretary of State.
    There is no leadership problem, there is no management 
problem that is not mine. It is my responsibility. To help me 
in discharging that responsibility, I am hiring some of the 
best people I can find.
    In Deputy Secretary Armitage, I have found an experienced 
manager who knows how to get things done and who can crash 
through walls and scale the tallest building, and on occasion 
is faster than a speeding locomotive. We have all the studies 
we need, I have the Caton study, I have the Stimson study, 
which I was a member of, and I have the Carlucci study. It is 
now time to stop studying and get the job done. We are doing 
that. I signed a delegation of authority the other day that 
gives Secretary Armitage all the authority that I have with the 
exception of a few legal things that I cannot delegate. The 
reason for that is to show the Department that we are a team 
working together, the Deputy and I, both of us, have 
responsibility for foreignpolicy and for management and 
leadership activities in the Department.
    Grant Green is going to have all the authority he needs to 
plow through and get things fixed. We are going to get the 
Foreign Buildings Office fixed, and we are going to get the 
resource management and financial control system fixed. I have 
people already at work figuring out how to get people into the 
Department faster, how to cut down that 22-month lag time it 
takes from the time someone expresses an interest in the 
Department until the time we graduate them and send them out 
into the foreign service to do the job.
    Every day we work on foreign policy issues, but we also 
work on leadership, management, organizational, and financial 
issues. I can assure you that as you work with the leadership 
team that I put in place, I am quite confident you will be 
impressed that it is no longer a ``let us wait for another 
study to come along'' or contemplating our navel, or suck our 
thumb. We are going to get the job done and we are going to get 
it done with line leaders having authority and responsibility 
to crash through the problems that have existed for years and 
get the job done.
    We are trying to create an attitude in the Department that 
we are there to execute the people's foreign policy as given to 
us by the President. We are going to empower everybody in the 
Department to let them know they are part of this team. We are 
going to empower every ambassador to let him or her know that 
they are in the front lines of diplomacy, the front lines of 
foreign policy. We look forward to working with all the members 
of this committee and all the committees that have oversight of 
the State Department, to let you know that we are going to be 
good stewards of the resources that we will be asking you to 
provide to us for the discharge of the American people's 
foreign policy.
    Thank you, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                 SUDAN

    Mr. Wolf. Thank you, Mr. Secretary. Before I begin, Ms. 
Roybal-Allard just called to express her regret for not being 
here. She is ill. Secondly, the Secretary can be here until 
12:45. And we are never going to use the gavel for anybody, 
anybody can talk as long, but if we can move along so people 
perhaps can get a second round.
    I think you have appointed a good team. I have known 
General Williams for a number of years. He did an outstanding 
job on the Greenway, built it much faster than VDOT could have 
built it, so I agree with what you say with regard to your 
appointments. Most of the issues that I will be raising and 
hopefully will be dealing with budgets. But there is one issue 
that I am sure you know that I was going to bring up, and it 
deals with the issue of Sudan. I am going to show a video. I am 
not going to miss this opportunity with hopefully some of the 
members of the press that are here with you to sort of educate 
the American people on the issue of Sudan.
    The battle in Sudan has been going on for better than 15 
years. I have been there four times. The first time was in 
1989. The last time was in January of this year.
    Since you testified before the House International 
Relations Committee on March 7, and there is no greater tragedy 
on the face of the earth than the one unfolding in Sudan. The 
government of Sudan has continued its aerial bombardment of 
innocent civilians. Slavery continues. The government of Sudan 
is still carrying on a scorched earth policy. 2.2 million 
people, mainly Christian, some Moslem, some Animist have been 
killed. The government is using food aid as a weapon. This past 
Sunday a 9-year-old child was killed in the bombing attack by 
the government of Sudan at 12:15 in the morning. A Sudanese 
government Antonov bomber, and they fly these Antonov bombers, 
Mr. Secretary, over the villages that have no military impact 
at all. They just harass the people. 16 bombs fell on the town 
of Narus. Two bombs hitting the public marketplace, two hitting 
the church.
    The Catholic bishop of Torit, who I mentioned to you and 
who I spent some time with, actually watched the bombing take 
place of his parishioners. Another Catholic bishop, Bishop Max 
Gassis, was also bombed on Easter Monday. When he wrote me of 
the attack, this is what he said. He said ``It was Easter 
Monday, and I had just completed my Easter pastoral visit to my 
parishes in the Nuba Mountains. Among the most important of my 
periodic visits during the year at the air strip, my personnel 
were loading our plane for departure when the Antonov bomber 
was spotted above the field. Everyone scattered. We were there, 
the Antonov came over and the fear on everyone's face. They 
fell to the ground. They have little holes that they kind of 
crawl into. As four to six shells fell some 500 feet from the 
end of the bomber plane. There was a man killed. They got the 
airplane off the ground. At Bishop Gassis' school several 
months ago, 19 first graders and their teacher were killed.
    I would like to show you a 4-minute video which was put 
together. It was a video that I took when I was there with the 
U.S. Committee on Refugees, and some in the Catholic church and 
then I am going to ask you a question if I can. Can we show the 
video?
    [Video played.]
    Mr. Wolf. There have been 19 more bombings since this film.
    Mr. Secretary, this has been going on for so long. People 
they are absolutely exhausted. They have discovered oil there 
and now the Khartoum government is purchasing heavy military 
equipment, military gun ships and other pieces of equipment and 
other materials which you can get the briefing from our 
government. So many more will die.
    You made the comment at the beginning, and I agree with 
you, I think you have really put together a great team, and I 
think you as the captain will do a great job. Personnel is 
really policy. What you were saying here is by putting together 
good people, you are going to carry out the policy. You have 
the policy, but you have to get good people.
    When President Clinton was dealing with the problem in 
northern Ireland, Senator Mitchell was appointed as a special 
envoy, and frankly, I heard he went there 54 times. I would 
like to see you appoint a special envoy. And every day we get 
reports, 19 since that film of additional bombing, every time 
the bombers come, one, two, or three people die.
    Could you comment with regard to the administration's 
policy with regard to Sudan and also with regard to the 
proposal for a special envoy? And also I met with Bishop 
Ricardo, the Catholic Bishop from Florida the other day who 
just returned from there. The Catholic conference has now come 
out for a special envoy. Could you comment and tell us what you 
plan on doing and what the administration plans on doing?
    Secretary Powell. Thank you, Mr. Chairman. It is a very 
moving and tragic film. The situation is every bit as tragic as 
the film depicts it, not only from the bombing but all the 
other things that are happening in the Sudan, whether it is 
slavery, religious persecution, starvation and the whole range 
of other humanitarian disasters. The administration has 
undertaken a very thorough review of the entire situation in 
the Sudan in addition to the bombing. I have secured an 
exceptionally qualified individual to serve as Assistant 
Secretary of State for African Affairs, Walter Kansteiner, who 
has lived there and knows the region and has a deep love for 
the region. I think he will be the kindof leader who will take 
a very active role in formulating and executing our policy.
    We have developed a road map of how to approach the 
authorities in Khartoum, and you and I have had some 
conversations on this. What we have suggested to them is that 
we need to start working together to get the violence down, get 
the bombing stopped. There has been some decline in the overall 
volume, but it is not acceptable. When you see something that 
just happened this past weekend as was described by you and 
described by the bishop in his letter, it is clear that we 
haven't made enough progress. We are making it clear to the 
government in Khartoum that there can be no better relationship 
with the United States until we see progress first and foremost 
in stopping the bombing; and then second, serious work on 
getting more humanitarian relief into the region; and then 
serious work on getting rid of any vestiges of terrorist 
organizations within the country. Then we can start getting 
energized in the political process.
    Now, how best to do that? What representation to have? We 
are looking at a number of alternatives, one of which is a 
special envoy. We are also looking at what formal 
representation we might put into the region in Khartoum as 
opposed to the current type of representation we have there. We 
are trying to do it in a way that we do something and they do 
something, so it isn't just for show, and it is on the way to 
real progress. We haven't ruled out a special envoy, and in 
fact, we have had discussions about a special envoy within the 
State Department and within the White House just this week, or 
even perhaps an ambassador. But there are some complications 
with representation at that level at this time.
    All of that is under consideration, Mr. Chairman. We are 
seized with the problem. Before you put a name to this special 
envoy, however, I think you really have to have a clear policy 
for that person to carry out and we are still coming up with 
that policy.
    Mr. Wolf. Well, I agree and yet in some respects, not 
totally. I think when General Williams came on board he helped 
develop the policy with regard to buildings and embassies 
because he is a doer. Armitage, as you jokingly stated, is a 
doer. You tell him to go from here to there, he will go there 
and he develops as he is moving. He makes things happen. And I 
called down to your office yesterday and gave you a name. I had 
before this time not mentioned a name.
    But you need somebody who has that ability, who has your 
confidence, who has the confidence of the President, who can go 
to President Mubarak in Egypt and meet, and who can deal with 
our European allies. And it needs somebody who is that type of 
person who can take this up and develop the policy that you 
have, carry out the policy but also develop policy. Because you 
come to a roadblock at times, a policy is a piece of paper. 
That person has to have the initiative, do they take a right, 
left, back, what do they do? So every day is a miserable day in 
southern Sudan. And for these young kids, mainly women and 
children, and there is slavery.
    I have another film which we haven't taken up on slavery. 
We have talked to people that have been involved in slavery. 
Every major terrorist group has operations there. They were 
involved in the assassination attempt on President Mubarek. I 
believe they were involved in the arming of Aidid in Somalia. 
Policy is good, but we need somebody like you and someone like 
Armitage and General Wilson, personnel that can take that 
policy and make it hum and sing.
    So I hope you can respond. I am not going to talk any more 
about this. Most of the questions are now budgetary questions. 
But I care so deeply about this. There is nothing that I care 
more deeply about with regard to going on outside the country 
than this issue. So I ask you, I plead with you, to respond so 
that there is some hope. We have now lost two generations in 
that country. So I will end and not ask you to comment.
    Secretary Powell. I got your message loud and clear, Mr. 
Chairman.

      FY 2002 BUDGET REQUEST FOR ADMINISTRATION OF FOREIGN AFFAIRS

    Mr. Wolf. Mr. Secretary, this is my last question, then I 
will recognize Mr. Young and we will go back and forth. Your 
budget request includes an unprecedented increase of 19 
percent, which I support, in the Administration of Foreign 
Affairs account. The budget request appears to be based on a 
perception of chronic underfunding of basic requirements. Is 
that your assessment that it has been underfunded, or that 
there has been necessary funding and that funding has not been 
used wisely? Can you tell us?
    Secretary Powell. I think chronic underfunding. The funding 
for the Department decreased significantly in the early 1990's 
and through the mid 1990's. Congress started to readjust in the 
last year or two, and for that we are grateful .
    I think this is chronic underfunding. I am not sure all the 
requirements were resourced. I think we are trying to fix 
chronic underfunding. I also want to make sure that the money 
we are being given is used in the most effective way possible. 
I am not here to say someone before me did not use the money in 
the most effective way possible, but I want to make sure it is 
used in the most effective way possible now. I also want to 
target it in the areas where I think there is the greatest 
need. Security is the first one, then information technology, 
which will give us so much more leverage with our people if 
they can talk to one another securely through the Internet. If 
they can use the Internet to get the information they need 
rather than old fashioned techniques, I think that will empower 
them as well. I think it is mostly underfunding, but there may 
well have been instances where the money was not used as 
effectively as it might have been used.
    Mr. Wolf. The last question on the issue, did you consider 
undertaking a top-to-bottom review of the foreign affairs 
budget such as the one underway at the Defense Department? Do 
you think that a review is needed or did you feel that you 
could move ahead without doing that?
    Secretary Powell. I was quite confident that we could move 
ahead without doing that because we had a number of reports 
that had been prepared in recent years that pointed us in the 
right direction, and because it was pretty clear, just with the 
most cursory look across the Department's accounts, where there 
were immediate needs that we could respond to. I don't think 
this removes the obligation for that kind of constant top-to-
bottom review as we go through our next budget cycle. However, 
in order not who lose a whole budget cycle and to study things 
over and over and over, I was reasonably confident that what I 
believe is a 14 percent increase over 2001 was fully justified, 
and I could make the case to the Congress.
    Mr. Wolf. Thank you.
    Mr. Young, chairman of the committee.

                            EMBASSY SECURITY

    Mr. Young. Mr. Chairman, thank you very much. Mr. 
Secretary, I would like to take just a few minutes on the 
subject of embassy security. And I know that there are some 
severe problems, and you probably would not want to, in an open 
session, identify for the committee where you think the 
vulnerabilities are because that might encourage one of the 
potential terrorists to look into that more thoroughly.
    But we know that there are some serious problems there. I 
would ask that you make available to the committee members in 
whatever version that you would like to present that priority 
station of where the real problems are that you see security to 
our embassies and the American personnel who work there.
    Secretary Powell. I will be pleased to, sir.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Young. That would be very helpful to us. Because we are 
vitally concerned about securing our embassies, and some of the 
ones that I have seen I know are far from being secure. If you 
would do that, it would be very, very helpful to us.
    Then I wanted to tell you that after your visit to the 
president of Macedonia 2 weeks ago, that General Walsh then 
invited me to go with him to visit the president. And he gives 
you and your message a lot of credit for the situation having 
calmed down at least for the time being. And General Walsh and 
I tried to convince the President that your message was a 
message that we are all supportive of. He was very pleased with 
that. In fact, I think he is going to be here to make the 
rounds.
    Secretary Powell. Fascinating gentleman.
    Mr. Young. He really is. But I just want to raise the issue 
of the embassy security because a lot of the places----
    Secretary Powell. We will look at that. We really should go 
down our construction list by priority, by those in greatest 
need. That is an account that really, I think, was underfunded 
over the years. After the Cold War ended and all these places 
opened up and there was an American presence required in 
substantial strength in so many of these new countries, I am 
not sure we invested in the way we should have at that time. We 
are doing that now.
    I want to thank you, Mr. Young, and all the other members 
of the committee who travel and get out to see what we are 
doing.
    Sometimes I know you take a little bit of criticism for it, 
but this is one Secretary of State who will always stand up and 
say I want Members of Congress to travel and go understand and 
see the world that is out there. I think it just supports my 
effort so much when you do that and when you also see the fine 
people who are out there representing the United States. Thank 
you, sir.
    Mr. Young. Mr. Secretary, thank you very much. I look 
forward to working with you as we develop our 302 B 
allocations, and do the best we can to cover all of your 
requirements and your needs.
    Secretary Powell. Thank you, Mr. Young.
    Mr. Wolf. Mr. Serrano.

                      UN ARREARS AND PEACEKEEPING

    Mr. Serrano. Thank you, Mr. Chairman. Mr. Secretary, I 
would like to put together two of my questions and get your 
vision and your thoughts on it. With respect to the whole issue 
of U.N. Arrears, a lot has been done to deal with that issue, 
but there is still a lot that has to be done. I want you to 
tell us where you think we are headed, where we should be 
headed, and what if any danger we run in our relationship with 
our allies. I know that arrears ties very closely to the issue 
of peacekeeping. I would like your vision, sir, on our 
peacekeeping efforts. I am a big supporter of peacekeeping 
efforts. Being a child of the 1960s, I think it is a great 
alternative to war. And I would like to get your sense of where 
we are there, how one ties to the other and what you think our 
role should be.
    Secretary Powell. With respect to our arrears, as you know, 
I think the former ambassador to the U.N., Ambassador Holbrooke 
did a tremendous job in bringing us together at the end of the 
last administration and getting an agreement with the Congress 
to pay our arrears, the next tranche of our arrears, $582 
million. That issue is now before the House, and I am working 
with Chairman Hyde and other leaders to get that taken care of 
as soon as possible. We are also discussing Mr. Ted Turner's 
additional $31 million to make this happen.
    Everyone thought it happened and we made a big deal of it 
at the end of the previous administration, and we were patting 
ourselves on the back and giving credit to everyone. But it 
hasn't been put into law. It is very important for the House to 
act on this and remove this irritant to our relationship with 
other countries who made sacrifices in order to bring this 
whole deal into being.
    On that same point, Mr. Serrano, I hope that the Congress 
will see fit to lift the cap on the peacekeeping allocation 
from 25 up to 28 percent. I hope and expect that as part of the 
State Department's authorization bill, it will happen. If we 
don't do that, then all we are doing is creating new arrears 
right away, and that is not good. This is the time to clean it 
up, fix up our relations with the U.N. and get on with it.
    With respect to peacekeeping, the President supports 
peacekeeping but he is always anxious to make sure that before 
we commit any U.S. troops or U.S. resources to such missions, 
we have a pretty clear understanding of what we are getting 
into, and whether the efforts we are making will solve the 
problem. I think peacekeeping comes one case at a time, and you 
have to analyze that case very, very carefully and make an 
analysis of what are we getting into, whether we will be able 
to solve the problem, or if it is a waste of resources. Is the 
situation right for the kind of peacekeeping we intend to 
perform? Is it really peacemaking or peacekeeping? We should 
always have a clear idea of the mission before us and what it 
is going to take and then do it well.
    We have an obligation as the most wealthy country in the 
world, and the greatest contributor of funds to these kinds of 
operations, to ask those tough questions. If we have satisfied 
ourselves, then I believe we should contribute resources to 
peacekeeping operations, and there will be occasional instances 
where U.S. troops are the right ones to go in. When they go in, 
however, I think we should have some indication of when they 
are coming out and how we transfer military functions to police 
functions and police organizations and not give military 
organizations missions that more properly belong to others. I 
have seen a few too many instances where you start off and you 
never transition out and you are essentially stuck there for a 
long period of time.
    That is one reason that President Bush has tasked Secretary 
Rumsfeld and me, and other agencies of the government, to 
review all the peacekeeping operations in which we are involved 
and see whether they are still relevant or whether there are 
other ways to perform those missions in a sensible way that 
will get us out of them.
    Mr. Serrano. Mr. Secretary, as you remember, I came here in 
a special election in March of 1990 and I didn't get to go with 
the freshman class to either Yale or Harvard to get that big 
briefing they all get at the beginning of the year. So someone 
told me at that time that the way it works is that the 
Authorization Committee puts it through and then the 
Appropriation Committee pays for it. I quickly found out when I 
got on this committee that that doesn't work all the time. So I 
am hopeful that you will serve, if you pardon the expression, 
as a lobbyist, in getting some of our colleagues to understand 
that perhaps the idea is to pay for these arrears as soon as 
possible. We need to handle this issue, and how we do it may be 
secondary to what we have to do, because it may sit somewhere 
else for longer than it could sit here.
    Secretary Powell. Mr. Serrano, you can be sure I will do 
everything I can to help educate the Congress on the subject, 
but lobbying would be wrong.

                            MINORITY HIRING

    Mr. Serrano. Lobbying wouldn't be very good. Listen, 
another issue that I touched on in my welcome to you, is that 
you and I have a great interest in making sure that our 
country's policies are put together by people from all segments 
of our society and who represent the aspirations of all our 
people. You are asking for more positions. I think it is about 
316 more positions. With that in mind, what are we going to do 
at the State Department to make sure some more folks who come 
from different parts of our society can participate in the 
future of the State Department and our policies?
    Secretary Powell. Mr. Serrano, I am totally committed to 
that. I think you know that. I thank you for the program that 
you have given us working with Columbia University and the 
community college in New York City, and I hope you will take to 
my heart that you include City College of New York, my alma 
mater in that course.
    Mr. Serrano. We heard you very loudly.
    Secretary Powell. We do have to get people that represent 
America in all ranks of the State Department. I am not 
satisfied at the diversity levels within the Department, but I 
am satisfied with the commitment that senior leaders have made 
to improve it. I had a wonderful group of Howard University 
students visiting the Department just the week before last; 
they were there on one of our outreach programs, and we are 
trying to turn them on to foreign service; to this kind of 
career. We are working with Hispanic community organizations to 
get more Hispanics involved. We are appealing to almost all 
types of diversity.
    I think we have to do not just these sort of targeted 
activities, but I think we have to do a better job of marketing 
the State Department, of selling the State Department, of 
selling foreign policy to these communities as a noble 
occupation, something that is exciting, something that you want 
to do to serve your country. We are going to go after specific 
minority groups, but more importantly, I want to convey a 
message to the entire country of what diplomacy is all about, 
and use that means as a principal means of getting youngsters 
interested in service to the country.
    I am not quite at the point where I want to do ``Be all you 
can be'' ads like the military does, but we might get there. I 
might be back to you for an ad budget one of these days, ``Be 
all you can be in Embassy Bogota,'' I think we have to have 
that kind of marketing outreach in order to touch all aspects 
of American society and get these kids turned on to foreign 
policy. Programs such as the Serrano Scholars, outreach with 
Howard University, and outreach to Hispanic community colleges 
all help us do that job. It is a commitment that I told all my 
leaders I expect them to believe in fully and to do everything 
they can to make come true.

                 EL SALVADOR AND THE ANDEAN INITIATIVE

    Mr. Serrano. Mr. Secretary, I want to save most of my 
questions for our next round, but I just have one final 
question and it joins two issues here. One question is El 
Salvador. We have been helpful, but El Salvador needs much more 
help. What do you think the administration will be recommending 
we should do to help the victims of the earthquake in El 
Salvador? And secondly, there is the Colombia situation.
    As you know in the Spanish press throughout the hemisphere, 
there is great concern that Colombia is both a blessing and a 
major problem. The blessing is the fact that we are going to be 
involved in trying to help; the major problem is the fear that 
we can end up militarily involved. I know that I should stay 
here on budget questions, but I have the fear that our budget 
resources would be used in some sort of a military involvement 
in Colombia. Joining them both together as a region that needs 
a lot of help, what can you tell me about those issues?
    Secretary Powell. With respect to El Salvador, we have 
tried to be as helpful and forthcoming as we can be in this 
time of crisis for them. I would like to give you an answer for 
the record as to what we can do beyond what we have already 
done. There is a pretty good piece of change in the FY 2002 
submission for them, and maybe there is more we can do. I would 
like to look at that and give you an answer for the record.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    With respect to what has been called Plan Colombia, that 
was last year. We are now calling it the ``Andean Regional 
Initiative.'' There is a reason for that name. It is beyond 
Colombia; It is the whole region, all the countries surrounding 
Colombia. We don't want to just push the problem out of 
Colombia and have it pop out somewhere else. It is more than 
just destroying coca fields and eradication; It has to be 
investment in democracy, it has to be investment in the rule of 
law. It has to be investment in alternate sources of income so 
that when somebody who has been growing coca leaves for drug 
traffickers is not going to do that anymore, it allows that 
person to earn a living and put food on the table. The Andean 
Regional Initiative, for which we are asking $882 million, will 
have less than half of that amount going to Colombia, and the 
rest of it going to the other nations in the region. Only half 
of it will be directed toward narco-trafficking. The other half 
will be directed toward human rights, democracy-building 
activities, law enforcement activities, building up the 
judiciary and building up the police forces in those nations. 
We are seeing this as a full-court press.
    It also has to be the case, and it is the case, that the 
real problem in the region is not caused by the region, it is 
caused by what happens on the streets of New York, the streets 
of all of our other major cities. It is not justa poor kid's 
problem, poor kids taking pot on the street corner, it is corporate 
lawyers, it is actors who over and over and over again continue to use 
drugs in an unlawful way. That is what is causing the problem in 
Colombia and the other nations of the Andean region.
    We have to not only go after supply and interdiction, we 
also have to make sure we are dealing with the demand and 
treatment side of this terrible problem.
    Mr. Serrano. I thank you for your answer, Mr. Secretary. I 
am looking forward to the details of how we intend to engage 
all countries in that area.
    Secretary Powell. Yes, sir.
    Mr. Serrano. Thank you.
    Mr. Wolf. Mr. Rogers from Kentucky.
    Mr. Rogers. Thank you, Mr. Chairman. Mr. Secretary, 
welcome.
    Secretary Powell. Thank you sir.

             DEPUTY SECRETARY FOR MANAGEMENT AND RESOURCES

    Mr. Rogers. It is music to our ears, especially mine, to 
hear you describe your plans for organizational reform at the 
State Department. I have sat on this subcommittee for 17 years, 
the last 6 as Chairman. I have traveled extensively; 6 or 7 
embassies a year at least, talking with the ambassador and the 
staffs and going through these hearings every year and studying 
the issues. There is a reason why we had breaches of security 
of the highest accord at State. There is a reason why we 
continue to be exposed to dangers in our foreign posts. There 
is a reason why the morale has been so low in the State 
Department. There was a reason why embassy personnel could not 
talk to each other at an embassy on the intercom system, much 
less talk to another embassy or to homebase except by cable.
    There is a reason why State was the most unmanageable, I 
think, of all the Federal departments. And that reason, that 
one reason, is that we had nobody in charge. Yes, we had 
Secretaries of State, but nobody was running the day-to-day 
business of the Department. Working on keeping the platform in 
shape so the Secretary and the policy makers could project out 
to that platform in each country. So it is music to my ears to 
hear you say that--hear you promise certain reforms.
    Forgive me, please, for being just a slightest bit 
skeptical because I have heard this for 17 years. In fact, last 
year we wrote into the appropriations bill the requirement that 
there be a Deputy Secretary for Management and Resources. We 
have had a Deputy Secretary for policy. We have had an 
Assistant Secretary for Management way down here, because you 
don't make a name at the State Department except in policy 
making. The people who do the nitty gritty don't get 
recognized, So the Assistant Secretary for management is way 
down here. People don't realize we have a worldwide 
organization at State Department, 184 countries, 200 plus 
locations that need top level management more than anything in 
my judgment.
    We mandated that you have a Deputy Secretary for Management 
and Resources to be sure that management and resources issues 
were at least on an equal plane with policy making at State. 
Where are we on that?
    Secretary Powell. I am well aware of the designation and it 
is in the law and I have not taken action to fill it. There are 
a number of other positions that are in the law that I also 
have not taken action to fill. I want to make sure that we have 
a management leadership philosophy in place before I start just 
filling things. This is a new position and I have concerns 
about it. I do know the reason that it was put in there, Mr. 
Rogers, and I thank you for your commitment to improving the 
management of the Department by your leadership in putting that 
position there. I am troubled, however, by the concept of two 
deputies. I think that it is adding another senior official who 
will be supervising other senior officials. I believe that with 
the one deputy that I have, and I don't know of any other 
department that has two deputies quite like that--at that same 
level--together with the Under Secretary for Management, I have 
the kind of people and the kind of organizational structure 
coming along that will satisfy every concern and requirement 
that you and the members of the committee had.
    For the moment, I would prefer not to fill the position, 
and frankly, I would like to sit with the committee after I 
have been around a little bit longer to see whether or not 
there is such a need for a position, or whether you would 
entertain a request by me to eliminate the position so I didn't 
have to fill it under the law. In effect, I have to start 
carving out new space, new staff, carving out new 
organizational responsibilities and charters and all the things 
that come along with adding a second deputy, and I think it 
does not necessarily accomplish the mission that you had in 
mind. I am taken with the mission; I know what it is you want 
to have accomplished and I would like to have the opportunity 
to prove to you that I can do exactly what you want without 
adding another senior-level position within the Department that 
does not add to the capacity of the Department but adds to the 
top deck of the Department.
    Mr. Rogers. Well, we have had an Assistant Secretary for 
Management for a long time.
    Secretary Powell. Under Secretary.
    Mr. Rogers. Under Secretary. That staff has been charged 
with the management duties we have talked about. The problem 
was that person did not have the stature in the Department, did 
not have the ability to bring management issues to the 
attention of the Secretary as a Deputy Secretary would be able 
to.
    Now, I am not talking about creating a new bureaucracy. I 
am talking about elevating the importance of an existing 
responsibility. We will, of course, let you run the Department, 
but I am going to be keeping a really close eye, as will you 
and others, on whether or not you can drag screaming, into at 
least the 18th century, a State Department bureaucracy.
    Secretary Powell. I am sure you will let me know whether I 
am succeeding or not, Mr. Rogers. I want you to. I want you to 
go out and talk--if 6 months from now I am back up here 
testifying on a subject, and you are not able to say that in 
your travels around the world and visiting our embassies you 
have not seen an improvement in the way in which they are 
linked to the home office; in terms of their morale; whether 
they think they are getting the kind of support they want to 
get; whether General Williams has been there to check out what 
they need in the way of facilities. If you get that sense from 
them, that the Under Secretary for Management who starts the 
day with me at 8:30 in the morning and ends at 6:00 in the 
evening, sitting in my office as we close the day, every day, 
myself, Deputy SecretaryArmitage, Under Secretary for Political 
Affairs Grossman, and Under Secretary for Management Grant Green. The 
four of us sit in my little private office with no one else, and we go 
over every single thing we have done that day with respect to getting 
our young men home from China, where the Berlin embassy ought to be, or 
whether or not we should allow retirees back into the building so they 
can be part of the State Department family and go to the library, every 
one of those issues, from the smallest sparrow that fell out of a tree 
to the biggest problem on our watch, the four of us go over every 
night. There is no lack of access. I don't think it was so much an 
organizational problem as it might have been a philosophical problem, 
and the manner in which the Department was being run.
    Mr. Rogers. Well, I can't think of anybody in the world 
that I would rather trust to manage an agency of this size than 
General Colin Powell with your background experience and 
motivation. So I feel better about things. But again, this is a 
tough organization to organize.
    Secretary Powell. If I could make one more point, sir. And 
I am trying to fix things, not in a personal way, so that it 
just reflects Colin Powell, Rich Armitage, Grant Green and Mark 
Grossman, but fix it structurally so that it doesn't, become 
dysfunctional when a new team comes in; but put in place a 
system that is working so that when a new team comes in, they 
say this thing works and all we have to do is keep it going.

                       RIGHT SIZING AT EMBASSIES

    Mr. Rogers. That is exactly what I like to hear you say. 
The Caton Crowe report, the Carlucci report--all of the reports 
and commissions on reforms that you mentioned earlier are 
laying there with good things in them. I was especially taken 
with the Crowe Commission report, which recommended rightsizing 
our embassies and regionalization of overseas posts, including 
regionalization of much of the technical and financial 
functions. Improving interagency coordination.
    Most people nowadays don't realize that at any given post 
the average number of State Department personnel is maybe a 
third of the personnel we have there. You have got Agriculture 
and you got Commerce. You got the FBI, and various other 
departments of government whose personnel are sent there by the 
home office, not by the State Department. Yet the State 
Department must maintain the facilities for all of those 
personnel and operate in that country. The ambassador in the 
country is technically in charge of the whole team, but because 
he doesn't pay the salary of two-thirds of the personnel that 
are there, really can't command that post. That is another big 
problem I think you are going to be facing.
    Secretary Powell. You really hit on something there, Mr. 
Rogers. In some of our embassies, we have 46 different 
government agencies represented. Many of these agencies are 
there because of direction that not only came from the 
administration, but might have also come from the Congress. You 
want to do more with international criminal activities. You 
want to do more with knocking down narcotrafficking and so more 
and more agencies go overseas to do those jobs and that is 
good, but it can get out of control.
    One way we are trying to deal with this is to have 
rewritten the President's instructions to ambassadors going 
out. Our first new ambassador in the new administration was 
Ambassador Cellucci going to Canada, and his letter was ready 
for him the day he was sworn in. It did not take two years 
rewriting the letter. It was ready for him. What I am trying to 
make clear to all the ambassadors that we are now sending out, 
and the ones that are out there now, is that you do not work 
for me. You do not work for the Secretary of the State. You 
work for the President.
    You are the Chief of Mission. Chief of Mission means all 
those folks, all of them, are under your responsibility and 
supervision. You may not pay them. You may not rate them, but 
you have a lot of authority over them, and we expect you to 
start using that authority in the name of the President. As the 
Secretary of State supervising you on a daily basis I will help 
you crash through whatever bureaucratic obstacles exist with 
other departments and agencies. Right-sizing is a good term, 
but it is a difficult term to implement. We will be looking at 
all these embassies to see where we can reduce, where we can 
cut, where we can regionalize, and where we can move financial 
operations such as we are doing in South Carolina.
    Those are the kinds of things we ought to be looking at. As 
you put the Internet on every desk, as you start to wire all 
these people, this should give you the opportunity to do more 
regionalization. You can take some of those functions away and 
stick them somewhere else, because when you are in virtual 
land, it does not make any difference how far away it is. It is 
only a nanosecond away and that is why this all links together.
    Mr. Rogers. We pioneered over the last 2 years with then 
Ambassador Rohatyn in France, the idea of American presence 
posts to disperse out of the capital city, in this case, Paris, 
small representations of America's presence. I think in France 
it is now five----
    Secretary Powell. Yes.
    Mr. Rogers [continuing]. APP posts. I visited three or four 
of them. One or two of their embassy personnel, self-foreign 
nationals, working for us. There is no big embassy building, or 
consulate. They work in an office building. There is no 
American seal on the door, a bull's eye for a lot of 
terrorists. There is no Marine guards present. It is a very 
small presence; and, yet, that staff spends its time serving 
the American presence in Marseilles, Toulouse or wherever, and 
serving the American presence without all of the elaborate 
presence that a consulate or an embassy would require and at 
greatly reduced costs.
    What are your feelings about the APP posts and the need to 
maybe spread those around some?
    Secretary Powell. I think it is an excellent idea, and it 
worked very well. When I first heard about it, I asked 
Ambassador Rohatyn to come in and visit me. He was already out 
of office then and back in New York. Felix came down and sat in 
my office for an hour and a half, and we went over this. I 
think it was an excellent idea, and we are looking at ways to 
replicate it where it seems appropriate or possible.
    What one has to keep in mind is you cannot start giving 
these folks all that comes with a normal embassy presence. It 
has got to be two or three people in a storefront location and 
their eyes and ears out there within the community being an 
American presence. I think it is a good idea, and we are 
looking at ways to replicate it.
    Mr. Rogers. Wonderful idea. Thank you. I will have other 
questions.
    Secretary Powell. Thank you, sir.
    Mr. Wolf. Mr. Obey.

           SURVIVORS' RIGHTS, AIDS POLICY AND THE MIDDLE EAST

    Mr. Obey. Thank you, Mr. Chairman. Mr. Secretary, you 
talked earlier about wanting to encourage people to work for 
your department and indicated you wanted to send a message 
about the value of public service in that realm. I would 
suggest that one way we can send a better message than we are 
sending now is if we do more than we do when State Department 
personnel who are serving their country are wiped out in 
terrorist attacks. I recall, for instance, Julian Bartley and 
several others who were killed in Kenya. Julian Bartley when he 
served as Consul General in Kenya provided crucial service in 
saving the life of one of my constituents, and I have been most 
distressed to see that we do not really have a policy that I 
think adequately compensates the survivors and victims.
    I am not quite sure what that policy ought to be, frankly, 
but I would hope that you would look at that question and see 
whether or not we should be providing a policy which is more 
forthcoming with respect to their survivors. And I am just 
going to give you four or five points that I have in mind in 
order to save time, and thenyou can bounce back, however you 
would like.
    Secondly, I appreciated the Chairman showing us the film 
about the Sudan. I frankly do not know what we ought to do 
about a situation like that, and I think one of the great 
problems in public life is that there are often a lot of 
problems that you see that are excruciatingly serious. And the 
problem is often we do not know what to do about them. But 
sometimes we do know what we can do, and we are still, as one 
former President said, ``frozen in the ice of our own 
indifference.''
    And what comes to mind to me in that category is what is 
happening to Africa with AIDS. I really do believe that the 
Western World has far greater capacity to meet that crisis. 
That really is a crisis of our souls, in my view; and I think 
we have a much greater capacity to deal with that issue than we 
are in fact bringing to bear on the situation. It is certainly 
not our primary responsibility, but it is our human 
responsibility. And I would hope that between the State 
Department, CDC, World Health Organization and all the other 
various agencies, that this is moved significantly higher on 
not just our government's but on the Western World's priority 
list than it is. We are about to lose half a generation in some 
of these countries. It is an incredible human tragedy.
    Thirdly, I would like to make a point--and this is not a 
criticism of you. It is a criticism of my own institution, this 
House. I did not support fast-tracking the original plan to 
provide aid to Colombia. It is not that I am against doing 
something there, but I think that there is a reason for this 
institution to have the normal authorization and appropriation 
process so that we do in fact provide adequate oversight of any 
Administration's sworn policy initiatives.
    This Congress, in my view, had woefully inadequate 
oversight of the previous Administration's proposal with 
respect to Colombia. And as a result, I am concerned that we 
are going to be faced with mission creep in that operation. I 
guess I raise it simply to bring to the attention of my own 
colleagues the fact that there is a reason why we ask 
committees to carefully look at issues before we move ahead, 
rather than asking House or Senate leadership to simply devise 
what they think is a hot idea and then ramming it through with 
no real opportunity to refine it so that it in fact will 
accomplish its stated purpose.
    I do not think there is a lesson in there for you. I hope 
that there is a lesson in there for us. And then I would like 
to simply get to one regional problem. My main interest in 
foreign affairs through the years has been primarily focused on 
our relationship with Russia and China, and what is happening 
in Northern Ireland and the Middle East. With respect to the 
Middle East, I would note that since Ariel Sharon on September 
28th made his now-famous visit to Temple Mount, 416 
Palestinians are dead and 70 Israelis are dead because the 
Palestinians responded in the worst possible way to that 
action. They responded with their spleens rather than their 
heads, and as a result, we have seen a remarkable string of 
events in the Middle East.
    I do not think there is any Member of this House--and I 
have been following this issue since 1957, and I have been 
working on it as a member of the Subcommittee of Congress since 
1973. I do not think there is a Member of Congress who has 
leaned over backwards more than I have to see that the Arab 
case receives adequate consideration in our country's higher 
circles and to see to it that the legitimate needs of the 
Palestinians are taken into consideration in our own 
government's policy.
    But I was incredibly appalled by the lack of a response 
from Mr. Arafat to the offer of peace made by the previous 
Israeli government, and I think that the Palestinian response 
was about the dumbest thing that they have ever done. I think 
it was incredibly gutless and short-sided, and as a result, I 
think they have caused a series of events in Israel which have 
placed in that country a government which seems to me to be 
spectacularly obtuse in terms of what the long-term 
consequences are, if there is not compromise on both sides. And 
as you know, it is complicated by the brain-dead policy that we 
are getting out of Syria these days. And so, frankly, at this 
point I think that that cycle of events has driven us further 
away from peace than we have been in that region at any time in 
recent memory.
    And I could not help but be struck by a column which 
appeared by Tom Friedman in The New York Times a few days ago, 
when he said that the most important thing the United States 
can do now is one simple thing, tell the truth. It means 
telling the Palestinians that rejecting the Camp David peace 
process and launching into fatuity has been the most idiotic 
thing that they have ever done. It means telling Israel that if 
the issue is defending a Jewish state within secure boundaries, 
the U.S. will be at Israel's side, but the U.S. will not defend 
Israel's eternal occupation of the West Bank. It will not 
defend settlements recklessly built in the heart of large 
Palestinian populations, and it will condemn the continued 
seizure by Israel of more Palestinian lands to expand 
settlements. It means telling Syria to put up or shut up if 
they want the Golan Heights back.
    And Mr. Friedman made the observation that he felt that 
U.S. policy appears to have become afraid to denounce what we 
knew to be the lunacy of Israel's expanding settlements while 
negotiating peace. It became afraid to speak up against the 
hatred Yasser Arafat was nurturing in Palestinian textbooks and 
mosques while supposedly negotiating peace.
    I notice that several members of the Arab world indicated 
that they thought that the ball was in America's court and that 
we needed to make an initial initiative. I really believe at 
this point the ball is in the Arab world's court. I think it is 
in the Palestinian's court, but I do hope that the Israeli 
government will be more flexible than I expect they will be in 
dealing with the situation, because in the long term, no matter 
what our frustrations, we have to try to move those parties 
closer to an agreement. And I just, for whatever little it is 
worth, want to simply say as one Member of Congress that if 
there is anything at any time that this institution can do to 
be helpful--and frankly usually in the Middle East the Congress 
is less than helpful--but if there is anything that at any 
point any of us can do to help speak the truth to both sides in 
ways that will be clearly understood, count on me, because I 
think this is one of the great tragedies of the world. And I 
think we have to find a way in the interest of all of the 
parties, not just our own, to have each side overcome its 
shortcomings, while protecting their legitimate interests. It 
is going to be virtually impossible, given what has happened. I 
do not know what observations you have. Probably the wisest 
thing for you to say publicly is nothing, but I do think--and I 
do hope that you will be brutally frank with all sides in the 
Middle East, no matter how much they dislike it, because that 
is what they need to hear.
    Secretary Powell. Thank you, Mr. Obey. Let me begin by 
first thanking you for your concern over those members of the 
foreign service, civil service, or foreign service nationals. I 
know you would include those who died in service to our Nation, 
and I will review our policies to make sure we are doing the 
right thing with respect to providing for their families, in 
terms of compensation, memorialization and recognizing their 
sacrifice.
    On the subject of the HIV/AIDS, you are quite right. It is 
a pandemic of the worst kind. It is not just a health crisis. 
It is an economic crisis. It is a crisis of survival for not 
only families but in some cases for whole Nations who see up to 
a third of their population already affected by this terrible 
disease. The President has made it one of his first priorities. 
We have been meeting on this regularly over the last 2 weeks. A 
joint task force has been created at the cabinet level, co-
chaired by me and by Secretary of Health and Human Services 
Tommy Thompson, and has been working with the new head of this 
office in the White House, Mr. Scott Evertz; we are also 
looking into an idea that Kofi Anan will be presenting in Abuja 
today, a global trust fund.
    We have some ideas as to how such a trust fund might 
operate with American leadership for the purpose of providing 
the large amounts of money that are needed, not only for 
treatment programs but for prevention programs and ultimately 
to find a cure. It will also provide for education programs 
that will help with both prevention and how to get the right 
kind of treatment. We are seized with that, and I think the 
administration and the Congress have a pretty good record. We 
are the largest contributor of funds to the solution of this 
problem. The State Department accounts for this problem have 
doubled in the last couple of years, and the budget I am 
defending at this time includes a 10 percent increase in those 
accounts.
    With respect to Colombia, I hope that the committee will 
provide oversight. I believe oversight of such programs is 
important; and now that it is being expanded to the Andean 
Regional Initiative, we welcome that oversight and look forward 
to working with the committee and other committees of Congress 
in making sure that the nation understands what the Andean 
Regional Initiative is all about.
    With respect to the Middle East, it is a very troubling 
time, more than troubling. It is a time of crisis because we 
have gone backwards in the last year. For reasons that we do 
not need to get into here and time would not permit anyway, Mr. 
Arafat was not able to consummate the deal that was apparently 
on the table at the end of the previous administration, but we 
are where we are. President Bush, I, and other officials in the 
government have been speaking candidly to both sides, and we 
have not been pulling our punches. I have spent a lot of time 
on this problem and with a great many leaders that have come 
through my office and through the oval office with the 
President--most recently, yesterday, the Prime Minister of 
Lebanon.
    I went to the Middle East on my first overseas trip. I went 
to Damascus, and visited with President Assad and leaders in 
the region. We are getting a consistent message out to both 
sides as to what we think they have to do in order to get the 
level of violence moving in the other direction again.
    We now have contacts in place under U.S. auspices at 
several levels between the two sides in order to get things 
moving again, and we make the following point to both sides: we 
cannot get back to peace discussions until the violence starts 
down. That is clear. To think America could snap its fingers 
and make everything well and we are all back together again is 
wrong. The two sides are going to have to take action. We can 
help. We can nudge. We will be there when you are ready to 
talk. We are there now trying to connect them together again; 
but at the end of the day, the two sides have to make the 
initial steps that will start violence moving in the other 
direction. Then other things can happen.
    I have seen a little bit of progress this week--a little 
bit of traction. Hopefully both sides understand they have 
reached the limit of the strategies that they have been 
following. We are also working closely with the Syrians and 
with the Lebanese to get them to play a helpful role, but it is 
as tough as I have ever seen it before in the region, Mr. Obey, 
as you indicated. I can assure you, however, that President 
Bush is fully engaged and I am fully engaged. We are doing it 
quietly--not with a billboard announcement every day. But 
believe me, there is no lack of engagement on the part of this 
administration.
    I will stop at that point.

                          MEMORIAL IN LEBANON

    Mr. Obey. Thank you for your comments, and I will not 
respond on any of the items except on AIDS, to simply say I 
appreciate what you are saying, but whatever we are doing and 
whatever we are likely to do, it will not be enough.
    Secretary Powell. No.
    Mr. Obey. We need to do more.
    Secretary Powell. Yes, sir.
    Mr. Obey. Thank you.
    Mr. Wolf. As I recognize Mr. Kolbe, I am obligated to 
comment on what Mr. Obey said. I think he is right with regard 
to Africa. I sent you a copy of my report. You never know what 
is read and what is not read, but there will be 40 million 
orphans in the year 2015, and when you go from Sierra Leone to 
Guinea to the Congo, it is just a mess. And so it is AIDS, it 
is education, it is democracy-building, it is so many things. 
The other thing is, Mr. Obey is exactly right with regard to 
how we treat those who work for us. I was in Lebanon last week. 
We went out to the site where the Marines were. It is a parking 
lot. It looks like National Airport. There is nothing. There is 
not a memorial at the embassy. There is a secretary who is 
working on it, raising money at a dollar a time, a dollar a 
person, and has now raised $12,000. That should have been done 
by our government for those 241 Marines who died. I went to the 
site of the embassy where it was blown up. There is nothing. 
There is now a little memorial on the embassy grounds.
    Secretary Powell. Yes.
    Mr. Wolf. We should do more to show the families how deeply 
we care and how appreciative and obligated we are and also to 
treat the families very well. But I could not believe when I 
went to the site last week--nothing for the 241 Marines. That 
is the largest act of terrorism against the United States in 
the history of the United States and at the American embassy, 
there is nothing. With that, I will recognize----
    Secretary Powell. We are looking into it and we are working 
with the Lebanese government to see what might be appropriate.
    Mr. Wolf. Mr. Kolbe had to go out, so we are going to 
recognize him when he comes back. Mr. Taylor.

                        VISA WAIVERS FOR RUSSIA

    Mr. Taylor. Mr. Chairman, Mr. Secretary. I welcome you as 
my colleagues have, and look forward to working with you. As 
you know, I have a lot of interest in Russia. I was honored to 
work with former President Bush and Ambassador Strauss on 
Russian issues as a freshman in this Congress in the early 
1990s. We worked with Speaker Gingrich to form a Congress-Duma 
representation. I have been to Russia many times with Curt 
Weldon and Amo Houghton and other Members in the Congress. We 
have worked with the Duma in all areas from talking about the 
stepdown of our nuclear arsenals to encouraging private 
ownership of homes.
    One of the things I would bring to your attention today and 
ask if something could be done, we have had a lot of members 
from Russia come to the United States. We encourage business 
travel, university, family visits, as well as tourism. And it 
is very difficult to obtain a visa. It takes a lot of time, and 
it is very costly. In Russia, given the distances, someone who 
has to travel several times to be interviewed all the way to 
Moscow, in many cases, that is very difficult. I recognize that 
we have to react many times as the host country, and our policy 
mirrors their policy.
    I was wondering, we have some 29 countries that participate 
in a visa waiver program right now, which allows these 
countries' citizens to visit the United States without first 
having to secure a visa through the consulate. I wonder if we 
could begin negotiations with Russia to see if we could obtain 
such a program for Russian and Americans, you know, over a 
period of time and under carefully structured guidelines?
    Secretary Powell. I will have to look at that, Mr. Taylor. 
It has not crossed my desk, but let me take it for the record 
and see what we can do, and I will get you an answer back for 
the record.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Taylor. I will be happy to talk further about this. We 
have discussed this in Russia some months ago with their 
foreign ministry, and there is some interest--or at least it 
seemed to be some interest in working with our country in this 
area. So I appreciate that. I will have other questions later 
but thank you very much.
    Secretary Powell. Thank you, sir.
    Mr. Wolf. Mr. Kennedy.

                 WAR CRIMES TRIBUNAL AND GLOBAL POVERTY

    Mr. Kennedy. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary. I would like to ask you about the U.N. war crimes 
tribunal funding and also how you see us going forward if wedo 
not end up ratifying the important agreement, the Rome statute that the 
President signed--former President Clinton signed on December 30th. And 
I would like to ask you what you see as our role in helping develop a 
legitimate judicial process internationally so that we can address 
these issues going forward. That would be my first question. And I 
would like you to mention a word, if you would, given that there is a 
war crimes tribunal that is needed in East Timor and Indonesia to 
address the problem that the Indonesian government has seemed to fail 
to address in terms of war crimes that have been committed there. And I 
would ask you to comment on what steps you are taking to pressure 
Indonesia to address these war crimes but also to disarm and disband 
the militias and arrest their leaders who are continuing to perpetrate 
many of these war crimes.
    Finally, I would like to ask you to comment on a statement 
that was made by Admiral Barbara McGann, who is provost of the 
U.S. Naval War College in my State, who said that the impact of 
global poverty and inequity is going to have a significant role 
in U.S. security interests in the future as military threats. 
What does that say about our role, you coming from the military 
and now in your new role as the Secretary of State, in 
addressing this new challenge that we have in global 
instability that demands a strong response. As you and the 
President have said, a deliberative response on the military 
side but nonetheless a strong response. How do we put that in 
place if we are not to use our military so that we can mitigate 
the instability that comes from these crises that very much are 
a result of global poverty and instability within a given area. 
So those are the three points that I would like you to address, 
if you could.
    Secretary Powell. With respect to war crimes, as you know, 
I do have a special person in office on my staff that is 
interested and follows such matters. It is an office that was 
created in the previous administration, and after reviewing it, 
we found it was doing very, very good work. We have retained 
the office, and I have appointed somebody to head it. We are 
very concerned with that matter.
    Mr. Kennedy. And I thank you for the increase in funding.
    Secretary Powell. Yes.
    Mr. Kennedy. That you have associated to that.
    Secretary Powell. With respect, however, to the 
International Criminal Court, which President Clinton signed--
he signed it and at the same instance said he did not think it 
would be going up for ratification, and that is the position of 
the Bush administration. We have concerns about the 
constitutional rights of our servicemen and women who might be 
overseas and somehow become subject to the risks associated 
with such a court.
    It was a problem that the previous administration had with 
the ICC, and it is certainly a problem this administration has 
with the ICC. I had a problem with it when it first became an 
issue in the early 1990s when I was chairman of the Joint 
Chiefs of Staff, and realized that we might be subjecting young 
men and women who volunteered to serve for their nation, under 
the laws of their nation, under the constitution that we all 
hold so dear, suddenly finding themselves as a result of being 
sent somewhere to execute American foreign policy, coming under 
the dictates of the International Criminal Court.
    Mr. Kennedy. If I could just for a second, I know this is a 
big issue, but I also know that this Rome statute makes it very 
clear that U.S. soldiers would be subject to U.S. original 
jurisdiction before being subject to the international war 
crimes tribunal. I have a tough time thinking that our own 
judicial system would not meet the requirements and criteria of 
a sound, judicial process by the international criminal court.
    So I appreciate your point, and believe me, coming from a 
State that has a heavy investment in our men and women in 
uniform, I know of your concern. And I share that, but I do 
think that clearly as a world community, a small global village 
that is getting smaller by the day, we need to press forward 
and continue to be the leaders. And I know we have had a major 
stake in making sure our interests are represented in this 
court, given the fact that our people have been the ones that 
have drafted many, many provisions within this court. I just 
wanted to say that because I know your need to make the 
Administration's policy understood, but I also appreciate that 
that cannot be in a vacuum of our leadership towards this 
endeavor of getting an international criminal court.
    Secretary Powell. It is in a vacuum of our leadership 
responsibility. That is why we support international tribunals 
for specific instances in specific cases, such as the 
international tribunal for the former Yugoslavia, and not 
withstanding what you have just said, apparently the kind of 
protections you suggest are, in the ICC, not enough to satisfy 
the military leaders and the political leaders of both the 
previous administration and this administration.
    This administration feels more strongly about it, I think, 
than the previous administration, because President Clinton did 
sign it in order to protect our ability to influence the 
deliberations that were involved in such a court but did not 
have sufficient confidence that it protected our interests that 
he would say in the signing statement, by the way, we are going 
to send this up for ratification, because he felt the same 
obligation to the men and women in the uniform that President 
Bush feels to the men and women in uniform. It is still and 
will remain the position of the administration that we will not 
be sending the ICC up to the Senate floor for ratification.
    With respect to Indonesia, in every meeting I have had with 
Indonesian leaders, I have made it clear to them that they will 
be judged on human rights performance as they deal with the 
very difficult situations that exist in Indonesia, both with 
respect to East Timor and bringing to justice those individuals 
in the military and paramilitary who we know are guilty of 
human rights abuses. I have also cautioned them in the 
strongest possible diplomatic way I can, that as they undertake 
operations to preserve the integrity of their nation in places 
like Sulawesi, they have to make sure that they meet acceptable 
standards of military performance and human rights performance 
and accountability. We have given that message to them in the 
clearest possible way.
    With respect to the admiral's statement that the impact of 
global poverty is as significant as military threats, that 
depends on the nature of the military threat. However, I would 
not deny in the slightest that global poverty translates into a 
threat because when you have people who see wealth exploding in 
other parts of the world, when you seepeople who are denied 
opportunity to that wealth because they do not have a stable political 
system, when they are not living under the rule of law, when they are 
not living under a free market system, when their children are not 
being educated and people are saying, you have democracy. Big deal, I 
do not have any food on the table. What good does it do me? Then that 
is a threat to stability in that region and to the world.
    I think that as the United States performs and pursues its 
foreign policy, we have to stay militarily strong, because 
there will be military threats; but at the same time we have to 
encourage democracy and the rule of law. We have to push for 
free trade agreements. We have to get trade PPA authority in 
order to pursue free trade agreements. That is what the whole 
Summit of the Americas was about this past weekend in Quebec, 
talking about the rule of law, talking about democracy and 
talking about free trade, just so people who are in poverty can 
see a future that is out of that poverty. That will only come, 
we believe--and the 34 nations that were all in Quebec 
believe--when one has democracy, the rule of law and a free 
market-an economic system that allows wealth to be generated. 
It is not either/or. Global poverty is a threat. HIV/AIDS is a 
threat. Military threats will come along and when those 
military threats come along, you have to make sure you have a 
first-class military to deal with them and have a first-class 
State Department to try to pick them off before a military 
response is required.

                            NATION-BUILDING

    Mr. Kennedy. Well, that was the final comment I want to 
dovetail with. In lieu of a military response, we need to not 
only buildup the regional response capability, but we need to 
put in place something that embarks the nation on an ``ounce of 
prevention is worth a pound of cure''. We have to have good 
nation-building exercises. Now, you know, the administration 
says they do not want to be a part of nation-building. Guess 
what? They are going to be part of nation-building whether they 
like it or not or we are not going to live in a safe world. So 
if it is not through the military, what is it through?
    Secretary Powell. There are lots of ways to build nations. 
You build nations through things like the Marshall Plan. You 
build nations by writing a constitution for them that puts them 
on the path to democracy as we did in Japan and did in Germany. 
There are lots of ways to do nation-building with all the 
assets that are available to us as a Nation, not just 
government assets, such as what our NGOs do.
    Mr. Kennedy. Exactly.
    Secretary Powell. What our private sector people do, that 
is nation-building. When one of our large companies invests in 
a factory in an undeveloped nation, that is nation-building. 
There are lots of ways to nation-build. What the administration 
has said, however is we have to be very careful when we send in 
armed troops carrying helmets and guns and say we are building 
a nation.
    Mr. Kennedy. You bet.
    Secretary Powell. We are probably doing something other 
than building a nation. We are preserving a situation of 
security so that a nation can be built, but we must make sure 
we use the right tools for the right job. That is what the 
administration is saying.
    Mr. Kennedy. Well, I appreciate your position of leadership 
in helping to convey to the American public the importance of 
this new role that our country is going to have to play if it 
is going to be an international leader in the future, and I 
would only add one caveat. I have been to places in the world 
where we have great investment, and you can ask the people 
there and they are not much happier, because they are still 
being paid pennies on the dollar and even in those countries 
they are still the equivalent of pennies on the dollar.
    And unless we put caveats in these trade accords that 
ensure that people have the power to represent themselves in an 
organized fashion, you know that the global powers that be and 
the financial interests are going to run roughshod over poor 
people all over the world and exacerbate the wealth disparity 
in this world. So that is my caveat to your promotion of the 
President's Fast Track and free trade proposal, because I think 
it is an important proposal, but only if we have the important 
safeguards for workers' rights as well in there. And I have 
been down to the Maquiladoras. I have been to many other places 
in the world, and things that call themselves ``American 
companies'' would be locked in jail if they were to exist in 
this country, because they are an abuse of labor and working 
conditions. So with that, thank you, Mr. Chairman.
    Secretary Powell. Thank you, Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Secretary.
    Mr. Wolf. Mr. Kolbe.

                       STATE DEPARTMENT EMPLOYEES

    Mr. Kolbe. Thank you, Mr. Secretary, and welcome before the 
subcommittee. Mr. Chairman, thank you very much. I just could 
not help but think earlier you were talking about the idea of 
maybe you would have to have an ad campaign for the foreign 
service and you said, you know, maybe following the military 
lead, maybe it is ``be all you can be, Embassy Bogota''; but I 
think if we are going to follow the military lead, the new line 
is going to have to be a State Department one and everybody 
will need their own State Department here.
    Secretary Powell. No comment.
    Mr. Kolbe. I do want to say having had an opportunity to go 
on and lead a number of Congressional delegations and visit our 
embassies overseas and work with our foreign service, I cannot 
say enough good things about the people that you lead, and I 
think they do not get enough credit by the people of the United 
States, by the Congress of the United States, by our media. We 
have some of the--I think you lead the most dedicated, hard-
working, competent group of individuals that works for the 
United States Government. Every time I travel overseas, I am 
exposed to the people in our State Department, in our foreign 
service, I am just in awe of the work--the hard work they do, 
sometimes under extraordinarily difficult conditions. And I 
just want you to convey to them how proud I am of the work that 
they do for us.
    Secretary Powell. Thank you, Mr. Kolbe. I know you will not 
mind if I expand your comment about the foreign service, 
because I know you also meant to include the civil service and 
foreign service nationals.
    Mr. Kolbe. Absolutely. I am including all of them. You are 
absolutely right.
    Secretary Powell. One of the things that we are going to do 
in the State Department is to use more inclusive terms, so we 
are not just seen as the foreign service, but a family, made up 
of the civil service, the foreign service, and foreign service 
nationals. This will start to break down some of the barriers 
that might have kept us from being as efficient aswe could be, 
as we use all parts of our family and all members of our family come 
together. I do thank you for that much, and I will be happy to pass on 
your compliments. Thank you.

                            THE MIDDLE EAST

    Mr. Kolbe. Thank you. I did just return--I know you have 
addressed the issue of the Middle East, but it is very much on 
my mind. I just returned----
    Secretary Powell. I know.
    Mr. Kolbe Yesterday or 2 days ago from the Middle East 
leading a Congressional delegation for the foreign operations 
subcommittee that I now chair,--serving on this one and 
chairing that gives me a great opportunity to bring the two 
pieces together of the foreign operations and our programs 
overseas with the people who administer through the State 
Department, and so it is a wonderful opportunity. Mrs. Lowey 
was on the trip, my ranking Democrat. We also had Mr. Wicker 
from the subcommittee, Ms. Pelosi from the full committee, and 
four of our very distinguished and senior representatives from 
other committees.
    When we were there, we had the opportunity to meet with 
Israeli Foreign Minister Shimon Peres. We met with Prime 
Minister Sharon. We met with Arafat, and we had a very lengthy 
breakfast with President Mubarak of Egypt before we left the 
region. I just want to take a moment to share with you 
something that--and I speak for myself, not all the other 
members of the delegation, but I think I probably encapsulate 
the thinking of most of us there. We came away with--of all of 
these people, from all different sides of this picture, a 
consistent picture and one that this continuing violence 
threatens to engulf the region.
    And the second is that the violence threatens the long-term 
economic well-being of the region, especially the West Bank and 
Gaza and also, I might add, in Jordan. Which in and of itself 
is only--exacerbates the cycle of violence and the potential 
for violence. I think this last point is particularly important 
because the economic losses suffered by the Palestinians are 
going to take many years to restore and I am not making any 
judgment about the cause of the problem, but we are set back 
years now in the Middle East.
    Fifty percent drop in the GDP in the last 8, 10 months 
there. More than 40 percent unemployment. When you are 
desperate and you cannot feed your children and you know if you 
blow yourself up in front of a bus, Saddam Hussein is going to 
give a $10,000 payment to your family, maybe that is the better 
way out for some people; and we need to do something about 
trying to reduce this level of violence. The only ones that are 
gaining from this are terrorist organizations like the 
Hezbollah and the HAMAS. I am not here to tell you, and you do 
not, I know, have any easy answer to this. Administration after 
administration has struggled with this problem, but we do have 
a few suggestions that we want you--we would certainly like you 
to consider. And I know you addressed some of these with Mr. 
Obey, and I am just going to repeat them, though, for your 
benefit of what our thinking was.
    One, we universally heard from all sides that the United 
States has to stay engaged and I know you said you were going 
to be engaged, but they translate that of course into the idea 
that we need to have a special envoy that somebody--only the 
United States can really make this thing happen.
    Second, there would have to be actions to facilitate a 
simultaneous end to the violence on both sides. And third, we 
have to have continued economic assistance to the region to 
help provide--prevent a further slide in the economic and 
living standards.
    And I think the key thing we heard, again, from all sides 
here, Israel, Palestinians, Egypt, Jordan was that the Jordan 
free trade agreement needs to get passed as soon as possible. 
Now I have been one of those that is argued that we need to 
have some consensus on where we proceed with the other element 
of the administration's trade agenda, but I have to admit I 
came back from the Middle East perhaps with a slightly changed 
viewpoint that the passage of this before the parliamentary 
election in Jordan this fall may be absolutely critical for 
that regime and without saying--without trying to suggest any 
danger of the regime, but I think it is just extraordinarily 
important for the king that we get this done.
    And finally, that we get the parties to the table to start 
talking again, if only to take the smallest of the issues. We 
are going to have to take some basic steps to restore the trust 
and start building levels of confidence on both sides. It seems 
to me the Egypt-Jordan peace initiative framework may be a good 
basis of discussion, and I am pleased to see that since our 
visit, there has been some movement in this direction.
    I guess, Mr. Secretary, in summary, I come back from the 
region with a tremendous sense of urgency about the situation, 
about halting the violence and the danger that it presents to 
the United States and everything that we stand for in the 
region and the world if we are not able to prevent this from 
spinning out of control. I guess my view is that the 
administration is going to have to be more assertive in helping 
to bring the parties together.
    Since you addressed this in large extent with Mr. Obey, let 
me just focus on the issue of the free trade agreement and the 
economic issue and whether or not you think the administration 
will want to proceed as rapidly as possible with the approval 
of the Jordan free trade agreement.
    Secretary Powell. Of course the administration is very 
strongly committed to the Jordan free trade agreement. I cannot 
talk about timing. I think I really need to let Mr. Zoellick do 
that, our trade representative, because there are a number of 
things, as you know, that are moving along here.
    Mr. Kolbe. And by the way, I will be talking to Mr. 
Zoellick about our meetings.
    Secretary Powell. I will let Mr. Zoellick discuss the 
timing of it and how it fits into the overall plan with respect 
to the various agreements that are out there. You mentioned the 
Jordanian-Egyptian paper, and we are following that very, very 
closely. I know that the Israelis are looking at it, and there 
may be something that comes out of that that will form a basis 
to move forward. I also agree with you that we are not going to 
move forward until the violence starts to go in the other 
direction. The message you heard--and I have read all of the 
reporting cables on your trip and I thank you and your 
colleagues for taking that trip--gave me back the same message 
that we have been getting consistently, that the violence has 
to stop, and the two sides have to start with these small 
steps.
    We are engaged, and the conversations that are taking place 
now at a couple of levels are U.S.-sponsored, U.S.-hosted, 
U.S.-arranged, U.S.-monitored meetings. We are following it 
very, very closely. The President is following it very, very 
closely. He speaks on a regular basis with the leaders in the 
region. When a point is reached where more day-to-day attention 
is required and neither I or the President or my staff or the 
ambassadors in the region can give it, then we will deal with 
that when we get there. We have not ruled out a special envoy.
    At this point, we do not think that there is a need for 
one, to give it the kind of attention that is suggested. We 
have more than adequate representation in the region. People 
are hard at work now trying to get these small steps taken and 
moving forward. As I said to Mr. Obey a few moments ago, I have 
seen a little bit of progress, but I am not hyperventilating. 
It is the Middle East. There has been a little bit of progress.

                        BOMBING DEATHS IN SUDAN

    Mr. Kolbe. Thank you, Mr. Secretary. Mr. Chairman, I have 
no other questions, except I will like to say I will submit one 
question to the record, a follow-up to Mr. Wolf's video. In our 
foreign operations bill last year, we provided with $10 million 
to help prevent the deaths that were occurring from bombing; 
and I have been told by your staff that that money has been 
obligated. And I would just like--I can ask this in my 
subcommittee, but since this issue came up here, Mr. Chairman, 
I think it would be useful for the recordto know exactly how 
those dollars have been spent to help to save these lives and prevent 
the deaths that have occurred in that bombing. And so I would ask you 
for how that money----
    Secretary Powell. We will provide it for the record.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Kolbe. Thank you.
    Secretary Powell. We appreciate the $10 million. More 
importantly, the people of Sudan will appreciate the use of 
that money. We must use it, however, in a way that serves the 
purpose we are looking for, such as an information system to 
warn people of bombings and how to protect themselves.
    Mr. Kolbe. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Mr. Wolf. Thank you, Mr. Kolbe. Mr. Cramer.
    Mr. Cramer. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary.
    Secretary Powell. Thank you, sir.

            EMBASSY SECURITY AND CULTURAL EXCHANGE PROGRAMS

    Mr. Cramer. I appreciate your presence here before the 
subcommittee today, and I think you can tell this has been an 
attentive, good give and take session. So many comments have 
been made by my colleagues that I want to associate myself with 
especially the issue of embassy security. Is General Williams 
with you today by any chance?
    Secretary Powell. No, he is not. I hope he is out 
inspecting an embassy somewhere.
    Mr. Cramer. I would like to see him and meet him at some 
point, because the embassy security issue is a very important 
issue. Also your comments about Members visiting the embassies, 
it is important. I have had occasion to do that, and I would 
recommend that to my colleagues. I want to direct your 
attention for a few minutes to the educational and cultural 
exchange programs. I have cochaired a Russian visitation 
program with Roger Wicker under the umbrella of the Library of 
Congress program, and that has been, in my opinion, an 
enormously successful program. We have brought Duma members 
here, but we have brought future Russian leaders here as well.
    In your budget, you have allocated a slight increase, that 
is, $10 million, if I am reading it right, for this account, 
and most of that will go toward built-in requirements to 
maintain current services. Could you comment about that 
program, the value you see in that program--particularly the 
public/private partnership between the Department and nonprofit 
organizations?
    Secretary Powell. I think it has been a terrific program, 
and I want to particularly congratulate Jim Billington for the 
way he has masterminded it, and it will enjoy my support. I 
believe these kinds of cultural exchanges are an essential 
component of a successful foreign policy, particularly for 
nations like Russia, which are just now learning how to be in 
this new world, and how to become democracies. Public/private 
partnerships are an excellent way to get leverage out of public 
funds, by partnering with private foundations and companies 
that might be interested in this kind of activity. It will 
enjoy my support.

                                TRAINING

    Mr. Cramer. Very good and I hope eventually we can expand 
the program, because we have got vulnerable democracies like in 
Nigeria that are very hungry for exchange programs and they do 
not have the money to fund that. And we can help them with that 
and kill two birds with one stone.
    An additional comment--or I would like some additional 
information from you about the--the budget has $134.5 million 
for a major investment to recruit, hire, and train new people, 
FSOs. Is that--how much of that is for training? How much of 
that is for new people?
    Secretary Powell. I do not know if I could separate out the 
recruiting piece from the training piece without going back to 
the department and giving it to you for the record.
    Mr. Cramer. Could you get back with me on that.
    Secretary Powell. Yes.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Cramer. I would be interested to know that because I 
too have been impressed with the personnel that we have 
serving, they are remarkable people, and would like to see us 
do whatever we can to motivate additional people to----
    Secretary Powell. If you have never been there, I invite 
you to visit our Foreign Service Institute in Arlington, where 
we train our people. I think you would enjoy that, Mr. Cramer, 
since you have a particular interest in the education of our 
foreign service and other officers.
    Mr. Cramer. Great I would like to do that. Thank you very 
much. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Miller.
    Mr. Miller. Mr. Secretary.
    Secretary Powell. Hello, sir.

                  BOYS AND GIRLS CLUBS AND EXTRADITION

    Mr. Miller. Good morning. Thank you for being here for this 
long. We are delighted that you have accepted this position, 
and the Congress and the Nation is delighted. However, with 
your acceptance of this, you had to step aside from some of the 
role you play as a real leader for young people in this 
country, an inspiration. One of the other programs this 
committee funds is the Boys and Girls Club program, which 
unfortunately the administration did not fund this year, but 
the chairman of the committee and I met with the Boys and Girls 
Club representatives and hopefully we can continue that 
program.
    Now that I am mentioning young people, I have a group of 
young people coming up in a few weeks, and I am requesting that 
they can have a chance to meet with you, because you are such 
an inspiration for young people, and so thank you for the role 
you perform there.
    Let me, first of all, go along Mr. Kolbe's comments, having 
visited many embassies. Your initial impression is they live in 
Paris or London or Rome, but most of them, as you know, live in 
places that are very tough and they make a great sacrifice for 
themselves personally and their families, whether it is 
undeveloped countries where the health care may not be the 
greatest for their families, where the education and where 
their children have to be sent off to boarding schools or where 
the environment or the air they breath is not the best, let 
alone the danger of some of these places. And so there is a 
great sacrifice, and I think we all need to, express the thanks 
to the men and women that serve, not just in the foreign 
service but in all the embassies. It is a real sacrifice, and 
we do appreciate it.
    One area of interest that I have personally developed is 
the issue of extradition. I only developed it because of the 
horrible crime that tookplace in Sarasota, Florida, in my 
district back in 1997 and the individual fled to Mexico and it took us 
too long to have him extradited to stand trial and he eventually 
confessed to the crime and it was a conspiracy. But it was a mother of 
six children and two young quadruplets that were there at the murder. 
It was just a horrible thing. And so there is one case I have been 
trying to help. It is a case of a murder that took place in 
Philadelphia in 1977 of a Holly Maddux by Ira Einhorn, who is in 
France, free. Now I understand, reading the papers, France wants to 
have somebody extradited out of Miami to stand trial in France. Well, I 
hope when we see about sending this person back, that we say Ira 
Einhorn should stand trial in Philadelphia. I know you have worked with 
the Justice Department. It is an issue that sometimes is very personal 
to some of us, because horrible crimes take place in our country and it 
is just not right. So I appreciate your help.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Secretary Powell. Thank you, Mr. Miller. I will look into 
that one particularly, but as a general principle, yes, I will 
follow extradition matters very closely. And thank you for your 
support over the years of the Boys and Girls Club of America. 
As you know, I was on the board of governors of the Boys and 
Girls Clubs and was the guest speaker at the annual September 
support breakfast that we have had for that program and for the 
appropriations of the last several years.

                          EMBASSY CONSTRUCTION

    Mr. Miller. They do a great work in our area and throughout 
the country with after-school programs and mentoring programs 
and such, and, you are being missed in that organization, but 
we are glad you are where you are.
    Let me ask one question about this foreign buildings office 
and the cost, because I have been to a number of embassies and 
cost is just unbelievable. I see you have got some planning 
costs for the one in Beijing, and I was told it was going to be 
a billion dollars. I mean, how do you find land? And the cost 
of these--or Kyrgyzstan, a very remote part of the world, and I 
guess what happened in Moscow 20 years ago makes it very 
costly. So I am hoping--and maybe we can have more discussion, 
because Mr. Cramer brought the same issue, how do we manage the 
cost of these new-designed embassies which take up so much 
acreage and they look like fortresses, and architecturally--
they leave something to be desired. I hope that we can bring 
those costs under control, because there are needs throughout 
the world that are extremely costly, and it just seems we are 
spending an awful lot of money, and I hope there is a more 
economical way to do that.
    Secretary Powell. I have charged General Williams, who is 
now going to run the Foreign Buildings Office, to take a very 
hard look at this. We may well have to come back to the 
Congress and ask for relief from some of the requirements that 
have been placed upon us for security. It is not that we are 
against security. Of course not. We want these places to be 
secure, but we may have to take a second look at some of the 
very specific requirements that we have had imposed on us for 
good and sufficient reason at the time as to whether they 
continue to make the right kind of security and economic sense 
as you go into the future.
    We want our embassies to be in centrally located downtown 
places where people can get to them; and when you put them in 
those kinds of places, land is expensive. Getting the setback 
you need is much more difficult. Asking communities to change 
the road patterns, which we have had to do in several 
instances, makes it much more expensive. The interior security, 
the electronic security, the communications security--it is not 
a Jim Walter's house we are putting up. It is expensive. That 
is why the cost is up to a hundred million dollars and 
sometimes a billion, such as in Beijing, but it is a big piece 
of change.
    Mr. Miller. It is a big piece of change. Let me ask one 
final question, if I may. When you talk about the----
    Secretary Powell. As an aside, only Mr. Regula remembers 
where the Jim Walter's house is.

                          PEACEKEEPING REVIEW

    Mr. Miller. No. That was based in my area of Florida, by 
the way. But on the peacekeeping that you say you were having a 
review--and I read comments that Secretary Rumsfeld made about 
the Sinai--will you be issuing a report, or will you just 
review the status of all the peacekeeping operations we have 
around the world that are costly, or how do you plan to, you 
know, let----
    Secretary Powell. Secretary Rumsfeld is looking at all of 
our deployments. We have deployments in Korea. We have them in 
Europe. We have them in Bosnia. We have them in Kosovo. We have 
them in the Sinai. We have a lot of military-to-military 
training exercises. We have a lot of people who are churning 
through all of these various missions. We have naval 
deployments in the Mediterranean, naval deployments in the 
Pacific. When you add them all up, it creates a very high level 
of op tempo, as the military calls it, operational tempo.
    These youngsters are going back and forth, back and forth. 
They come back from Kosovo and they are off to Korea. What 
Secretary Rumsfeld was trying to do is get a handle on all of 
them and zero-base them. Do we still need to be doing this the 
way we have been doing it for all these years? That is what he 
is doing with respect to the Sinai mission. It is an important 
mission, but at the same time, do we need to be doing it the 
way we have been doing it? It has come down in size over the 
years, but can it go down further? Those are the kinds of 
judgments he will be making, and he will be bringing forward 
recommendations to the President in due course.
    Mr. Miller. Thank you, thank you Mr. Chairman.

                          PROCUREMENT WAIVERS

    Mr. Wolf. As I recognize Mr. Vitter, just to comment, we 
are pleased by your comment about the Boy's Club, and I thank 
Mr. Miller for his leadership on that. It must have been a 
mistake at OMB, because President Bush went to the Wilmington, 
Delaware Boys Club to make one of the major announcements, and 
Secretary Thompson went to a Boy's Club to roll out the HHS 
budget and then when it actually came out to see that the Boy's 
Club had been zeroed out. So it must have been that person over 
at OMB who made a mistake. But now that we have everyone on the 
record, I guess we can deal with that.
    The other issue is on the embassy security, you may want to 
look at on the Transportation and Infrastructure Committee what 
we did with regard to the FAA. For a year or two, we waived the 
procurement standards, and we gave the FAA the ability to 
purchase right off the shelf wherever they went, and they 
obviously had to do it in an appropriate way.
    Mr. Wolf. But I think the committee, I would hope, would be 
willing to waive the procurement standards for a period of 
time, 1, 2, 3 years, to give you the ability to go out and shop 
quickly and do what you have to do without going through all 
that time-consuming effort which actually drives up the cost.
    Secretary Powell. I appreciate that. I told General 
Williams that is out there if we can come up with something 
sensible for you to waive.
    Mr. Wolf. We could probably do it for a year or two on the 
personnel. Because at the FAA the same waiver was done, we gave 
them the ability to go out. Because the technical nature is go 
out for a year period of time to bypass the normal process. Now 
it does not go on forever, but you can plus-up very, very 
quickly.
    Mr. Vitter.

                        ABM TREATY NEGOTIATIONS

    Mr. Vitter. Thank you, Mr. Chairman. Mr. Secretary, I have 
quick questions in three areas. The first is ABM treaty 
negotiations. My first 2 years here were the last 2 years of 
the Clinton administration, and I had a very strong concern 
about negotiations under that administration to revive, in my 
opinion, and expand the ABM treaty and its effect on theater 
missile defense. And because of that concern, I authored and 
passed for the last two appropriations cycles language to 
prohibit State from using any appropriations to use U.S. 
delegates to the standing consultative commission in any 
activity that would implement that memorandum of understanding 
that the previous administration negotiated with regard to the 
ABM treaty.
    Does your Department and does this administration have any 
plan to participate in any activity of that sort? And I would 
say, while I ask the question that this language--what I am 
talking about does not prohibit other discussions with Russia, 
with regard to the ABM; but it cannot be through the standing 
consultative commission, and it could not be directly in the 
context of expanding the ABM treaty.
    Secretary Powell. I have not had any discussions with my 
Russian colleagues with respect to that memorandum. I have had 
discussions with my Russian counterpart, Foreign Minister Igor 
Ivanov on two occasions now, once in Cairo and once in Paris. 
He is coming here in less than 3 weeks' time for an expanded 
set of discussions where we will discuss all of our strategic 
force issues and concerns; what we might be thinking about 
doing with respect to offensive weapons; our commitment--
thorough total commitment--to missile defense programs; and 
from that a clear understanding that if one moves in the direct 
of missile defense at some point you hit the limits proscribed 
by the ABM treaty, and we have to do something at that point.
    I will be discussing with Minister Ivanov our commitment to 
move forward and how he has to understand, and our friends have 
to understand, that something has to give way at that point and 
to let us start consulting about how we move to a new regime. 
The ABM treaty was designed in a different time, a different 
age, when there was a Cold War, when there was a Soviet Union. 
It does not serve the same purpose today that it served in 
1972. They want this to be a consultative process. We want to 
hear from them. We want to hear why they think it is still as 
relevant as it was in 1972, and we want to see if we can 
persuade them that that may not be the right answer.
    We are approaching this in a careful way, but with a clear 
idea in our mind of where we are going, and that is--we are 
going forward in missile defense. We hope we can persuade our 
friends and allies that this is a sensible thing to do, not 
just for the United States but for them as well, and for the 
world; to move the calculus more in the direction of strategic 
defense and missile defense rather than missile attack and 
strategic attack. The Russians know we are serious about this 
conversation. They are going to come back strong, they are 
going to have their reasons, and they are going to have their 
arguments. They have had them for 17 years. I have been at this 
for 17 years and we will listen and try to persuade them of our 
argument. At the end of the day we will do what we think is 
right for missile defense.
    Mr. Vitter. I certainly encourage those discussions and 
that initiative; and just to clarify and be clear, the sort of 
limitation I was talking about was essentially limitation of 
movement in the opposite direction----
    Secretary Powell. Right, expanding.
    Mr. Vitter [continuing]. Toward this memorandum of 
understanding implementing it. And I want to underscore that, 
that we should not be moving in that direction at all.
    Secretary Powell. I understand.

                                 CHINA

    Mr. Vitter. But I appreciate your efforts.
    Second question is about Communist China. Obviously, even 
before this P-3 aircraft incident, there has been growing 
concern and tension in that part of the world and concern 
because of increasingly provocative moves from that government; 
and there are a lot of different incidents, submarines 
venturing closer to Japan, missile tests, et cetera. How does 
the State Department budget reflect that growing concern in 
that area of the world?
    Secretary Powell. I do not know that I could give you a 
specific budget item that reflects that particular set of 
circumstances that you have just described. I may just respond 
by saying that we have taken note of these activities on the 
part of China. We also have taken note of the fact that it is a 
country in transition and transformation. It is not the China 
of 30 years ago. It is a China that is being affected by 
increasing wealth. It has expressed a strong desire to even the 
international trading world. And it understands that its future 
lies in that trading world. Forty percent of its exports are 
absorbed by U.S. citizens in Home Depot, Office Depot, K-mart, 
and lots of other places where American consumers get a pretty 
good deal by accepting those products.
    However, it has to be a two-way street. I think China will 
continue to be a trading partner. It will be a strategic 
competitor for influence in the region. It has to understand 
that we are an Asian power as well, and we have interests and 
friends in the region. We will be responsive to those interests 
and responsive to our friends, and we will remain strong in 
Asia. However, we are not looking for an enemy. We do not need 
enemies. We are doing quite well in the world. We want to be 
friends with whomever chooses to be a friend with us. We will 
meet any dangers or threats that come our way. We are not 
unmindful of the human rights record of this regime. We just 
fought hard in Geneva attempting to get a resolution condemning 
China for its human rights activities. We speak out strongly 
whenever they do things that are inconsistent with 
international standards with respect to human rights.
    So I think this administration has a good beginning record 
with respect to China, seeing it in realistic terms, not 
looking for an enemy, but recognizing that is is a country that 
has a philosophy and an idealogy that is quite different from 
ours. We saw that in the way in which the EP-3 incident was 
handled. Fortunately it is now halfway behind us. We are still 
working to get our plane back we are trying to get back to a 
more stable relationship with China where we let them know what 
we do not like and what we disagree with. We do not like 
proliferation. We do not like provocative activities. At the 
same time, however there are many areas where we do have an 
opportunity to agree with them on issues and move forward, 
especially in the area of trade and economic reform. I am a 
firm believer that the more economic activity you give to the 
Chinese people the less likely they are to want to put that new 
wealth at risk by provocative actions on the part of their 
leaders.

                            FINANCIAL AUDITS

    Mr. Vitter. Mr. Secretary, a final set of quick questions. 
I want to commend you for your comments and your plans about 
getting the business financial management of the Department in 
order, because I think that is a very necessary focus. One 
thing that the House did, actually, not so long ago, 1995, is 
demand outside independent financial audits of this body; and 
demand that they be clean audits within some reasonable amount 
of time. As I understand it, the State Department, like many 
other Departments, does internal audits only. And as I 
understand it, even within those internal audits they have 
failed to produce clean audits 3 out of the last 4 years. What 
are your ideas about the possibility of outside independent 
audits and an ambitious timetable to get to clean acceptable 
audits?
    Secretary Powell. I have not given any thought to external 
auditors. I have to think about that one. I have charged the 
new IG--we have brought on board a very aggressive young lawyer 
to be our Inspector General. Between the functions of the 
Inspector General's office and the other auditing activities 
within the Department, I am certainly going to be doing 
everything I can to get clean audits without finding major 
deficiencies or things noted in the financial performance of 
the Department. It is clear that we had some problems, which is 
why I moved in the direction of centralizing these things under 
one powerful office that has oversight over all financial 
activities of the Department.
    Mr. Vitter. Well, I would certainly encourage you to 
continue that work and specifically consider an outside 
independent audit and a specific goal timetable for a clean 
audit to put meat on the bone of those general goals.
    Secretary Powell. Yes.

                          PERSONNEL POSITIONS

    Mr. Vitter. Also, final specific question, one of the most 
worrisome reports I have heard is the possibility, that is, in 
the last administration there were non-fulltime noncareer 
noncivil service persons paid significant sums of money for 
some vague responsibilities, ambassador at large, 
representative at large. Do you know if that is the case?
    Secretary Powell. I have not gone back and audited what 
might have happened in the previous administration on that 
particular example you gave. But I did, early on in my tenure, 
ask for a list of all the special envoys and other special 
sorts of emissaries that were on the rolls. There were 
somewhere around 60, and I got rid of most of them. There were 
a few that were in legislation that, of course, we kept. There 
were a number that were performing very, very useful functions 
that we kept. I can give the exact numbers to you for the 
record, but I essentially eliminated over 50 percent of them.
    Mr. Vitter. If I could as a follow-up get to your office a 
specific question in this regard and----
    Secretary Powell. Yes. I think we even may have issued a 
press release on it at the time. We have all the data.
    Mr. Vitter. Great. I appreciate it. Thank you, Mr. 
Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Mr. Regula.

                         ALBANIA AND MACEDONIA

    Mr. Regula. Thank you, Mr. Chairman. Mr. Secretary, 
welcome. I am sorry I missed your testimony. But my staff tells 
me you did a superb job, and I am not surprised to hear that.
    A couple of things. I was with Chairman Young in Macedonia. 
And I think he said, and correctly so, that your visit was 
quite important to that area. It strikes me that it is a very 
sensitive situation over there because it appears that the 
unrest is a desire on some to have a Greater Albania, which 
would encompass more than just Macedonia. Is that a goal that 
you perceive as causing some of the unrest?
    Secretary Powell. There are people in the region who have 
never given up the idea of a Greater Albania, and that is a 
very destabilizing concept. My message to President 
Trajkovski--and I am sure it was a message that your delegation 
delivered--was that he has to work very hard with the political 
elements within his government coalition and with political 
forces within Macedonia to reach out to their ethnic Albanian 
population and make sure that those Albanians understand they 
are part of Macedonia; that their needs will be taken care of; 
that the concerns they have will be dealt with through the 
democratic political process inside of Macedonia.
    President Trajkovski has done a lot of things, such as 
opening the new university so Albanian students can learn in 
their language and bringing the political reconciliation 
process together and working on it. I am sure you had briefings 
on that and saw it. All that is essential to keep this Greater 
Albanian movement from growing. Because if it grows, as you 
note, it will affect Kosovo, it will affect Albania, it will 
affect Macedonia, it will affect a whole region. We will be 
into a whole new set of conflicts and crises throughout that 
region, and that is to be avoided.
    Mr. Regula. I think you are absolutely right. I took a 
little different tack with the president in saying that many 
times unrest is fostered by people who are in economic 
difficulty. I asked him about his banking system, about the 
rule of law. Does the country have a good legal system that 
would protect the rights of investors?
    In Italy we met with some business people, and they wanted 
to know what we thought, the chairman and I, about the 
possibility of stability in Macedonia because they would like 
to invest there. If you look at a map, Macedonia is what I 
would call the Atlanta of the Balkans. It is kind of a focal 
point. And I asked him about the education system and security. 
He indicated that they were working on those issues, but 40 
percent unemployment leaves a great opportunity for those who 
would foster unrest. And I just would want your thinking on 
whether these are areas that we should as a Nation or as a 
policy objective try to help them deal with these elements?
    Secretary Powell. I could not agree more. In almost every 
one of those countries in the former empire that we used to 
call the Soviet Union and its satellites, unless they put in 
place a rule of law, a rule of contract law--not just first 
amendment law--contract law, so that people can invest with 
some confidence that their investment will be safe, secure, and 
not ripped off; and if they make a profit, they can bring it 
out of the country; and that ownership rules are clear, and 
that they can actually own the investment that they are putting 
into the country; you are not going to pull in the money you 
want.
    A little vignette I have been using with these kinds of 
leaders is how money is a coward. Money is not going where it 
is going to be afraid. Why am I going to invest here when I can 
invest over there knowing that the money is going to be safe?
    Macedonia is particularly interesting because to a large 
extent its industrial base fed other nations in the region and 
fed a good part of the Soviet Empire. When that went away, 
those industrial-based companies and those employees in the 
industrial base were left without jobs. The ethnic Albanians in 
Macedonia who tended not to be a part of that Macedonian 
industrial base did not suffer as much as the Macedonian Slavs 
did when the change took place. It is a fascinating economic 
picture. But it begins with a rule of contract law. We should 
do everything we can to help them.
    Mr. Regula. I cannot help remember when I had a group of 
Soviet mayors meeting with the Smuckers Company in my district, 
and they wanted Smuckers to come over there and produce jams 
and jellies. And Mr. Smucker said to them I would like to, but 
can you guarantee me that my property will not be expropriated 
and that I can repatriate the profits. Well, obviously, they 
could not. And he said, ``I cannot in good conscience to 
shareholders put an investment in an area where it is not 
stable.'' That is the point you are making.
    My question, then, would be is our policy as a Nation 
fostering the economic side of the equation? We tend, I think, 
to focus on the military side of those situations; and I am not 
sure and I would ask you do we do enough on the economic side 
to give a more stable situation to people who live there?
    Secretary Powell. Probably not enough. And it is probably 
not all government. That is where the private sector can do a 
lot. Let me specifically look at what we do with respect to 
economic education programs of the kind you suggest for 
Macedonia and give you an answer for the record.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. I would appreciate that, because I think it is 
a policy that transcends more than just Macedonia.
    Secretary Powell. Yes.
    Mr. Regula. But it was brought up when the Italian investor 
asked do you think that we will have stability in the region 
and you cannot answer a very positive yes on that at the 
present time. I was pleased to see a big Goodyear sign when I 
was driving down the street, so that is indicative that there 
is some foreign investment; but a lot more would probably be 
helpful.
    Secretary Powell. Yes, sir.

                            EMBASSY SECURITY

    Mr. Regula. One other subject. I have been on this 
committee for many years, and I was here when we had the Inman 
report. This report was brought out because of some security 
problems. Mr. Smith and I have travelled to a number of 
embassies evaluating the security situation and we were there 
to make a decision on what to do in Moscow, when we discovered 
that the steel skeleton had been wired. And we concluded to 
build up with the secure part of the building. Have we pursued 
this enough? Have we and are we following up on the 
recommendations of the Inman commission?
    Secretary Powell. I think we are taking very much to heart 
the Inman and the [Crowe] reports. As I mentioned earlier, we 
have to constantly review those to make sure we are not 
overdoing it and our restrictions are not too great and our 
requirements for set-back are not too great, causing us to run 
the cost up and make embassies look a little bit too much like 
reformatories or prisons.
    Mr. Regula. I think that is right.
    Secretary Powell. I think you have to find the right 
balance. Admiral [Crowe] and Admiral Inman did a great job with 
their reports. I think it is wise to take a look at them as we 
move forward with the restrictions under which we are 
operating. The chairman suggested we might want to waive some 
of this if it makes sense, but do it in a careful way because 
at the end of the day we have to keep our people secure.

                            USIA INTEGRATION

    Mr. Regula. We used to fund the USIA as a separate stand-
alone agency and then it was combined with State. That was one 
of the programs I had a great interest in. Is this working out 
to make USIA a part of State? Are we getting the United States 
message to these countries?
    Secretary Powell. In my three months in the Department, I 
sense that it is working. I think there are a lot of personnel 
difficulties as you integrate an organization such as that into 
another organization. One of my regional bureau chiefs said to 
me the other day that having his own little piece of USIA 
within his bureau makes all the difference in the world because 
they now belong to him and they are not an outside servicing 
organization.
    I am taking a very hard look at the whole public diplomacy 
function of the Department. The person that I am bringing in to 
run that portfolio is someone with great experience in 
marketing. We can continue to do all the great things that USIA 
has done over the years with the Voice of America, with the 
publications and pamphlets we have been putting out, and the 
many hundreds of ways in which USIA performed its work, but 
take it up to a new level of 21st-century technology, a 
capacity that exists out there, and start marketing our message 
in the way that we would market the Army or any other product. 
I think you have to use television and the electronic media in 
a more revolutionary and exciting way than we might have used 
it so far.
    Mr. Regula. I am pleased to hear you say that because I 
think communications is vital. I think it contributed mightily 
to the Iron Curtain coming down. You can leap over physical 
barriers with television, radio and information services.
    Secretary Powell. We are also trying to make sure that all 
the USIA employees realize that they are considered important 
and a vital part of The State Department family. We will keep 
that very much in mind as we move forward.

                STATE DEPARTMENT OFFICE ON CAPITOL HILL

    Mr. Regula. Just one suggestion. I think it would be useful 
to members if you had an office up here similar to what the 
military does.
    Secretary Powell. Well----
    Mr. Regula. I have written articles on this because I get a 
lot of passport and visa problems. I would love to have your 
presence on Capitol Hill.
    Secretary Powell. Sir, I thank you for that softball. Right 
over the plate, chest high and only 60 miles an hour.
    Mr. Regula. You are going to hit a home run with it.
    Secretary Powell. Here it comes. Every report for the last 
several years has said, ``Why does the State Department not 
have a presence up on the Hill?'' I came to the Department and 
said, ``Why does State not have a presence up on the Hill?'' I 
got a little humma humma for a while. At a staff meeting one 
morning, I said, ``Why do we not have a presence on the Hill?'' 
I went to Ambassador Mary Ryan who heads our consular service. 
I said, ``Why do we not have something up on the Hill? Are you 
ready to send people?'' She said, I am dying to send people. I 
said, ``Well, come on fellows, what is the problem?'' ``We 
cannot get any space. Nobody will give us a room. No room at 
the inn for the State Department, you say? Cannot be.'' I start 
making phone calls. I have called the leaders, and I have 
written the leaders. I have been promised that they will look 
at it very, very hard.
    Mr. Chairman, anything you or anybody else on the committee 
can do to get me a little suite of offices up here, I promise 
you, within a week I will give you a consular function up here 
where you can take care of all your visa or consular problems. 
I will give you people that you can come to for constituent 
services. I will give you representation on both the House and 
Senate side. It can be in any office building on the Hill. I 
would prefer it to be in the Capitol, of course, but I am not 
greedy. You can put it anywhere. You can put it in the attic in 
the Rayburn Building, anywhere, and we will staff it within a 
week.
    Mr. Regula. Thank you, Mr. Chairman.
    Secretary Powell. Thank you, Mr. Regula.
    Mr. Wolf. That is a great idea, and I said something to 
Mike; and we will make a couple calls this afternoon to see if 
we can help you.
    Secretary Powell. I have spoken to the Speaker and to 
Senator Lott about it.

                RELIGIOUS FREEDOM AND SEXUAL TRAFFICKING

    Mr. Wolf. I have a number of questions. I am going to move 
real fast through them. I would just want to follow up on what 
Mr. Regula said. I agree with him with regard to economics. I 
also think with regard to the Balkans you really need things 
that are outside confidence-building; you need reconciliation. 
You have to change men's hearts who have hated each other for 
years, so as the Bible talks about sitting down and breaking 
bread with one another. And the more conferences or 
opportunities there are for people of differences to sit 
together to develop relationships before they get into issues, 
the better.
    And there are some things that the prayer breakfast is 
doing over in that region, and you may want to look into that. 
On the issue of China, I am glad Mr. Vitter raised it. I think 
you have done a very good job with regard to China. I think it 
is very important, though, that the attitude be, as you 
remember very well, the way President Reagan was with regard to 
the Soviet Union. When the Reagan people would go to Russia, 
they would meet with the dissidents. President Reagan at the 
Donaluv monastery--and I know you were there--spoke out very, 
very boldly.
    And I think the best export we have are not only our 
products but our values. As we think in terms of China today--
there are now 13 Catholic bishops. One was arrested you saw in 
the Washington Post the other day, in jail. There are about 150 
house church pastors in jail. I was in Tibet 3 years ago, and 
they have just plundered Tibet. I mean, they have destroyed 
3,000-4,000 monasteries. We talked to Tibetan monks and nuns 
who had been tortured. Unbelievable. Very few people go to 
Tibet. I do not know if there is anybody in our government that 
has been there lately.
    The Falun Gong have gone through a very difficult time. The 
Muslims, no one speaks out for the Muslims in China that are 
going through a very difficult, difficult time. There are more 
slave-labor camps in China today than there were in the Soviet 
Union when Solzhenitsyn wrote the book ``Gulag Archipelago''. 
There are actually more. If you go over to Langley, they will 
show you where they are. If you need a new kidney, you can 
purchase it for $50,000 because they go into a prison and take 
a blood type and execute maybe a pickpocket or somebody like 
that, but still an individual of dignity, and they sell it for 
$30,000 to $50,000.
    And so it is important for us to have the attitude of 
President Reagan. Obviously, we are not looking for enemies 
anywhere, but we know what we believe in. And the fundamental 
values that are really not in the Constitution only but in the 
Declaration of Independence, we are better when we are 
exploiting those values than any other time.
    So I think how this administration speaks out, as you have 
done very, very well, is very important. I do want to put in a 
word for a family that lives in my district, the young lady, 
the AU professor who was arrested. Her husband and she were 
split up from their 5-year-old child.
    Secretary Powell. Yes.
    Mr. Wolf. I met the child. Has he been scarred? If you took 
one of my children away from my wife and I for 26 days and put 
me in a strange institution what would happen? So I hope that 
you will continue to press on that.
    Secretary Powell. We are.
    Mr. Wolf. Congresswoman Jackson-Lee has a bill in over here 
to give her American citizenship. She has gone through all of 
the process, and so she is ready. But I hope you would also 
push with regard to that. There are some other issues very, 
very quickly. Conflict diamonds, the administration needs a 
position on conflict diamonds. It is driving the problem in 
Sierra Leone. It is really partially the problem in Liberia. It 
is also the major part of the problem in Angola. And without 
putting you on the spot, if you want to say something fine; but 
we need a policy on conflict diamonds. Sixty-five percent of 
the diamonds sold in the world are sold here in the United 
States. So by the purchase of conflict diamonds, we guarantee 
the cutting off of arms and legs of children.
    The other issue you might want to comment on is--several 
years ago working with other Members, Senators Coats and 
Nickels and Specter and over here Congressman Smith and myself, 
we passed a bill establishing the U.S. Commission on 
International Religious Freedom. It is now chaired by Elliott 
Abrams. All of the Members have done an outstanding job. I 
would not pick and choose. But Nina Shay has done a superb job, 
Elliott Abrams. Their term comes to an end on May 14th. I think 
they all, frankly, would be good to be back on. I do not know 
how many want to stay on. Bishop McCarrick has now become a 
cardinal. And I know his time is taken up. But I hope you would 
give that careful consideration on who serves on that 
commission.
    Secretary Powell. I will, sir.
    Mr. Wolf. And also that this message goes out to our 
embassies that they speak out. The ambassador in Egypt canspeak 
out for the Coptic Christians; the ambassador for China can speak out. 
There are two theories: one, let us not talk about it publicly. But 
Nathan Sheranski told me every time Ronald Reagan spoke out on behalf 
of the dissidents in the Soviet Union his life got better. Sometimes it 
is a little more food; sometimes he got out of prison. That is one of 
the purposes of the commission is to have the policy of the State 
Department whereby when people are in difficult times, our government 
speaks out. And there is anti-Semitism in the Egyptian press if you 
look at the cartoons. It is not inappropriate for our ambassador to 
speak out on behalf of those who are being persecuted.
    The issue of sexual trafficking. There was a bill passed 
last year. To quote a small segment from a personal account, 
``the small Himalayan kingdom of Nepal wedged between India and 
China, best known for its Buddhist and Hindu temples and 
stunning mountain vistas.* * *'' I have been there. That is all 
accurate. ``But behind this Shangri La lies a shocking reality 
known as the flesh trade. Between 5,000 and 6,000 of the 
country's girls, some as young as 7 years old, are trafficking 
to India and other countries each year and are sold as sex 
slaves, the majority become involved in HIV.'' And then she 
goes on with some graphic things which I do not want to get 
into here. But there is now legislation that you have, and I 
think how you enforce that--for the Secretary of State to 
articulate that to the people at lower levels indicates that 
you are very, very serious.
    Now there was some disagreement we heard, about what part 
of the State Department has the primary responsibility for such 
programs. We heard one was going to be the Under Secretary for 
Political Affairs, the Bureau of International Narcotics and 
Law Enforcement, and somebody says some other area. The closer 
you have this to the policy people and to you, the better, 
because there but for the grace of God go you or I or our kids 
could live in one of those countries. And the sexual 
trafficking coming out of Ukraine, coming out of Albania, 
coming out of Kosovo going into the West is unbelievable. These 
women, their passports are taken away. So your speaking out on 
this issue could be very, very helpful. I do not know if you 
would like to comment on that.
    Secretary Powell. Let me take a look at each of these, sir. 
I am hoping to meet with the commission. We are trying to 
schedule a day with Elliott and the commission to come in and 
talk. We take it very seriously, and we do have a position for 
an individual on the State Department staff on religious 
freedom, which is about to be filled. We have a candidate for 
that.
    On the sexual trafficking, let me look at the 
organizational issue you raised.

                          EMBASSY CONSTRUCTION

    Mr. Wolf. Okay. I have some others. They are financial. I 
wanted to get into one issue then I want to leave plenty of 
time for my colleague. I promised him at least 10 minutes. You 
recently submitted a spending plan for the construction of the 
new embassy facilities. The committee staff and we were a 
little surprised that the embassy for Abidjan in the Ivory 
Coast is being designed to house almost twice as many staff as 
in the new embassy in Abuja, Nigeria, and will cost twice as 
much. I understand the Ivory Coast, but I would have thought 
Nigeria being a regional power would be proportional.
    What is the planning decision and the process for 
determining the correct and justified presence at a given post? 
If you do not want to get into that--but if somebody for the 
record could come up and explain why was one versus the other, 
particularly with the location and the size.
    Secretary Powell. Let me have General Williams look at 
that, and we will either give it to you for the record or have 
Grant Green ready to answer the question when he comes before 
you.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. The other one, a hypothetical case. I agree with 
what Mr. Kolbe said about your people doing an outstanding job, 
some serving very, very difficult conditions. I visited the 
embassy in Lebanon, they are basically back in business. I 
visited the embassy in Algeria. They are literally in prison. 
They are in the confines. Not many people know how difficult it 
is for them. So let us say you have a European embassy where 
they are not in prison. It receives a request from the Justice 
Department to have a legal attache office at the post. Assuming 
Justice gets the funds approved for that purpose, what is the 
interagency process for determining whether it makes sense in 
the context of overall U.S. presence in that country, 
regionally, worldwide? Does any agency or individual have the 
incentive to say should FBI send somebody or not? How do you 
determine who is in the embassy and how do you determine who 
sends those people to go to that embassy at that time, 
particularly if you build an embassy based on a certain number 
of people for security reasons? How do you then determine that?
    Secretary Powell. You may not get them all in the embassy. 
You may have to use outlying buildings, as we do in a number of 
our places which probably are not as secure as the embassy 
compound itself. There is a presumption that when a new agency 
shows up with a program that has to be performed, the program 
is serving the national interest and should be supported and 
the State Department goes out of its way to try to find the 
necessary space.
    Mr. Wolf. Do they call you first to tell you that they are 
coming?
    Secretary Powell. They are supposed to. I have run into a 
couple of instances where it has been disputed whether we are 
asked. In one recent instance, another agency head showed up in 
a town and said that he was opening an office. When we tracked 
it back, it had not all been approved through the State 
Department and with the ambassador in charge. This is something 
we have to tighten up because you just cannot keep adding 
requirements for space, staffing, power and communications and 
part of the defense telecommunications system. It is not just a 
matter of a few people showing up; they become a draw on all 
the resources of the embassy.
    Mr. Wolf. Do you charge them when USDA sends somebody?
    Secretary Powell. Increasingly--and this is an item that is 
uppermost in my mind right now--but are we getting paid 
properly for the services we perform? We have to do a better 
job of figuring out how to charge for services.
    Mr. Wolf. But you are then thinking of charging.
    Secretary Powell. I think we ought to reach a point where 
we are considered a landlord and as a landlord we can charge 
you.
    Mr. Wolf. Like GSA.
    Secretary Powell. Like GSA. We are moving in that 
direction. I am not sure we have moved far enough in that 
direction.
    Mr. Wolf. We can help you with that. I will recognize Mr. 
Serrano for the last 10 minutes.

                                  CUBA

    Mr. Serrano. I will not hopefully take that long. Secretary 
Powell, I toyed with the idea of not bringing this favorite 
subject of mine up; but I think starting with my staff, media 
and other members of the committee they would be shocked if I 
did not mention Cuba to you. And I guess if I was going to do 
it in 30 seconds, I would say China, after the presentation you 
just made, why not Cuba.
    I can tell you from one who grew up politically and 
otherwise in the 1960's that as you well know, the scars of the 
Vietnam War are still with us, from that middle-age drug addict 
in the South Bronx who never fully recovered from his addiction 
that he picked up during the war; to the absent father who can 
never deal with how to be a father and deal with the effects of 
the war; to people on radio this morning who write books in 
Canada but do not know how to come home because they took off 
rather than to face what some thought was their 
responsibilities and others thought was a mistake; to a former 
Senator who just introduced a whole issue into his Presidential 
campaign about how he conducted himself or how we conducted 
ourselves in that war. And yet we deal with Vietnam and 
rightfully so.
    So the question is always why China? Why Vietnam? Why trade 
with Korea? Why not Cuba? The easy political answer--I am not 
going to insult you with is Dade County, Miami. So Miami-Dade 
County runs our foreign policy. Let me preface or interject now 
a comment that my favorite Democrat President, Bill Clinton, 
was no better on this issue than anyone I have seen before or 
will probably see after him. I mean, George Bush Senior begged 
him not to sign the Helms-Burton bill, and he did and he gave 
away foreign policy to Congress in a law that he could have 
handled himself.
    The silliness and the sadness of the Cuba policy issue have 
reached the point where some of us ordinarily would simply say 
let us establish relations with Cuba. It is not right not to 
have them, and we have now become at times defensive of the 
Cuban system, something we never intended to do nor want to do. 
So we say if you have a country south of the Texas border 
admitted by everyone as having as close to 100 percent literacy 
as you can get, why not build on that rather than beat them 
into submission to change to our way. If you have a country 
south of the Texas border that has by many accounts the best 
health delivery system in this part of the world, why not build 
on that, trade with them, work with them rather than beat them 
into submission. You have a country that has done no physical 
harm to us, notwithstanding the incident with those planes 
which was very tragic, and someday I would wish the ex-
Secretary of State would tell us how many times the Cuban 
Government complained about those planes flying over their 
territory before they were shot down. Notwithstanding all of 
that, we keep asking why China and not Cuba.
    And lastly, when you read two languages as I do, and when 
you understand so many languages some fluently and some enough 
to defend yourself, and when you read Spanish and English every 
day and read what they are writing in Latin America, you will 
see that they have come to a conclusion in some places that 
democracy north of the Texas border and democracy south of the 
Texas border could at times have a different interpretation. 
And so we say that if you hold a free election regardless of 
how that was conducted, you are okay. And if you do not hold an 
election similar to ours, you are not okay. But the fact of 
life is some people are saying what good was that election in 
that country if the children are still in the street without 
shoes and with big bellies full of worms and they are not being 
treated respectfully. Maybe we should deal with a country where 
for orientation or other purposes they have dealt with the 
children properly. Why not build on that rather than beat them 
into submission?
    So basically, my comment to you is a plea to remember that 
you have the ability to tell the President, and notwithstanding 
law, a President can travel to a country and say I want to 
change this policy. I want to change this policy, and a 
President can do what Nixon did with China. And with all the 
problems that we have with China, we have to admit we probably 
have avoided a war with them mainly, perhaps, because Richard 
Nixon had the ability to take a stand that nobody else had the 
courage to take.
    I say this to you to get from you perhaps the only time on 
record that I will disagree with you by having to do what I 
know you have to do--and I say that with respect--and that is 
to somehow explain to me why China and not Cuba. So that when 
we meet in other forums, colleagues of mine and I say well, 
this Secretary of State says it this way. Madeline Albright 
said it that way. Whether we agree or disagree, that is our 
policy. I commit myself to you, Mr. Powell, and especially 
because of the fact that you and I come from the same 
neighborhood and because you and I come from parents who were 
born outside that neighborhood, and because we share a lot of 
things together, I commit myself to being an ally. I said that 
before, to try as much as possible when we disagree on an issue 
to find a diplomatic way to tell you that I disagree. This one 
I just need you to join the chorus of people who will try, 
perhaps in vain, to tell me why China and not Cuba and to 
suggest to you that that policy makes no sense, that it is bad 
for us, it is bad for them, and it is bad for our interest. In 
the Hispanic community, it is growing more and more every day, 
as it is already as you know in the African American community, 
where more activists and advocates are saying why.
    Let me close by saying that the Congressional Black Caucus 
and certain members of the Hispanic Caucus have actually gotten 
into educational business with Cuba by sending people from the 
South Bronx to study medicine free of charge in Cuba. I suspect 
the medicine they are studying in Cuba will not make them come 
back to our country and infect anybody with any disease. 
Because Cuba, as you know, exports doctors throughout the 
world. Again, why can we not take that and build on that rather 
than beat them into submission? So I ask you, why China and not 
Cuba?
    Secretary Powell. In China, the Soviet Union, even Vietnam, 
even North Korea, one could see an understanding of that the 
world was changing. One could see leaders who were starting to 
adjust to a new world and gave you something to work with.
    In Cuba for 42 years, we have seen a leader who is trapped 
in a time warp, a time warp that says he is the only one or 
thing that counts. He has done good things for his people. You 
have touched on some of them. However, for most of the 42 years 
and part of my career when I was in the military, he was 
fermenting revolution; he was fermenting insurgencies. He was 
trying to impose a system that was not a system of freedom, a 
system that would have been disastrous for many ofthe Nations 
in the region. We had to meet him; we had to respond to that. We did. 
He is no longer the threat he was. However, 12 years ago, he was a real 
threat, trying to destabilize this region, trying to have countries 
overthrown in order to put them under totalitarian leadership. He was 
the same gentleman he was in 1959, the same gentleman he was in 1988 
and 1989; he is the same gentleman in the year 2001, except he no 
longer has a strong power supporting him, a strong power subsidizing 
him. He has not changed his views in any way.
    I think the policy we have, which tries in some ways to get 
around him and his regime and touch the people, is sensible, 
with travel and some funds going back and forth. But when you 
try to deal with that regime, the regime, however, it is more 
likely than not to take advantage of anything you might want to 
do with him. When you have companies from Canada that try to 
invest in a place like that, they get burned because of the 
nature of the regime.
    The regime has not changed. It remains the same as it was 
in 1959. I think the day will come when it will change. I do 
not know that it is going to happen while Fidel Castro sits 
there totally unrepentant, totally unknowing of how the world 
is moving on and leaving him behind, an anachronism, a fading 
star that is living in 1959 and not 2001. It makes it very hard 
for an American government, an American President of whatever 
party to respond to that kind of a leader, even though we are 
able to respond in other parts of the world with other nations 
that have despotic leaders. They at least started to sense that 
change was upon them and gave us something to work with. I do 
not think Mr. Castro has ever really given us anything to work 
with.

                           CONCLUDING REMARKS

    Mr. Serrano. Let me just close. And I thank you for your 
comment. Let me close by saying that perhaps the change that 
you note and applaud in China and in Vietnam came about because 
we did not isolate them all of the time. If we can make peace 
with Vietnam, we can make peace with anyone in the world. And 
China has spent a lot of time and perhaps still does in trying 
to undo our system and undo who we are as a people. And yet we 
rather take the ability to extend our hand and work with them 
and not isolate them. Maybe the same policy would work with 
Cuba. But if we keep isolating an island in an island 
situation, we will have the same thing for years to come. But I 
thank you.
    Mr. Wolf. Mr. Secretary, thank you very much.
    Secretary Powell. Thank you, Mr. Chairman.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Wednesday, May 16, 2001.

                      STATE DEPARTMENT MANAGEMENT

                               WITNESSES

RICHARD ARMITAGE, DEPUTY SECRETARY OF STATE, DEPARTMENT OF STATE
GRANT S. GREEN, JR., UNDER SECRETARY OF STATE FOR MANAGEMENT, 
    DEPARTMENT OF STATE

                   OPENING STATEMENT OF CHAIRMAN WOLF

    Mr. Wolf. Today we welcome the Deputy Secretary of State, 
Richard Armitage, and the Under Secretary of State for 
Management, Grant Green, for their first appearances before the 
Subcommittee. We want to welcome both of you, and Mr. Armitage, 
we will be much more friendly than they were to you when you 
were in Korea, and I read about it. But we will hear your 
testimony today. Your full statement will appear in the record.
    This is a landmark budget request for the State Department 
and it does contain very bold and aggressive proposals to 
greatly expand the operational resources of the Department. It 
contains an increase of nearly 20 percent for the 
Administration of Foreign Affairs function, perhaps the largest 
percentage increase for any function in the entire budget.
    Included in your proposal to reinvigorate diplomatic 
readiness are funding for 668 new positions, a 350 percent 
increase in capital technology investments, and $1.3 billion 
for embassy security programs. In addition to the many foreign 
policy challenges the new Administration has already begun to 
face, you have inherited a department that many believe is 
widely recognized to be badly in need of reform. I think you 
will find the comments of members on both sides of the aisle 
willing to work with you over this year and the next year, and 
hopefully, many more to come. The efforts to improve embassy 
security has been a major interest in this Committee. Since the 
embassy bombings, the Committee has provided over $3 billion 
for embassy security.
    With that, I will recognize Mr. Serrano for any opening 
comments.

          OPENING STATEMENT OF RANKING MINORITY MEMBER SERRANO

    Mr. Serrano. Thank you, Mr. Chairman, for giving me the 
opportunity to welcome Deputy Secretary of State Richard 
Armitage and Under Secretary of State for Management Grant 
Green. And I apologize for being 30 seconds late. We have to 
synchronize our watches.
    I am really looking forward to your testimony and stand 
ready to assist you in any way that we can. We met before, and 
we pledge our support to you, and we just look forward to your 
testimony.
    Mr. Wolf. You can begin as you see fit. Both statements 
will appear in the record.

                 STATEMENT OF DEPUTY SECRETARY ARMITAGE

    Mr. Armitage. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear here. Mr. Serrano, it is good to see you 
again. I did have the opportunity to call on former Chairman 
Rogers yesterday and spent about an hour with him, and when he 
appears, I will have some direct comments that emanated from 
that meeting.
    Sir, if I could just very briefly--because I realize that 
the patience of the Subcommittee is an inverted proportion to 
the length of my opening statement. I am just going to make a 
few brief remarks. The first is that Secretary Powell and I 
think you have a right to know how we view management of the 
Department. We view it, because of our background, and for that 
matter, Grant's background as well, like a soldier who is the 
first general of war, advising soldiers to take charge of all 
government property. That is the way we view our job in the 
Department of State. It does not matter if it is a regional 
bureau, or a functional bureau, or security of a mailroom, for 
that matter. It is ours and we cannot escape its problems and 
we do not wish to. They are all coming to the Secretary and to 
me.
    We view the men and women in the Foreign Service, civil 
service, and our Foreign Service nationals as our fellow 
citizens. They are our sons and daughters. They serve well, 
sometimes brilliantly overseas. They serve in conditions that 
are sometimes dangerous and awfully busy. I think they do 
ussome real credit. This Committee has always been particularly 
supportive, notwithstanding your correct comments about the size of 
this budget increase. We hope you will allow us to continue to fill 
what we think was almost a mandate, in the OPAP report. And if you will 
notice, Mr. Chairman, our budget request goes right down the line with 
the eight major recommendations of the OPAP report.
    Mr. Serrano, for you, particularly, when I called on you, 
along with Under Secretary Green, you made a very impassioned 
plea for minority hiring. We left with you a paper at that 
time. We have gone back and done a little more review about our 
minority hiring practices in the State Department. I have both 
good and bad news for you, sir--for all of us, for me, too, as 
the COO, so to speak, of the unit.
    Compared to 1992, we have dramatic increases. I call them 
dramatic--in almost every category that you could imagine. But 
we are not at the position where we fulfill the words of 
Secretary Powell. He wants the Department of State to reflect 
America in every facet. I would like, with the Chairman's 
permission, to submit some additional facts and figures on 
minority hiring in the record, that flush out the paper we gave 
you the other day. We look forward to dealing with you.
    Finally, if I may, when Mr. Rogers comes, if I would be 
allowed to make a few comments to him based on our meeting 
yesterday?
    Mr. Wolf. Sure, without objection.
    Mr. Armitage. I will turn it over to Grant Green.

                   STATEMENT OF UNDER SECRETARY GREEN

    Mr. Green. Mr. Chairman, Mr. Serrano, I am pleased, along 
with the Deputy, to appear before you in support of the 
President's Department of State Budget for 2002.
    The budget request for the Administration of Foreign 
Affairs portion of the fiscal year 2002 State Department Budget 
focuses on increases for human resources, information 
technology, security, overseas infrastructure, as well as 
management and organizational reforms to accompany these budget 
increases.
    Let me elaborate just a little bit on some of the points 
the Deputy touched on. Simply stated, the Department of State 
needs the right people at the right place at the right time 
with the right skills to advance America's interests. Years of 
hiring below attrition have left the Department unable to 
fulfill its diplomatic missions overseas with fully trained 
employees. Long staffing gaps have become routine. Improving 
our nation's diplomatic readiness will require a multiyear 
investment to recruit, hire, train, and retain people we need 
to carry out the nation's business. Our budget request for 
fiscal year 2002 includes our first installment in meeting that 
goal.
    In the information technology area, we have made great 
progress in improving IT at the Department of State. However, 
many of our people still do not have desktop access to the 
internet. Many do not even have desktop access to the 
classified and unclassified systems they need to do their jobs 
and to communicate with their contemporaries. Improving our 
information systems, both the unclassified and the classified 
systems at the Department, is one of Secretary Powell's highest 
priorities.
    The next area is security, which you mentioned. The 
Department's budget request does, in fact, include $1.3 billion 
for worldwide security upgrades in the fiscal year. This 
request represents a 22 percent increase over the fiscal year 
2001 level of slightly over $1 billion. Our request includes 
maintaining our extensive investment in security improvements 
worldwide, reinforcing our defenses against threats, which 
include cyberterrorism, technical and human intelligence 
threats, new construction to replace seven of our most 
vulnerable facilities, and upgrades of perimeter and access 
control at 73 posts that need greater protection.
    Lastly, our overseas infrastructure. The United States 
needs a strong diplomatic support platform overseas. Dozens of 
U.S. Government departments and agencies, including our own 
Department, rely on the support and platform at more than 250 
overseas posts to promote U.S. interests. This platform is 
hollow, and it has been hollowed out by years of inadequate 
funding. The State Department, as the landlord and the voice of 
those various interests and agencies, must, with the help of 
Congress, provide the support that U.S. government agencies and 
their programs require.
    Mr. Chairman, I, like the Deputy, would be happy to answer 
any questions that you and the other members of the 
Subcommittee have on our budget request and our future plans 
for the Department.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                         SPECIAL ENVOY TO SUDAN

    Mr.  Wolf. Thank you. At the outset, if I can ask Mr. 
Armitage just to comment. We have asked that other members, 
Donald Payne, and Congressman Tancredo, Senator Brownback, on 
the issue of having a special envoy to focus attention, and to 
focus like a laser beam, on the issue which is taking place in 
Sudan. And could you tell me if the Department is making any 
progress with regard to that or where we are on that?
    Mr. Armitage. Yes, sir. Thank you. I spoke to the Secretary 
before I came up here. He recalled vividly an appearance he 
gave before you a short time ago where you raised this issue 
and showed a videotape. He also recalls the early weeks of his 
tenure. You were kind enough to come down to his office and 
speak with him from the heart about the horrors of war in 
Sudan, and particularly, the horrors on civilians.
    We asked you at that time if you could give us a little 
time to get our people in order, and you gave us some time. Mr. 
Kannsteiner came to call on you the other day. He is going to 
have his hearing tomorrow, and then we should be fully staffed. 
But the Secretary has asked me to let you know that we heard 
the message. We got it. We have a name. We are moving forward. 
We wanted to name the coordinator for humanitarian action, 
which is Mr. Natsios, Director of USAID, and we are moving 
forward. I will be glad to speak to you privately about it. But 
the message is that we got the message, sir.
    Mr. Wolf. Well, I appreciate that. I think Mr. Natsios is a 
good appointment. I would hope and I am pleased to hear your 
answer. As you know, there have been 2.2 million people that 
have died in the south. Every major terrorist group operating 
in the Middle East has training camps around the Khartoum area. 
You have actual cases of slavery. So I am pleased to hear that. 
I would hope, if I could just ask you, too, and obviously, you 
are going to have to do it the way you see fit, but when this 
individual is appointed, it would be helpful to have them 
standing in the White House between President Bush and 
Secretary Powell, and yourself be there, and everyone else.
    Mr. Armitage. Oh, I could skip that, I think.
    Mr. Wolf. But I think the fact that when this person is 
appointed, the world will know, whether it be President Mubarak 
when they go to Egypt, or our European allies, will know that 
this person has the confidence of the President of the United 
States and the Secretary of State. Obviously, they will 
function through the Secretary of State, similar to what 
Senator Mitchell did with regard to Northern Island. But I 
think that will send a message. When the last special envoy was 
appointed, he never, ever met with President Clinton. It was 
done over a long weekend by a press release, and I think we 
learn by things that happen in the past. So the portfolio and 
the credibility of this individual is very high so we can, 
hopefully, have a person that can bring about a just and 
lasting peace, and stop the slavery, stop the killing, stop the 
famine, stop the death, and allow the people of Sudan, both 
north and south, Christian, and Muslim, and animist, to live in 
peace. So I hope you could give it that type of a . . .
    Mr. Armitage. I thank you very much for that advice, and I 
will certainly carry the message back to the Secretary. You are 
exactly right. We have to stop the war. As you and Mr. 
Kannsteiner discussed the other day, when wars happen, bad 
things happen. You just named every bad thing that is going on 
in Sudan and it has to stop. As I say, I will be more than 
happy to talk privately with you about who this person is and 
just where we are in the process of bringing this person on 
board.
    Mr. Wolf. Well, I have a lot of confidence in Secretary 
Powell and you. I think you have done a great job since you 
have been there, and I am not going to try to micromanage it, 
but anytime you want to talk to me about it, my door is always 
open.
    Mr. Armitage. Yes, sir.

      FY 2002 BUDGET REQUEST FOR ADMINISTRATION OF FOREIGN AFFAIRS

    Mr. Wolf. I will ask the questions, and you can proceed. 
Some may be appropriate to Mr. Green, others may be appropriate 
to Mr. Armitage--so however you see fit.
    Your budget request includes an unprecedented increase, 19 
percent, in the Administration of Foreign Affairs. The 
Secretary testified to the Subcommittee that this request is 
based on a perception of a chronic underfunding of basic 
requirements. Since 1997, excluding special funding increases 
for embassy security, the Department's operational budget has 
grown at an average rate of 5.5 percent, and that is 3.7 
percent above inflation. Over a longer period, funding for 
State's Operations have increased an average of over 3 percent 
every year since 1986. The funding history would lead many to 
conclude that the crisis, many do agree that there is one 
there, results from inadequate management as much as, if not 
even more than, inadequate resources. What are your comments 
and feelings about that?
    Mr. Armitage. If I may go first?
    Mr. Wolf. Go ahead.
    Mr. Armitage. I do not want to be in the position of 
criticizing those who went before us.
    Mr. Wolf. No.
    Mr. Armitage. They dealt with their problems in their own 
way, but it seems to me there is some mismanagement and there 
is some lack of management. When I talk about lack of 
management, what I mean is lack of accountability for people 
making decisions, or people who are afraid to make decisions 
because they are afraid they will not be supported from the 
top. There were bad decisions along the way; particularly, in 
Information Technology. When Wang computers went out of 
business, at the State Department we were all using Wang, so we 
had to change to an entirely new system.
    I think in fairness as well, that for security, after the 
interim report, there was a burst of attention to security 
items, and then it fell back. After the crime report, there was 
new evidence in the terrible bombings in Africa that drew 
attention to security. That has caused our budget to go up a 
bit. Where the chronic underfunding strikes me as being the 
worst, is where we are very proud this year to come forward and 
request approximately 360 new Foreign Service hires in this 
budget. We are short 1,188 positions. In the personnel accounts 
we have not had money to hire people. The budget may have 
increased 3.7 percent in real terms, but there were new 
requirements, and I think we were losing the war for talent. 
Consequently, we have a real gap in personnel. Grant?
    Mr. Green. I would like to go back and amplify one of the 
points that the Deputy made. Again, not to criticize any 
previous administration, but I think that all of us know that 
there was a distinct lack of attention to management. It did 
not receive the priority in the Departmentthat I believe it 
deserved and that Secretary Powell and Deputy Secretary Armitage 
believe it deserves. As Rich said in his opening statement, the three 
of us come from environments where management leadership is important, 
and turning on the lights is important, paying people is important, 
training people is important, security is important. As the Secretary 
has stated in no uncertain terms on many occasions to the Congress and 
to employees in the State Department, he is there to do two things: not 
only to serve as the President's senior foreign policy advisor, but 
also to operate as the CEO of the State Department, with the Deputy 
serving as the chief operating officer of the State Department. I can 
guarantee you that we care about those things, and I think that you 
will see the results of that caring as the months go by. I think we 
have done a lot in just two to three months, but there is a lot more to 
be done, and as you stated, our budget lays out some of the things that 
we believe are important. Many of them happen to coincide with both the 
OPAP report and Frank Carlucci's report. We believe those things are 
important, but not just because OPAP says they are important.
    Mr. Wolf. Well, I think so far you have done a relatively 
good job. A lot of your people live in my congressional 
district or live very close by, and the comments that I have 
heard from your people, both Foreign Service people and non-
Foreign Service people, has been very positive. I think they 
view the new administration in a very hopeful way. The 
expectations are very, very high, which can be a plus and it 
can be just the opposite, too. But there is a better feeling in 
talking and listening to some of the people that I know well 
over at the Department. They do feel that there is going to be 
a dramatic change and they are very excited about it.
    So are you taking advantage of the change of the economy 
for recruitment? On Monday, I had a job fair with Congressman 
Davis out at the CIT center out in the Dulles corridor. As you 
know, we have had a number of layoffs. The quality of people 
was top-flight, very, very good, and honestly, they were really 
excited. We had NSA, we had a lot of the top federal agencies 
there. I do not know if there was anybody there from the State 
Department or not, but there was a major recruitment effort, 
and a lot of the young people that I spoke with were very 
excited about the opportunity. They had moved into that area 
but they wanted to serve, they wanted to participate, and they 
were viewing this as an opportunity. Do you have anything 
specially planned with regard to reaching out to many of the 
DOTCOM people, certainly, in my area, but all over the country? 
And is there any special effort? And lastly, do you need--and 
obviously, we would have to consult with the authorizers, too, 
but do you need any special authority to move quicker to 
recruit people for maybe one year or two years to get people on 
board? Both issues, any idea of taking advantage of the 
unemployed people looking for jobs, and also, any help do you 
need from the Committee on that?
    Mr. Green. Sir, one of the areas where we probably do as 
well as any is the DOTCOM, the high tech recruiting that we do. 
That is, principally, tied to the fact that we started this 
back when we did not have the kind of layoffs that we have now, 
but we offer to those people both recruiting and retention 
bonuses if they meet certain skill levels. Where the Department 
a few years ago had a significant shortage--we still have a 
shortage--but it is manageable now. We do go out to trade shows 
and advertise in IT periodicals for employees to join that 
particular part of the Department. We are probably at 8 percent 
right now, down from where we would like to be. But it is not 
as bad as the remainder of the recruiting effort that we have 
ahead of us.
    Mr. Armitage. It strikes me, Mr. Chairman, that we have 
assumed, and I think the culture of the Department has been, 
generally, to assume that people are going to come to us. I do 
not think we have been particularly alert to having great new 
ad campaigns, things of that nature. This year in the 2002 
budget, we are requesting more money for that facet of 
campaigning. Every time you turn on your TV, you see ads ``Be 
all you can be,'' or ``Army of one,'' but no one is talking 
about the State Department or anything like that. We recognize, 
in our request to you for more advertising funds, that we have 
to do a little bit better. I do not think we were at the fair 
you mentioned though.
    Mr. Wolf. Well, we will share with you--we have a list of 
all the companies in my area, both in Mr. Moran's area, and Mr. 
Davis' area, and my area, that many have closed or have laid 
off good people. And we are going to ask if--we are going to 
give you that list, and your people may want to communicate 
with them to see if there is a particular skill or anybody that 
they have that would be interested. I was very impressed with 
the quality of people.
    Mr. Green. We would be happy to get that.
    Mr. Wolf. We asked Secretary Powell if he considered 
undertaking a top to bottom review of the Foreign Affairs 
budget, such as the one underway at the Defense budget, before 
asking for the increases. He said there had been enough 
studies, and frankly, I agree with him. I think he made a very 
powerful case. I mean, you could argue you should have a top to 
bottom, but you have had a top to bottom, to top, to bottom, 
over and over. However, the studies so far have focused on 
broad reform proposals. Has there been enough done through a 
budget scrub to take a zero-based analysis of the Department's 
budget? For instance, in the request, it does not include the 
elimination of a single position. We are not talking about 
people losing jobs, but is there that type of review needed, 
which could result in streamlining proposals to offset the 
large increases that you are seeking?
    Mr. Armitage. Sir, I was a few minutes late for my meeting 
with you because I was with the OMB Deputy Director, talking 
about what is commonly referred to as right-sizing of 
embassies. We had gone out, Mr. Green and his staff, to try to 
get our arms around how many people from which agencies 
populate our embassies, and to learn how many spots are vacant, 
for how long, and why. If positions are vacant for a long time, 
why do we need them? I think we are, partially, following the 
way that you are suggesting. The OPAP study did suggest that we 
should look for opportunities to right-size and do just that. 
Obviously, it will take OMB support because we are going to 
have to right-size among a lot of agencies. OMB is going to 
have to be there to enforce some discipline. I do not want it 
to be an effort where the State Department goes about a 
rigorous review and we are the only ones that have to give at 
the office.
    The second point I would like to make, sir, is that 
SecretaryPowell, and I are glad you do agree with him that we 
do not need more top-to-bottom reviews. After all, you can have a top 
to bottom review, but if you do not lead it and manage it, it is not 
going to do any good anyway. We are trying to bite this off one bit at 
a time. We have a proposal up here which has been approved for the FBO 
to be a stand-alone organization working right from the ground. We have 
another proposal up here which would consolidate the financial 
management under an Assistant Secretary for Resource Management, who 
would report directly to me. There is a proposal coming down the pike 
that merges a couple of our regional bureaus. All of these will come to 
the Congress for reprogramming. That is the way we are approaching it.
    I do not know if we are right, but as I said to somebody, 
we have to take a high school wrestler's approach to problems. 
You take them down one after the other.
    Mr. Wolf. The Foreign Affairs Consolidation Act of 1998 
brought the USIA and the Arms Control Disarmament into the 
Department, but that did not include any streamlining measures 
or any assumptions about efficiencies resulting from the 
merger. In fact, when you would hear two companies merged, they 
would say they were merging for efficiency. You will have one 
comptroller, one this, one that. The fiscal year 2002 budget is 
the third budget for a consolidated department. Does your 
funding request include any proposal to achieve savings or 
efficiencies from streamlining, or from consolidation of like 
functions? And if not, is this not something the Department 
might want to look at?
    Mr. Green. Sir, it is something that we certainly hope to 
realize as we get further into the consolidation. 
Unfortunately, when those two organizations were rolled into 
the State Department, they had already taken significant 
personnel cuts, which of course, is the vehicle for saving most 
of the money. We were also precluded then from taking any 
additional personnel cuts and had guaranteed individuals, 
essentially, the same grades as they moved from the separate 
USIA and ACDA into the State Department. We have incurred some 
one-time costs associated with the physical preparation of 
space for those organizations which we are still going through, 
but when they are fully integrated, and we certainly hope to 
achieve some administrative savings. At the same time, we may 
see some economies and be able to combine some of the 
activities. For example, we are seeing right now in the Arms 
Control Bureau some overlap as a result of that integration, 
and we need to take a look at that and see if any further 
reorganization and consolidation might save us some money. We 
are fully conscious of your comment. Normally, when you 
consolidate you hope to right off the bat save money, but so 
far, because of these other circumstances, this has not 
happened.
    Mr. Wolf. The last question from me, and then I will 
recognize Mr. Serrano. With regard to the right sizing, are 
there any effective controls on the growth of overseas 
staffing? How do you determine who is in an embassy and how do 
you determine does this agency, and USDA, and the FBI, how do 
you determine who goes in? We do not have the jurisdiction over 
the USDA. Does USDA say they want to come in or what about if 
another agency said they wanted to come on in? Who says? Does 
the ambassador say, okay, we have floor space for this many 
people, this is what the embassy is built for? Is there any 
mechanism--let us say, the USDA, again. Do they have to go to 
the ambassador, do they go the Secretary of State? Who do they 
go to to find out if they can come into your embassy?
    Mr. Armitage. Well, they have to go to us, they also have 
to go to the host nation, and the ambassador has the final say. 
The ambassador does not work for the Secretary of State. He 
works for the President. The letter which the President sends 
out to ambassadors is a convincing letter. It makes it very 
clear that he has cognizance over all the agencies, so he has 
the final say. However, regarding this Subcommittee, what you 
said is correct. This Subcommittee, Agriculture's committee 
have some say, and others, whether it is DEA or FBI, want some 
programs. Many times, we find that there is some mandated 
reason--not for the numbers, particularly, but for the fact 
that we need a presence of one agency or another. In that case, 
the ambassador generally swallows hard and moves someone over a 
little bit to make room, but it is the ambassador's decision.
    Mr. Wolf. But the ambassador can say no?
    Mr. Armitage. Yes, he can.
    Mr. Wolf. He can say no. And are there instances in the 
last several years of an ambassador saying no? Many of your 
embassies are so overcrowded.
    Mr. Armitage. Well, the other thing----
    Mr. Wolf. The staff just said, too, that they could be 
overruled. Is that accurate?
    Mr. Armitage. Yes.
    Mr. Wolf. By?
    Mr. Armitage. If the NSA or the President wants someone in, 
they would be overruled. I think as a practical matter, if the 
Secretary said do it, they would do it.
    Mr. Green. If some of the other committees that have 
oversight felt the way about right-sizing that this 
Subcommittee feels and that we feel, and support what we are 
trying to do in the State Department, we might not have some of 
the same issues. But when five guys show up on your doorstep 
with suitcases and say, ``My boss sent me, and here is what I 
am here to do'', it is very difficult, frankly, for the 
ambassador to say, ``Get on a plane and go home''.
    Mr. Wolf. Sure. Do you charge them, like GSA charges lease 
space? If there are 15 USDA people in the embassy in London, 
are they paying for that space?
    Mr. Green. Sir, they pay for administrative services under 
a program we call ICASS. They pay for that, but it is a wash.
    Mr. Armitage. It is what they do not pay for. If I may, 
Grant?
    Mr. Green. Yes.
    Mr. Armitage. What they do not pay for, and what I would 
like to get them to step up to, is security and things of that 
nature. They do help pay for the guards. It comes under 
administration. But the security upgrades which we apply to an 
embassy are major investments. They do not pay for those. I did 
have that discussion with OMB to see if we could get other 
agencies to step up and pay a little bit of that.
    Mr. Wolf. I think there ought to be a way that you can bill 
them similar to what GSA does for space in the U.S.
    Mr. Green. Sir, we are in a dialogue right now with OMB and 
in cooperation with the new Foreign Building Operations that 
Chuck Williams is running, to try to charge rent by headcount. 
Whether we can convince other agencies I do not know. That not 
only is fairer, but it also would tend to drive agencies toward 
right-sizing.If a cabinet officer or one of his deputies has to 
pay for ten people, he might decide to send eight.
    Mr. Wolf. I agree.
    Mr. Green. So we are just beginning that dialogue and 
probably would not be able to do anything until the 2003 budget 
because this will require additional authorization and 
appropriation.
    Mr. Wolf. Mr. Serrano.

                            MINORITY HIRING

    Mr. Serrano. Thank you, Mr. Chairman. First, let me tell 
you that I was pleased to hear the good news/bad news on the 
issue of minority hiring. I will continue to impress on all of 
you the importance of diversifying those folks who represent us 
and who advise administrations on foreign policy. I am one who 
strongly believed for many years that, parts of our foreign 
policy and what may be wrong with it, may be attributable to 
the fact that for so many years, we did not have a wide variety 
of people involved in advising our administrations, whoever the 
president might be. And so I cannot tell you how important it 
is to me to have people who have an understanding of different 
parts of the world based on their own background to participate 
in the policy. And I will do whatever I can to assist you in 
that goal, and I, at the same time, will continue to impress on 
you that we all adhere to Secretary Powell's desire to make it 
representative of America. So I congratulate you on your 
comments and will stay in close touch with you on it.
    Mr. Armitage. Thank you.

                         INFORMATION TECHNOLOGY

    Mr. Serrano. In your opinion, what is the State 
Department's most serious Information Technology need?
    Mr. Green. I believe it is, as the Secretary has stated, 
internet access at every desktop. As a result of Y2K and the 
funds that were provided related to that, we were able to 
replace the old Wang machines that the Deputy mentioned. We 
have installed 30,000 relatively new, desktop machines, both 
here and overseas.
    Mr. Serrano. You said 30,000?
    Mr. Green. 30,000; 18,000 overseas and 12,000 here in the 
United States. What we do not have, driven by lack of money and 
security issues up to this point, is the ability to browse the 
internet on our machines. Users can e-mail back and forth, talk 
to friends, send messages back from overseas to the State 
Department, but they cannot browse the internet from their 
desks. The concern has been the potential migration of 
information between the internet and our unclassified but 
sensitive message traffic that was going back and forth. We 
have now finished pilot projects on integrating internet 
browsing and we are prepared to start global implementation. As 
part of the funds that are in the $273 million 2002 request, 
slightly over $100 million will be devoted to putting desktop 
internet browsing capability on every one of those 30,000 
desks. If everything moves the way we hope it will, we will 
have that within a year.
    Mr. Armitage. Mr. Serrano, if I could add to that, there is 
another element to this. We have, as I understand it, 243 posts 
which require classified connectivity; 108 of our posts do not 
have any classified capabilities. That seems to be a pretty 
glaring weakness. Whether it rises to the level of the most 
important IT shortfall or not, it is a pretty glaring weakness.
    Mr. Serrano. You said that you had an initial concern about 
browsing the internet. Were you able to resolve that?
    Mr. Green. We need to have firewalls between the 
unclassified but sensitive e-mail capability and the internet, 
at those 30,000 machines. There is the potential, as we 
recently saw, for people who are outside to hack into our 
system through the internet. We think we have solved the 
problem and have in place most of the technical firewalls to 
defend against that. We have some administrative disciplining 
that needs constant monitoring, such as codes, passwords, and 
so forth, which require constant hammering at people to be 
security conscious. To follow on the Deputy's comment, he is 
absolutely right. The second major funding piece in our IT 
request will go toward the classified system. As the Deputy 
said, we have 108 posts with no classified e-mail, none. We 
have 85----
    Mr. Serrano. No e-mail at all?
    Mr. Green. They have e-mail, but not classified e-mail. We 
have another 86 posts that have antiquated systems that need to 
be upgraded. By the end of this year, we will have upgraded 
about 54 to the new modern classified e-mail funded from 
previous appropriations. The FY 2002 appropriation will enable 
us to put classified e-mail at about 95 additional posts and we 
will be able to complete the remainder next year with the last 
tranche of another 95 posts. That will give classified e-mail 
to the 240-some odd posts that need it. Those that do not have 
classified capability right now have to rely on classified fax 
or classified cable. They cannot sit at their desktops and send 
a classified e-mail. Those are the two most important IT areas.
    Mr. Serrano. And you find that classified fax at that point 
is safer than classified e-mail?
    Mr. Green. No. We want to get to classified e-mail, but at 
those 108 posts, our only option is either classified fax or 
classified cable.
    Mr. Serrano. Now, just mentioning for a second, obviously, 
the ability for people to hack in, what are we doing to prepare 
ourselves for the ever-growing threat of cyber terrorism and 
the ability to just disrupt everything that we are doing?
    Mr. Green. Sir, we have to stay a step ahead of them. You 
may have seen the article in the paper this morning about the 
sophistication that is growing in many countries, including 
here in this country, for hackers to get into classified 
systems. We have to work twice as hard to ensure that we put in 
the kind of technical firewalls that are required, and at the 
same time, continue to train and monitor our people. The 
Secretary has said security is an individual personal 
responsibility; people will be held accountable. But a lot of 
that, too, is education, constant training, and advisories to 
the people who are using the internet.

                         NEW HIRING INITIATIVE

    Mr. Serrano. Let me move to a personnel issue. I know the 
State Department's budget includes funding for 360 new 
employees. Have decisions been made on where, geographically, 
these new personnel will be deployed? Will these employees be 
hired at the bottom ranks or will some of them come in at mid-
level range? Will they all be sent to the field, to staff 
shortages in posts? And as you start to fill your personnel 
needs, what are your priorities?
    Mr. Green. A lot of questions. Let me try to answer them in 
a----
    Mr. Serrano. They are really very small.
    Mr. Green. If I omit something, just remind me. Our most 
serious shortages are overseas. We have 600 vacancies overseas, 
more than 200 of which are mid-level; captains, if you will, 
much like the military. That is where our shortage lies.We have 
not done a terribly good job of recruiting. We have not always done a 
very good job of retaining people and providing the sorts of incentives 
that everybody needs to be happy on the job, whether that is taking 
care of their families, or providing them healthcare, or whatever. The 
primary shortages are right now in the administrative and consular 
areas. That is where we will focus much of our recruiting efforts. We 
need to be more flexible in the way we recruit, and we have come up 
with a number of alternative entry programs. I will give you an example 
that the Secretary has used many times, and I will use the admin cone 
as the example. We are short admin officers. Why continue the normal 
way of recruiting: Foreign Service exam, oral exam, security 
clearances, health clearances, and 18 months in the queue? By then, the 
person has a different job. Why not go out and recruit admin warrant 
officers who have retired from the Army, and bring them in? They know 
the subject area; they know admin. They may not know all the nuances of 
the State Department, but they know admin. Why not bring those people 
in? Why not go out and try to recruit other federal government 
employees who are admin folks and bring them in for one of these 
alternate entry portals? That is what we are doing. You have got to 
spend more money on advertising though. Last year, we spent $75,000 on 
advertising and recruiting. That is less than the Army spends on a 30-
second commercial. We have to spend more money. We have to put more 
money in the field for recruiters, to include minority recruiters. We 
are going to do it.
    Mr. Serrano. Now, it is my understanding that the number of 
those taking the Foreign Service exam is down, the number who 
are accepting appointments to the Foreign Service has 
decreased, and the number who are leaving is increasing. What 
are you doing to attract potential employees? Now, I know you 
just mentioned one part of that, but in general, it seems that 
you are losing at every level.
    Mr. Green. We are. The McKinsey report, War for Talent, hit 
it on the head. We are in an economy where we are competing 
with a lot of very attractive industries. We don't pay very 
well at the entry level. We pay an entry level Foreign Service 
officer slightly over $30,000. We pay an entry level lawyer 
$50,000. We are not terribly competitive. You have to find 
people, just like the military services do, who want to serve, 
that want to be part of the State Department team, and we have 
to do things to facilitate their hiring. As I alluded to, we 
also have to change the way we assess people. We can't go out 
in the normal routine and have folks wait 18 months to be 
accepted. We have to give the Foreign Service exam more 
frequently, which we are going to do. We have to give the oral 
exams more frequently, which we are going to do. We have to 
shorten the time that the diplomatic security folks take to 
approve a clearance, which we are going to do. In fact, with 
the next cycle, we are going to do that. We have to get through 
the medical clearance process. We have to shorten that time 
because a young person today has many more opportunities than I 
had when I began working and is just not going to wait that 
long. Once we hire them, we have to make a work environment 
both for the individual and the family that is attractive.
    Mr. Armitage. If I might, I would ask your permission and 
the Chairman's permission to put some of these facts and 
figures in the record, particularly, regarding minorities. One 
thing I don't understand is, until the year 2000, African-
Americans, and Asian-Americans, and Hispanic-Americans, were 
pretty steady in the number of people who registered to take 
the test and that actually took the test. These numbers dropped 
in the year 2000. I don't know the reason. I don't understand 
it yet, but I will. Minority applicants dropped in every 
category for the year 2000. For the three or four years prior 
to that, it was pretty steady.
    Mr. Serrano. I do not know. I guess it could be the economy 
is doing well in other places. It hasn't stopped people from 
applying for our jobs, by the way. Whether it is a good economy 
or not, people are applying for this job all the time. Now, one 
last question. If you are successful, or even partially 
successful, in your hiring desires, you are now going to ask 
for close to $8 million, $7.8, for training for the new hires. 
So the question would be, if you are successful, even if you 
get close to it, is the Foreign Service Institute capable of 
handling this requirement? And if you do, will this close to $8 
million leave you short of any kind of training you would like 
to do?
    Mr. Green. Go ahead.
    Mr. Armitage. As I understand it, the Foreign Service 
Institute, which I was able to invite Mr. Cramer to visit after 
the Secretary's appearance here, is able to almost double the 
number of people they train. But they would have to hire 
trainers; that is what the $8 million request is for. The 
physical plant can accommodate about double though.
    Mr. Green. They would love to have that challenge, believe 
me. The issue with training is two-fold. We have a culture that 
has avoided training because the emphasis is to get to the 
field. There is no reward system and there is no recognition 
system for training. More importantly, we have been so short 
staffed from hiring below attrition, that we cannot afford to 
send people to training. We have needed to get them to the 
field to fill one of those 600-plus vacancies. Even in the 
mandatory training category, such as language training, we drag 
them out before they are finished to get them to post. There is 
no way we are going to send them to some leadership or 
management, or nice ``to have'' training. You just cannot 
afford to do it with the numbers we have. That is why we have 
to ramp up staffing. We have to do just as DOD does. We have to 
have a TTHS account. You have to have a float so that you can 
afford to send people to these kind of courses.
    Mr. Serrano. Let me just make one more comment and ask a 
quick question. With the good support of the Committee members 
and Chairman Rogers, we were able to get some dollars for my 
home district, where the local community college is going to 
begin courses to train folks for the Foreign Service. And then 
if they make it through there, Columbia University has 
guaranteed a seat for them to go on with further study. And I 
know that that will be successful, and Secretary Powell 
supports it, and that it will work.
    But I wonder, you know, at many graduations, college 
graduations, and certain high school graduations, you see the 
folks from the Army and the Navy recruiting. Do you guys do the 
same thing?
    Mr. Armitage. As I stated earlier, I think the problem was 
that we assumed people would come to us because we are so good, 
but things have changed a bit.
    Mr. Serrano. Well, the Army has a long record, andthey 
still recruit.
    Mr. Armitage. Well, we haven't done this. That is why our 
advertising budget was so puny. We felt people knew who we were 
and would just come to us naturally.
    Mr. Green. As you know, Mr. Serrano, we have 11 diplomats 
and residents working at various colleges and universities that 
have high enrollments of minority students. I won't go through 
the litany of the agreement with Howard, but we will have a 
similar one with the Hispanic associations, colleges, and 
universities, as soon as we can get a date for people to get 
together to sign. We are focusing our recruiting efforts at 53 
other colleges and universities that have high enrollments of 
minority students, and we also are beginning to focus via the 
internet and through associations that have close relationships 
with minorities. We are out there at every graduation--probably 
not--but we are focused on----
    Mr. Serrano. Let me, just for the record, if I could, Mr. 
Chairman, say that on this particular issue, and I am referring 
only to minorities, on the whole idea of going to the schools 
and talking to the students, to the young people in this 
country, I think you would be surprised at how many would want 
to sign up once they know what it is all about. But what you 
are doing is at the center of who we are as a nation, and yet, 
it is not known, normally, the way the Army, and the Navy, and 
the other services are known.
    Mr. Armitage. I am hoping to some extent, frankly, that the 
celebrity of General Powell will bring this home to people.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Wolf. I am going to recognize Mr. Rogers. Let me just 
agree, though, with Mr. Serrano. The government service, and 
public service, is really important. The opportunity of being 
in some of your embassies, what some of your younger people are 
doing, the responsibilities that they have versus what they may 
have outside is unbelievably positive. I think he is right, to 
talk about the opportunities to make a difference, and I think 
a lot of us are motivated to make a difference and not just to 
make money. I think he is exactly right. I think the motivation 
is out there and I think you should reach out and let them know 
that you want them there. But I think we are never going to be 
able to pay in public service what you pay outside. I am sure 
you probably made a lot more money before you came here, but 
you probably fought to get this job and are thankful to have 
the opportunity to work 12-15 hours a day, because it is public 
service.
    Mr. Serrano. On a good day.
    Mr. Wolf. Public service is important, because when it all 
ends it is did I make a difference in life or did I not, so Mr. 
Rogers.

             DEPUTY SECRETARY FOR MANAGEMENT AND RESOURCES

    Mr. Rogers. Secretary Armitage and Under Secretary Green, 
welcome. Secretary Armitage, tell me the difference between a 
Deputy Secretary and an Under Secretary.
    Mr. Armitage. By statute, there are four?
    Mr. Green. Six.
    Mr. Armitage. Six Under Secretaries who have Assistant 
Secretaries reporting to them. For the Deputy Secretary, he 
acts in this administration simply as the COO, and the only 
direct reporting relationship will be from the Financial 
Management Bureau.
    Mr. Rogers. So there is no change from the previous 
administration?
    Mr. Armitage. No, sir.
    Mr. Rogers. In spite of the fact that the Congress last 
year directed the Department to have, in addition to the Deputy 
Secretary for Policy, a Deputy Secretary for Management and 
Resources. And yet, Mr. Green is here as an Under Secretary. 
Secretary Green, we want to give you a promotion. There was a 
very definite reason for that. I have sat on this Subcommittee 
now 17 years, including 6 years as Chairman. I visit maybe 8 to 
10 foreign embassies a year, and I spend a lot of time studying 
the Department's needs. There is a reason why we have had 
security breaks. There is a reason why we have an inability to 
communicate from embassies in one country to here, or another 
embassy, or even within the same embassy. There is a reason why 
the State Department still uses cables in the era of internet 
and instantaneous communication. It is not being run properly.
    Can you tell me another organization that is spread across 
how many countries?
    Mr. Armitage. 253 posts.
    Mr. Rogers. 253 posts in 70 countries. How many employees?
    Mr. Armitage. 25,000, counting Foreign Service nationals.
    Mr. Rogers. Spread across the world, and a headquarters 
here where we found the Secretary of State's offices being 
bugged. The reason for that is there has not been in the 
structure of the State Department somebody who was given the 
authority to run the day-to-day operations of the State 
Department, to keep the platform operating so that the 
diplomats could do their policy thing. The Department 
desperately needs a business manager, not an Under Secretary, 
but a Deputy Secretary, a person who has the obvious authority 
of a Secretary.
    That reached the level where Chairman Gilman and this 
Subcommittee last year wrote into the law that there shall be a 
Deputy Secretary for Management, because of the importance 
attached to it. And yet, we do not see that. How come?
    Mr. Armitage. Well, you and I had this discussion 
yesterday, and I took your comments back as I told you I would. 
We do not intend to break the law. You know we don't agree with 
you on this, but the law is the law, so we have to figure out 
something to do. If I may.
    Mr. Rogers. It is pretty easy to figure out what to do.
    Mr. Armitage. Well, if I may, sir, the law says a 
secretary, a deputy secretary, and a deputy secretary for 
management, is what the law says, not a deputy secretary for 
policy. I am just being factually correct. After our discussion 
yesterday, I went back and saw Under Secretary Green and the 
Secretary, and we chatted about it, and we are going to figure 
out what to do. We have a disagreement. We are not going to 
break the law, so we either have to change the law or we have 
to abide by it.
    Mr. Rogers. You are going to change the law?
    Mr. Armitage. I don't have the capability myself, that is a 
congressional matter, but I said those are the only two 
recourses left to us, I think.
    Mr. Rogers. Let me just say this to you pretty plainly. 
This Congress expects you to abide by the directions given to 
you in the law that funds this agency. I find it rather 
disconcerting that you sit before the Subcommittee that funds 
your Department and say, ``we are going to change the law that 
you wrote because we don't agree with you.'' The last time 
Ichecked, it was the Congress that decided what was the policy of the 
nation. Has that been changed?
    Mr. Armitage. No, Mr. Rogers, but I----
    Mr. Rogers. Then we expect you to abide by this direction. 
As I said, a lot of us have a strong investment in proper 
oversight of this Department. You, by your own testimony, admit 
that the Department is not being run the way it ought to be 
run. We know that from our experience on this Subcommittee and 
from traveling around the country and around the world. We will 
not sit idly by and not discharge our obligation to be sure 
that you don't have those break-ins and leaks from the 
Secretary's office, or those bombings at embassies, or a 
sloppily run construction program, and the billions of dollars 
and people working at embassies and outposts living in squalid 
conditions. We are not fooling around here. We are not 
debating, and we are not having a nice conversation. Well, I 
think it is pretty nice.
    We expect this to be done. We were polite to the Secretary, 
and we want to be polite to you, but we want you to know that 
we expect this to happen. What you are doing is the same thing 
that has been done in the Department for decades and 
generations. The bureaucracy does not like it when you put 
somebody over them that has authority, and so they keep this 
position squelched away. The Department of State needs to be 
run like every other department. In that respect, it needs a 
manager. You are going to be preoccupied, I guarantee you, with 
crisis after crisis of a policy nature around the world.
    Mr. Green is going to be there, hopefully, trying to run 
the shop as Bonnie Cohen tried to do in the previous 
administration. But, she didn't have the authority. She didn't 
carry the title. She didn't have the baton of leadership that 
the rest of the Department recognizes. We expect you to do as 
we directed, and give the Deputy Secretary for Management that 
title and that leadership capability so that we can run this 
Department.
    I am going to be sitting right here looking down your neck 
every minute I can, and I am not going to rest until this 
happens. I have waited 17 years; I tried it for 6 years as 
Chairman. We finally got the provision written into law with 
the concurrence of the authorizing committees of both the U.S. 
House and Senate. It is signed into law. The question I have is 
when will you execute the law that directs you to do this?
    Mr. Armitage. Well, I will go back and consult with----
    Mr. Rogers. I didn't ask you to go back and consult. I 
asked you when are you going to make it happen?
    Mr. Armitage. If I may, we had a conversation yesterday 
afternoon, a very nice conversation. It was no different from 
the one we have had today except for the tone.
    Mr. Rogers. But the answer you came back with today is 
different.
    Mr. Armitage. No. It is the same one. I said it is nothing 
personal. You agreed with that. You put the law in before I was 
ever on anybody's scope or anywhere else.
    Mr. Rogers. That is right.
    Mr. Armitage. I took it back to the Secretary. He knows we 
have to deal with it and we have to deal with it this year. I 
cannot give you a date. I have been in this job for seven 
weeks. Grant has been in seven weeks less a couple of days. I 
cannot give you--I cannot satisfy you with a direct answer on 
when it is going to be. It has to be within this year.
    Mr. Rogers. Well, the longer you wait, the worse the 
problem gets.
    Mr. Armitage. Before you came in, sir, I said to the 
Chairman--I requested to say something to you along these 
lines, but you were not here, so we went on. Then you came in 
and you asked the question. In a way, you didn't give me the 
chance that I had already requested of the Chairman. It wasn't 
your fault. You didn't know the conversation we had.
    Mr. Wolf. I think that was a misunderstanding. He did at 
the outset say that he wanted to when Mr. Rogers came in, and 
we were moving along, and so there was a sense of----
    Mr. Rogers. Wanted to do what?
    Mr. Wolf. He said he did want to make some comments 
directly to you when you came in, and then the hearing began. 
But he did reference that.
    Mr. Rogers. Well, the bottom line is when are you going to 
do it? It is simple. You have got the money, you have got the 
directions that are written in the law. The Congress has made 
the policy and has written it into law. It has been signed by 
the President. I do not know what there is to wait for. We want 
this position to have the proper authority to do what has to be 
done to manage this far flung organization. The question is how 
soon can we expect this?
    Mr. Armitage. You are our appropriating committee. I have 
to take this seriously. I have to go back and talk to the 
Secretary, and I will call the Chairman and let him know as 
soon as we have an answer. I do not think there is any mistake 
in either the direction or the tone. I think you should not 
mistake the fact that I may not stand up and say we have a 
disagreement. I am not disagreeing with you on a personal 
basis.
    Mr. Rogers. I do not like the law on 55 miles an hour. I 
disagree with it, but does that give me the right to go 60 on 
the highway?
    Mr. Armitage. No sir, I did not indicate we were not going 
to do it. What I indicated is we have the choice of either 
abiding by it or trying to fight it. You are right, we do not 
make the law. Congress does. I think that is a straightforward 
answer. I carried it back to the Secretary yesterday afternoon. 
There are other things going on.
    Mr. Rogers. The time for fighting that was before it passed 
and became law.
    Mr. Armitage. Right.
    Mr. Rogers. It is the law of the land and we expect you to 
abide by it. And if you do not abide by it, I guarantee you 
there will be consequences.
    Mr. Armitage. That is exactly what you said yesterday.
    Mr. Rogers. There will be consequences and there is a 
reason why, obviously, that a lot of us fought a long time to 
get that written into the law. It is for the betterment of the 
Department. It is because of the frustration of seeing a huge 
unmanaged agency like this--not just in the last 
administration. After the hearing with Secretary Powell, I 
think I can say this openly, the previous Secretary, Secretary 
Albright, called me at home in Kentucky. She said, I thought we 
were friends. I said, we are friends. She said, I did not get 
that from your questioning of Secretary Powell about the agency 
not being properly run. She saidthat I thought he did not 
properly run the agency. I said to the Secretary, I did not say that. I 
said the Department cannot be run by anybody because it is not properly 
organized for that purpose.
    I have sat here overlooking Secretaries of State for both 
parties for the last--well, back into the beginning of the 
Reagan years, and the problem has persisted for the same 
reason. We had good people in Secretary Green's position in all 
of those administrations--good, dedicated managers, hard 
workers, motivated, underpaid, private sector experience--but 
they simply burned out because they didn't have the authority. 
We expect the Secretary to give the Deputy, the person in 
charge of management, the title that the law says it should be 
and the authority therewith. We need somebody that we know we 
can turn to, have somebody that can respond to us and our 
constituents.
    People ask me back home how you could have had a spy with 
an implant in the Secretary's office? There is nobody I could 
turn to. I turned to Under Secretary Cohen and the Secretary, 
but there was nobody in charge that had the authority to 
prevent it and say fix it. That is what we are looking for, and 
by golly, we found it, and we expect that position to be 
filled.
    Mr. Wolf. Mr. Mollohan?
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Armitage. I wonder if I could make the comments that I 
was going to make?
    Mr. Wolf. Sure. Go right ahead.
    Mr. Armitage. Yesterday, when we had our meeting, you 
talked about OPAP, and you said that this is the Bible. What I 
was trying to do is call your attention to the priorities that 
we put in this budget request, and try to make the point that, 
although I do not think I would quite call it the Bible, it 
sure is a good signpost or guidepost of which way we should go. 
I just want to make that point to you.
    Mr. Rogers. Good.
    Mr. Armitage. Because on a previous problem, you said, you 
are not listening, you are not hearing. I am just trying to 
make a point that we are hearing.
    Mr. Rogers. Well, I appreciate that, and I was going to ask 
you about that when I had more time, about the Lou Kaden 
report. I am very pleased that you are adopting that as your 
guidepost to go by, because practically everything in the Kaden 
report is right on target. It follows on the Crowe report, and 
the Kaden report, and the Carlucci report. All of them are more 
or less the same. So I am glad you are adopting that as your 
guidepost. I will have some questions on that when we come back 
in another round.

                     FTE LEVELS AT STATE DEPARTMENT

    Mr. Mollohan. Mr. Chairman, it is good to be back. 
Secretary, I would like to join the Chairman and welcome you 
both to the hearing today. You, obviously, have an employee, an 
FTE problem. What is the total FTE complement at the State 
Department, at least that part of it that you are representing 
a considerable deficiency?
    Mr. Green. Well, we have almost 7,000 civil service 
employees. We have just short of 9,000, Foreign Service 
employees.
    Mr. Mollohan. Are those FTE's, too? Are the Foreign Service 
FTE?
    Mr. Green. Yes.
    Mr. Mollohan. When you talk about having a 700 FTE 
shortfall, what are you talking about?
    Mr. Green. It is a mix of Foreign Service and civil 
service.
    Mr. Mollohan. Okay. So security, 16,000 FTE's you have, 
total?
    Mr. Green. 25,000, counting the Foreign Service nationals.
    Mr. Mollohan. Okay. So within that whole group that you 
have an FTE deficiency? Is that correct? I mean, it is among 
the whole----
    Mr. Green. Not Foreign Service nationals. Do not count 
them. It is within the civil service/Foreign Service.
    Mr. Mollohan. And what would that number be?
    Mr. Green. Well, we have 700 within that total number of--
--
    Mr. Mollohan. No. What is the that, is what I am trying to 
get at?
    Mr. Green. Civil service and Foreign Service.
    Mr. Mollohan. What is the number--15,000?
    Mr. Green. 15,000.
    Mr. Mollohan. Okay. So you have got about--you are 
estimating about a 5 percent FTE shortfall?
    Mr. Armitage. I think it is 1,188 total, sir, but this 
year, we are asking to add 760.
    Mr. Mollohan. Oh, I misunderstood that. I thought you were 
requesting 360--oh, in the Foreign Service?
    Mr. Green. The 360 are 310 Foreign Service, 50 civil 
service. The 186, there are 86 DS agents and 100 other security 
professionals. These would be engineers----
    Mr. Mollohan. Let us take the Foreign Service officers. How 
many Foreign Service officers do you have?
    Mr. Green. 8,907.
    Mr. Mollohan. And you were just asking 360 in that area or 
is that the 700 shortfall, Foreign Service officers?
    Mr. Green. 310 of the 360 are Foreign Service.
    Mr. Mollohan. For this year, you are requesting?
    Mr. Green. For this year.
    Mr. Mollohan. Okay. What is the total vacancy or the total 
insufficiency in Foreign Service officers?
    Mr. Green. It depends if you want to include the float that 
we would like to have.
    Mr. Mollohan. Well, let us not include the float and then 
include the float.
    Mr. Green. 1,158 is the total, with a 10 percent float, so 
a couple hundred from that, would be about 900 or 1,000.
    Mr. Mollohan. You have 8,907 FTE positions in your Foreign 
Service offices. Right?
    Mr. Green. Correct.
    Mr. Mollohan. Okay. And you are representing to the 
Committee here that you have a shortfall in that category of, 
total shortfall, without the float?
    Mr. Green. 900-950.
    Mr. Mollohan. What is the 700 number? This isn't a trick 
question.
    Mr. Green. No. I understand that. I am just trying to see 
where you got the 700. It looks like the 360, plus the 186 for 
the security professionals, plus 51 for overseas 
administrators, and then there are 71 consular officers which 
are not in that part of the budget. They are paid for by 
consular fees.
    Mr. Mollohan. Is this an inordinate number, an unusual 
number, throughout the history of the Department?
    Mr. Green. Well, we have lost more people in 2000 by double 
than we lost in 1999. I do not know the history of what the 
goal every year has been. A lot of it has been based on what we 
thought we could recruit and what the budget provided for. This 
year, with the bump-up in the budget, this is a recruiting 
objective we have set, which will----
    Mr. Mollohan. Part of the budget request? You are talking 
about this year, you are talking about 2002?
    Mr. Green. This year, yes, sir.
    Mr. Mollohan. Is this budget driven or are there other 
reasons for this shortfall?
    Mr. Green. This is budget driven.
    Mr. Mollohan. This what?
    Mr. Green. These numbers are budget driven.
    Mr. Mollohan. Your 2002 request?
    Mr. Green. Yes.
    Mr. Mollohan. You are not talking about the circumstances 
in which you find yourself. Is it budget driven or are there 
other reasons for the shortfall?
    Mr. Armitage. I am not sure I am going to clear it up, but 
I believe, sir----
    Mr. Mollohan. Do you understand my question?
    Mr. Armitage. Yes, I do.
    Mr. Mollohan. Okay.
    Mr. Armitage. I believe it is budget driven in that we have 
not been funded above attrition for nine or ten years, but I 
defer to my brains back here. There has been a slow seepage for 
about nine or ten years.
    Mr. Mollohan. Okay. You have not been funded above 
attrition. Well, if you were funded at attrition, you should 
have maintained a steady----
    Mr. Green. In the last two years, we recruited to 
attrition. This is the first year that we hope to recruit above 
attrition.
    Mr. Mollohan. Okay. All right. Well, that was just my way 
of understanding this, trying to understand it. I am not sure I 
clearly do, but----
    Mr. Armitage. I am not sure I do now either.
    Mr. Mollohan. How are you addressing this? I mean, you 
talked about incentives. What incentives would you add to this 
mix or are you--if this is an incentive problem, does this 
budget address that issue?
    Mr. Green. It is not an incentive in the same way that we 
incentivise our IT people, with bonuses, no. But what the 
incentive does is to simplify and shorten the recruiting 
process which now acts as a disincentive for people to join, 
and also, opens up these additional portals that I mentioned to 
bring in people who already have some skills. Particularly 
important is bringing in people at the mid-level, where our 
greatest shortage is.
    Mr. Mollohan. Okay. I never thought of that as incentive, I 
guess, shortening the admission period and making that simpler 
would be an incentive.
    Mr. Green. Absolutely.
    Mr. Mollohan. At least it would take away the hassle of 
getting in. What about once I am employed incentives? Are you 
addressing that? Is that an issue? I ask, because the State 
Department, you get out, you have lifetime health insurance. Do 
you not? And you have retirement.
    Mr. Armitage. If you retire with time. I mean, some people 
get out early. If they take private sector jobs and they do 
not----
    Mr. Green. Well, we are doing some things to try to improve 
the quality of life of our employees, not the least of which, 
is providing better facilities, better buildings, increasing 
the money that we are spending to improve the workplace. We are 
also----
    Mr. Mollohan. Is that the diplomatic readiness request?
    Mr. Green. Well, yes.
    Mr. Mollohan. Student loan, spousal employment.
    Mr. Green. Spousal employment. We have almost completed a 
spousal employment test in Mexico. It is terribly important to 
members of the Foreign Service who are overseas, that they lose 
as little income as possible. That test program that we have 
run in Mexico was, I think, the first decision that Secretary 
Powell made upon being confirmed. We have lined up a number of 
other embassies to do the same thing. What we do is match 
capabilities, desires, and resumes of spouses against 
employment opportunities in those cities or countries. He also 
approved--it sounds like a small thing, but it is not--a 
childcare center at the Foreign Service Institute. They did not 
have a childcare facility out there.
    Mr. Mollohan. Well, when I first started my questioning, I 
looked at those numbers and I thought, boy, they seem large. 
You are really saying that you are under, your FTE's are under, 
by 700. That is why I wanted to know what base you were 
operating off of, and I want to learn more about that, but just 
for rough justice here, I guess that is the 8,900 number, more 
or less. Well, it is close to 10 percent, and that seems like a 
big number, and how are you addressing that? And you say you 
want more money.
    Mr. Green. For recruiting, for people, for advertising, 
absolutely.
    Mr. Mollohan. So there are numbers throughout this budget 
which address this issue?
    Mr. Green. Yes, sir.
    Mr. Mollohan. Do you have all that discussed in one place? 
You are talking about different kinds of incentives. I would 
like to see that, if I could see your analysis of new 
employment, quality of life, what our strategy is.
    Mr. Green. We will get those for you.
    Mr. Mollohan. And was that in your budget justification? I 
must say, I haven't read every page of it.
    Mr. Green. It is not in one nice, neat package, but we can 
certainly pull it together so that it makes sense.
    Mr. Mollohan. I am sure you will pull it together; you all 
are terribly organized. You have a specialty with chiefs of 
staff working for you, I know, and I am sure you can pull all 
that together, and I would like to see that, how you are 
addressing that, and what areas in the budget are impacted with 
those strategies.
    Mr. Green. Yes, sir. We can do that.
    Mr. Mollohan. I would like to see that, not only for the 
record, but I would like to review it if you can get it to me.
    Mr. Wolf. Ms. Roybal-Allard?

                    OFFICE OF DEFENSE TRADE CONTROLS

    Ms. Roybal-Allard. Thank you, Mr. Chairman. I would like to 
shift my question to the Office of Defense Trade Controls, 
please, and what is happening there. The California Space and 
Technology Alliance reports that the U.S. share of the world 
market for satellite manufacturing has dropped during the past, 
from 75 percent to 41 percent, with the resulting loss of 
1,000highly skilled U.S. jobs and over $1 billion in revenue. Although 
I am sure there are various reasons for this decline, many in the 
industry attribute this decline and job loss to long delays at the 
Office of Defense Trade Controls. Could you explain this decline and 
what role the Office is playing in it, if any?
    Mr. Armitage. Yes. I was in the private sector and I was 
either a victim or a beneficiary of this very office and this 
very process. I would say chronic understaffing in the 
Political Military Affairs Office of Defense Trade Controls is 
a problem. They do look at about 45,000 cases a year. I believe 
that is the number. They have 58 field positions for the year 
2001, which seems to me a little low. They are trying to fill 
70 positions, which will relieve the problem somewhat. Having 
said that, there was a GAO report that looked at this recently 
and concluded that the Defense Trade Control office was 
handling about four times the amount of business that Commerce 
does with much less staff and got about the same marks. They 
were not great marks, but they were not failing marks either. 
It is just something we have to work hard on. We have not 
automated the office enough. We have not been user-friendly 
enough, which I think is one of our big problems. It is not 
just a matter of the technical answers on the license request, 
it is how that information is portrayed, and how helpful we 
are. Rather than just giving a vendor a no, if you pointed out 
what was wrong with the request and how one could fix it, then 
you wouldn't have the delays that add to lost business and lost 
opportunity. Now, we have a new Director of Political Military 
Affairs in the Senate process by the name of Lake Bloomfield. 
He is all over this. I don't know that he is going to fix it, 
but he sure is alert to it. It was a big subject of this 
hearing.
    Ms. Roybal-Allard. Okay. Because in some cases, I think 
companies would be happy if they could even get, part of the 
problem is they can't get any answer at all.
    Mr. Armitage. We used to say the second best answer after 
yes is no for my company. We couldn't get it.
    Ms. Roybal-Allard. And here is just an example so the 
Committee understands, really, the seriousness of this problem. 
There is a small company in my district, Schultz Steel, which 
is located in southeast Los Angeles County. And they have been 
in the business for 50 years, they employ about 290 people, and 
they supply the large aluminum stainless steel ring forgings to 
customers, including Boeing. There is only one other company in 
the country that does this, and to the best of our knowledge, 
there is only one company in Europe that does this kind of 
work. And they were discovered by a company in Europe that 
later became a part of the European Aerospace and Defense 
System, and they placed an order with them. So Shultz starts to 
go through the process. This was back in December. It was six 
months later before they got an answer, which was an 
unfavorable verdict on their commodity jurisdiction request. In 
terms of their licensing, they came within one day of losing a 
major contract because they couldn't get an answer from the 
office. And they were hoping that the contract would result in 
adding two or more customers in the market, but what is 
happening, instead, any future business is not being realized 
because European countries, other countries are saying, hey, it 
is just not worth it. We don't want to have to deal with all 
these delays. We can't afford it. So I am pleased that you said 
that you are aware of this problem and you are trying to work 
on it. But even my office, in trying to get an answer, had 
trouble. Our understanding was they had a phone line available 
only on Tuesdays and Thursdays, and it was just general 
information that, yes, you are in the pipeline and we are 
working on it, basically.
    Mr. Armitage. You consider yourself very lucky to get a 
person to answer the phone.
    Ms. Roybal-Allard. Exactly.
    Mr. Armitage. Unfortunately.
    Ms. Roybal-Allard. So if you would tell me what specific 
ideas might we put forward in order to help small companies in 
this area and do you have the resources, are they reflected in 
your budget, to address this problem?
    Mr. Armitage. The idea is--I don't know that they are 
particularly brilliant, but we want to increase the amount of 
electronic licensing requests. We have to--you hit on the 
telephone answering service, which is just awful. We have to do 
better on the internet page, which does not give enough 
information to really fill out a license. It is why, frankly, 
people hired companies like mine to help guide them through the 
process. I think the most important element of this is probably 
raising the grade slightly of the people who are involved in 
the customer relations end of it, the ones who actually talk to 
people, and to impress on them the need to be user-friendly. 
Now, I do not want to leave you with the impression that we 
have not done anything. Some rather large, representative 
industries have come in. The CEO of one came in the other day, 
and I met with him along with the other staff. The complaints 
were just down the line, the company that is in your district. 
It sounds no different. You can substitute Boeing.
    Ms. Roybal-Allard. That was just one example.
    Mr. Armitage. I know, but I mean, Boeing and Lockheed-
Martin were both in there, among others. Just as I told you, we 
have to staff up. Mr. Bloomfield is predicating on getting 
people to actually be helpful, which is what you really need. 
You have to have some way to follow the licenses so you don't 
come within a day, or two days, or a week, because very often 
you need to correct something in the submission. If you get the 
answer the day before, you cannot do it. I know. I have been 
there. It is not a satisfactory answer. We are aware of the 
problem. We are trying to fix it and trying to add another 12 
people to the office, but I think the real answer is to improve 
the electronic submission of licenses, et cetera. That will 
dramatically cut business away from my former business, but I 
think it will make the license request a lot easier.
    Ms. Roybal-Allard. Now, is this reflected in your budget 
request, to address this issue?
    Mr. Armitage. Yes.
    Ms. Roybal-Allard. Okay.
    Mr. Green. Let me just add that both Rich and I have been 
on the receiving end, just like your company has. I could not 
even get anyone to answer the phone.
    Ms. Roybal-Allard. This is a very, very serious problem in 
terms of whether the office is going to be too busy. So I am 
glad that you are aware of it and will be working on it. And 
just for the record, could you provide information as to what 
the processed time is now, that maybe, hopefully, next year, 
you can come in and show us how much progress you have made.
    Mr. Armitage. That is a good idea. To be fair, I think wedo 
have to acknowledge the work in that area. When they catch something 
going wrong, it is, generally, a pretty noteworthy case. There are huge 
criminal fines and sometimes penalties for these things. There are high 
stakes if they get it wrong. I think that is one of the reasons they 
err on the side of caution and take turtle-like steps forward.
    Mr. Roybal-Allard. Another issue that was brought to my 
attention by an attorney who represented Shultz but also 
represented another company that was rated by Customs as a 
product that Commerce had classified as telecommunications 
equipment, and State contended that it was a Defense article. 
And the company was never warned and had relied on the Commerce 
classification. How does the Department resolve conflicts 
between Commerce and the Defense Department?
    Mr. Armitage. I do not know the answer to that question, 
and that is one that needs to be looked at. If you would be 
kind enough to provide it to us, we will give you a specific 
answer on it. And that would be helpful for us, too.
    Ms. Roybal-Allard. Okay. I have other questions along that 
line. What I will do is I will submit them for the record, in 
the interest of time.
    Mr. Armitage. I think it is important for us to learn that 
one. I do not know the answer to that.
    Ms. Roybal-Allard. All right. Maybe that is an area then 
that we really need to look into and resolve. So I don't now 
how wide-ranging a problem it is, but it is a problem that 
exists and needs to be dealt with.
    Mr. Armitage. Thank you.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.

                           EMPLOYEE RETENTION

    Mr. Wolf. Have you polled your people to find out why they 
are leaving? Are there exit questions that are asked if 
somebody says I am out of here? Have you polled them?
    Mr. Green. Sir, I cannot answer that question. I assume 
there is some data, but I cannot put my finger on it.
    Mr. Wolf. You might want to do that. I think it would be 
helpful. Are you asking those who are there why they are 
staying? Are you asking what is the most important thing, the 
ability for the spouse to work and things like that, have you 
done a questionnaire or asked them why?
    Mr. Armitage. I will find out, but I am sure the Director 
General of the Foreign Service and the Bureau of Human 
Resources has done that. I am positive. I have only to provide 
it for you. I have not seen it.
    Mr. Green. We get a lot of comments from the field about 
things we are doing wonderfully, or things we are not doing 
wonderfully, and we use those to change, or to at least discuss 
the changing of various policies: paperless travel, for 
example, to simplify their life administratively; spousal 
employment is another one. We have a to-do list of things that 
have come from the field that we are picking off one by one. As 
I said, we are trying to make life a little bit more pleasant.
    Mr. Wolf. There is a preference within the embassy for 
spouse openings. Does that carry out into other agencies also? 
We were in Rwanda in January, for instance, and almost 
everyone's spouse seemed to be working in the embassy, which I 
thought was good. Is there a preference for the spouse or does 
that go beyond the embassy insofar as another American agency 
if the U.S. Military is there?
    Mr. Armitage. Certainly, in the Intelligence Service, that 
is very often the case, for obvious reasons. And I would 
suspect it of the others, but I do not know. I know with the 
Intelligence Agency it is.
    Mr. Wolf. Because I would think that would be one of the 
biggest problems, obviously. You have got somebody trained with 
a certain profession, and their children are grown, and----
    Mr. Green. Sure.
    Mr. Wolf. How often are the tests given? You are exactly 
right. I know someone very well who passed the test and the 
delay was so long that----
    Mr. Green. The written test was once a year. We are now 
giving it twice a year.
    Mr. Wolf. Twice a year. Is that even enough?
    Mr. Green. Well, I keep talking about moving it online so 
that a person could actually take it at anytime.
    Mr. Wolf. I think that would be helpful because there are 
people that get out of the military at a certain date, that 
might change at a certain date, and they are ready, whereas, if 
they have to wait six or seven months, and they have a family, 
they are not going to do it. I think that would be helpful to 
have it online or at least once a month.
    Mr. Green. We are trying to change the culture.
    Mr. Wolf. Well, can you just do that? I mean, do we have to 
do anything here? I mean, can we just----
    Mr. Green. No, sir. We will work through that.
    Mr. Armitage. It is interesting. When Secretary Powell 
first arrived, he asked the assembled wisdom of the Department 
in a staff meeting what happens if a missionary finishes his 
work in two years, wherever, Rwanda, and he wants to be a 
Foreign Service officer? He is in Africa. Why can we not just 
bring him on in? Everyone sat there. I think the answer is 
because we had not thought about that.
    Mr. Wolf. Can you take the test abroad?
    Mr. Green. Yes.
    Mr. Armitage. Yes.

                          EMBASSY CONSTRUCTION

    Mr. Wolf. We have three votes. We are going to go for a 
while, and then vote, and then come back. And hopefully, we 
will not keep you too much, but regarding the proposed new 
embassies, we had mentioned to the Secretary our surprise that 
the proposed embassy in Abidjan, Ivory Coast for $136 million 
is being designed to house almost twice as many staff as the 
new embassy proposed for Abuja, Nigeria, $72 million, and will 
cost, roughly, twice as much. While we probably have many 
reasons for a strong presence in the Ivory Coast, we would have 
guessed that the presence in Nigeria, the regional superpower, 
would be important. What is your planning and decision process 
for determining the correct justified presence at a given post? 
And is not the time when a new building is being planned to be 
the perfect opportunity to take a hard look at right-sizing, 
and right-sizing with regards to the staff?
    Mr. Green. That is precisely what Chuck Williams is doing 
now with new embassies.
    Mr. Wolf. So this may very well change with regard to these 
two embassies?
    Mr. Green. That one may not. I saw an answer either on its 
way or is up here in response to that question. Of course, we 
have an embassy and a consulate in Nigeria. They moved the 
capital from Lagos to Abuja. One isthe economic center, one is 
the political center, so you have various functions divided between 
those two. The Ivory Coast happens to be the regional center for west 
Africa, and that is what causes it to be larger. One of the Marine 
security companies is headquartered there. There are, I think, nine 
other agencies that have regional headquarters in that particular 
embassy, which tends to drive the numbers up.
    Mr. Wolf. What is the definition of who gets the Marines?
    Mr. Green. Do you mean where do the regional----
    Mr. Wolf. No. Where the Marines are at an embassy versus 
not having Marines. Some of your embassies have Marines, some 
do not. What is the definition or the requirement?
    Mr. Green. It is classified information.
    Mr. Wolf. Okay. Why do you not just forget that.
    Mr. Green. Okay. But this one happens to be one of the 
headquarters' companies.
    Mr. Wolf. Well, I was more concerned our being at----
    Mr. Green. Why we have them or why we do not?
    Mr. Wolf. So it is not two sides?
    Mr. Green. No, sir.
    Mr. Wolf. We were surprised to find out that the Department 
has recently waived the security standards for specific 
building projects in Luanda, Angola. Why would we want to use 
any of the embassy security funding to build facilities that 
fall short of the security standards, since security has been 
such a big emphasis of this Committee under Mr. Rogers and Mr. 
Serrano, but also, previous secretaries, and this Secretary?
    Mr. Green. There are some occasions when the Secretary will 
waive certain security standards, such as setback, which is 
normally 100 feet. We will probably run into that--well, we 
will run into that problem in Berlin, and we will have to have 
a security waiver. We try to compensate in the case of setback, 
where we cannot buy additional real estate, by modification of 
the outside walls and other options that we would negotiate 
with the host government, such as closing roads.
    Mr. Wolf. Well, if that is the case, we can elaborate. But 
the purpose of the embassy security capital construction 
appropriations is to build fully secure facilities at posts 
where current facilities are most vulnerable, and that has been 
the litany of this administration, the previous administration, 
and yet, you proposed to allocate these funds this year to 
projects that really do not fit this description, Bogota 
Annexes, Belgrade Annex, the new post of Dili in East Timor. 
Should not the priority for use of funds in this account be for 
those projects that replace an existing vulnerable facility 
with a secure one since there has been, you know, the Crowe 
report, and all these reports?
    Mr. Green. Yes, sir.
    Mr. Wolf. Okay. Think about it. I mean, maybe there is 
something going on there that I do not know about. I think yes 
is the right answer, but why do you not think a little bit 
about it, maybe let the Committee know.
    Mr. Green. We are also going through a process right now 
with General Williams to reprioritize some of those embassies 
scheduled for major refurbishment and new construction that 
have been requested in previous years. We are reviewing that 
whole process.
    Mr. Wolf. I have another question. How much time is left? 
Nine minutes. There are several highly vulnerable posts where 
the Department has already acquired a site, the construction 
funds have been pushed out to fiscal year 2002 or beyond. I am 
not going to get into them for certain reasons, but why are 
these projects less of a priority than building annexes on 
already secure compounds or projects that do not even result in 
a secure facility? I mean, some of these countries, I am not 
going to mention, but I know they are not very great places to 
be. Do you want to think about that one, too?
    Mr. Green. Yes, sir.

                       SECRETARY'S TRIP TO AFRICA

    Mr. Wolf. That kind of fits in with the last one about 
priority. I will ask maybe one more and then we will go vote 
and we will come back and recognize Mr. Serrano and then Mr. 
Rogers. The Secretary is going to Africa. Do you feel 
comfortable telling us what----
    Mr. Armitage. Mali, South Africa, Nigeria, and one other.
    Mr. Green. Is he going to the Congo?
    Mr. Armitage. I do not think so.
    Mr. Wolf. Hopefully, when the Secretary, Mr. Kannsteiner 
comes on, he will take a good--are you taking him with you?
    Mr. Armitage. If he is confirmed. He has a hearing on the 
17th, but it looks like the Senate will not vote until the 
24th.
    Mr. Wolf. That is too bad. That would have been good for 
him to be there. I heard on the news today that the President 
is having a conference of African leaders in October. That is a 
good idea. What is the subject--AIDS?
    Mr. Armitage. Economic development, AIDS, and all of the 
huge infrastructure items. The President started his AIDS 
initiative the other day with President Obasanjo of Nigeria in 
the Rose Garden, and with Kofi Annan, but it is, primarily, 
economic development. Invariably, it has to go to HIV-AIDS.
    Mr. Wolf. Unless the war is ended and the slavery is 
stopped, I would hope we do not have the President of Sudan at 
the conference.
    Mr. Armitage. I would doubt that Mr. Bashir would be there 
if it is still a war situation, sir.
    Mr. Wolf. Okay. With that, why do we not just recess. We 
will go vote and we are probably going to have about 20 to 25 
minutes.
    [Recess.]
    Mr. Wolf. There is going to be one vote and then 10 minutes 
of debate, and then two votes. I think we will come back and 
maybe we can kind of--so that way, we will not waste your time. 
Did one of you--how much time is left? Six minutes. Do you want 
to begin now and we can leave here with one minute left, and 
then kind of come back, and that way we will not hold them up. 
And then when we come back after that, you can begin. Why do 
you not begin?

                       FOREIGN LANGUAGE TRAINING

    Mr. Serrano. Let me go back and ask you a couple of 
language-related items. And I do not mean language in the bill, 
but to use those foreign languages. We were talking to the FBI 
this morning, if you will pardon the expression, and they told 
us that there are materials that have been translated because 
there are languages that are not commonly used in the agencies. 
So with that in mind, when an emergency situation arises, and 
even when dealing with day-to-day communications, does the 
State Department have on staff personnel with the language 
skills to translate and understand the less commonly studied 
languages, such asArabic or Albanian? I know that the FBI often 
uses contract language services, but it is difficult to find 
interpreters and translators with security clearances in a timely way. 
How do you handle this situation? And I will just add a couple of more 
questions on the same subject. When you recruit, do you make specific 
efforts to hire personnel with these specific types of language skills? 
And does this Foreign Service exam prevent you from giving special 
consideration to these types of employees? And does the Foreign Service 
Institute provide training in the less commonly used languages? Do you 
require foreign service officers also to study, for example, Arabic, 
before being sent to our embassy in Egypt? And lastly, is there a 
deficiency in the number of foreign language trained officers?
    Mr. Green. Yes, no, yes, yes, no.
    Mr. Serrano. If you are looking for someone who speaks 
Spanish, I am available.
    Mr. Green. Okay.
    Mr. Armitage. You have a day job, sir.
    Mr. Green. Let me try to answer that. To take the Foreign 
Service exam, you do not have to have a language. Yes, we train 
62 languages at the Foreign Service Institute, including some 
that I cannot even pronounce the name of the language, let 
alone speak it. We do have interpreters on our staff. Now, I do 
not know in how many different languages we have interpreters 
on staff where interpreting is their primary function, but we 
provide, for example, interpreters to the White House when the 
President travels. Here is where they get their interpreter, 
should they need one. Those people, obviously, have clearances. 
I cannot answer the question that if we were in an emergency 
and had to use language instructors at the Foreign Service 
Institute, whether or not they have clearances. I would doubt 
it, because most of them are foreign nationals, so they, 
typically, would not have a clearance. If the interpreting did 
not require a security clearance, there might be some assets 
there that could be made available. It would depend on----
    Mr. Serrano. Now, when it comes to publications overseas 
and so on, and somebody is writing something about us that we 
should know, do we have the ability to deal with that right 
away?
    Mr. Green. Oh, yes, absolutely.
    Mr. Serrano. Now, in general, is this a problem? Well, I 
asked four questions, and it is all related to problems.
    Mr. Green. In just looking through the personnel files that 
we have on our foreign service officers, and frankly, having 
not been subjected to the State Department before, I was quite 
surprised. It is not unusual at all for the officers to speak 
three and four, and even five, languages. We do have a problem, 
as I mentioned earlier, which is general training. That is 
having the luxury of putting people in language training for 
the hard languages, such as Chinese, Korean, Arabic, and 
Japanese, which are two-year courses at the Institute. You can 
see how it is very difficult to free up people to take the full 
course. Some do, and some do not. We have sent people to posts 
where they should have the language, and if they do not have 
the language, they will get a cursory course, as will most of 
our Chiefs of Mission. If they do not speak a language, we will 
put them through a quick course to give them enough so that 
they can say, ``hello'', and ``thank you'', and ``good-bye'', 
and those sorts of things.
    Mr. Serrano. Now, once upon a time, when I first started 
reading about some of these things many years ago, I remember 
that one of the complaints, certainly, south of the Texas 
border, was the number of Americans who were stationed, if you 
will, in these Foreign Service situations, who did not speak 
Spanish. And that was always seen, at least in the publications 
I read from Latin America, that was always seen as some sort of 
ugly American arrogance, that you know, we can come here, and 
we are more powerful than you, and therefore, you speak 
English. Is that still a problem in that sense?
    Mr. Armitage. I was just in India two or three days ago, 
and I must say, I was astonished at how many Hindi speakers we 
had at the embassy. Not just street Hindi, but able to correct 
some of the text in the conversation. My feeling is that we 
have gotten a leg up on it.
    Mr. Wolf. We are down to no time, but we will be back in 
about two minutes.
    [Recess.]
    Mr. Wolf. I recognize Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Wolf. Pardon me. That was a great thought just out 
there. Mr. Serrano, pardon me.
    Mr. Serrano. And you were in the middle of an answer.
    Mr. Armitage. I was saying how well they had done. They all 
had the two-year Indian course, things of that nature. I know 
exactly the problem you mentioned; in the southern hemisphere, 
it was even worse. One time in Brazil, I was told we sent a guy 
who spoke Spanish only to get along, so we were accused of 
arrogance in the southern hemisphere for a long time, for a lot 
of reasons in addition to the language. I think we are better 
now. The romance languages are very strong now. That is my 
impression of the Department. The harder languages that Grant 
was talking about is Japanese and the Arabic. The two-year 
courses are, by nature, the more difficult of those being 
taught. But those folks, in a strange way, seemed to be the 
ones who stay on in the Foreign Service. They really like these 
sort of exotic places with exotic languages.
    Mr. Serrano. All right. I have more questions if we come 
back.
    Mr. Wolf. Okay. We will come back. I am impressed that you 
remembered. I was reminded what Dr. Dobson said, that just 
about when your face clears up, your mind gets fuzzy, and you 
remembered that just like that. That was very impressive. 
Overall, I am going to recognize Mr. Rogers. Our people do a 
pretty good job, though. I have been in embassies where they 
are speaking languages, and they are doing a great job. 
Overall, particularly, the career people worry sometimes about 
political appointees, who sometimes are appointed, who do not 
quite know the language as well as they could know it. But 
overall, I think we do a good job. I think we do a better job, 
frankly, than just about any other country with regard to 
languages. Most of the embassies that I go to, our people know 
the language, they speak the language, they are very, very 
fluent, can read it, can translate it, and do everything else. 
Mr. Rogers?

                         RIGHT-SIZING EMBASSIES

    Mr. Rogers. I have another obligation I have to run to very 
quickly, so I am going to ask some questions and submit the 
rest for the record, but I do want to have answers to them. 
Getting back to the Lou Kaden commission report, theOverseas 
Presence Advisory Panel that you had mentioned. In 1999, they proposed 
a great number of State Department reforms following on the heels of 
other reports such as the Carlucci report, and Admiral Crowe's report 
on embassy security. Most all of them consisted with each other, but 
the Lou Kaden commission report of '99 seemed to encapsulate it as good 
as anything did. We talked briefly about that, privately, and I know 
you are committed to it. Some of the recommendations, however, are more 
important than others. Right sizing, for example. You may have talked 
about that before I came.
    Mr. Armitage. Following on our discussion yesterday when we 
were talking about OMB.
    Mr. Rogers. The only way that is going to happen is when we 
get OMB involved, because anymore at these embassies, your 
State Department is maybe 30-40 percent, internationally, of 
the personnel at a typical post. You have Agricultural 
personnel, Customs Department, Treasury Department, FBI, DEA, 
and many other agencies who were not sent there by the State 
Department, or even requested by the ambassador. Yet, there 
they are. The State Department has to host them, protect them, 
provide room for them, and arrange conferences, and so on, and 
so forth.
    It has gotten to the point to where I think there is a 
legitimate question about whether or not the ambassador in that 
country is really in charge of the American presence there, 
because when you do not pay their salary, if it is being paid 
by the Secretary of Agriculture back over here, that is the 
person you sort of report to. Nevertheless, many of our 
embassies have too many personnel. Maybe some have too few. 
Kaden and all the others said that we must find a way to right 
size the American lead in that country with the right kind of 
personnel.
    The State Department cannot tell Agriculture not to send 
somebody overseas. Only the OMB can do that. Tell me about what 
you are doing to correct that.
    Mr. Armitage. We have had two rounds, internally. We are in 
the second round of information gathering. First, we are going 
out to folks to find out how many State officers we have at the 
post, how many billets have been gapped and how long they have 
been gapped. Secondly, how many billets are there of all 
agencies, how long have they been gapped, why are they vacant, 
et cetera. Armed with that information, and following up on 
current staffing numbers, our intention is to bring these to 
OMB and go about right-sizing across the board. If we find that 
there are gaps, whether it be with Agriculture or the State 
Department, for a long period of time, maybe we ought to 
consider dropping the billet. Maybe it is just not worth it. We 
have to approach the issue, I think, in that rational way.
    The second thing, which we have already discussed, Mr. 
Rogers, is that we do have ICASS to recover some costs. As we 
mentioned yesterday, security costs are not captured in ICASS, 
so Grant and others are talking about going to some sort of 
rent system. It is not something we are going to have ready in 
the 2002 submission, though. I noticed in the Kaden report, 
they talked about this being a two-year effort to try to get 
the information. I cannot speak for the past year-and-a-half 
before we got here, but in the last seven weeks, this is where 
we are.
    Mr. Rogers. Well, what is OMB's attitude?
    Mr. Armitage. Great. They are all for it. This is a way to 
make people step up and either drop their billets or pay for 
them if they are worth it, and that was from the Deputy 
Director of OMB, Sean O'Keefe, today.
    Mr. Rogers. Are they prepared to help you right size?
    Mr. Armitage. Absolutely.
    Mr. Rogers. And tell other agencies to----
    Mr. Armitage. That is why we have to have OMB support.
    Mr. Rogers. Well, pardon my skepticism. I mean, I am 
hopeful, but good luck. Now, Kaden also recommended downsizing 
some posts, including regionalization of administrative 
services or returning some of those services such as Finance, 
back to the U.S. In effect, to regionalize the operations of 
the Department in certain parts of the world. Perhaps there is 
not a need for a day-to-day embassy in some small country. We 
could have a regional post that would serve several areas. What 
do you think?
    Mr. Armitage. Well, after you mentioned this to me 
yesterday, I went back and re-looked at the Kaden report. On 
the question of bringing some of these centers back, we are 
well on our way in Charleston, South Carolina. The Finance 
Center is probably the most graphic demonstration of 
regionalization of some administrative functions, that as Grant 
has already mentioned. That is underway. I note, carefully, 
what the Kaden report said about presence, and my reading of it 
says that U.S. presence is important. Now, granted, some of it 
supported the APP concept, like they have in France. By the 
way, when we went back last night, there was a cable in from 
Moscow talking about putting an APP on Sakhalin Island.
    If you mean reducing APP's in places, I think that is 
something we endorse. But if it means not having a post at all 
in some of these countries, I think we are less inclined to 
follow that, sir.
    Mr. Green. If I may, sir, just add a question. We are very 
much focused on regionalization. Some of our efforts are in 
Europe. Frankfurt is an example. I am going to Charleston 
tomorrow. We are moving many operations into Charleston, and 
wherever we can move people back into the United States to 
reduce the footprint overseas and our vulnerability overseas 
and create jobs in this country, we are going to do it. The APP 
concept is one that we embrace. As Rich said, we have five of 
them in France. I don't know that we have opened the one in 
Canada, but we are going to have one there. We are going to 
have one in Izmir, and we are considering one for Equatorial 
Guinea. We are working that through the building. It is a 
concept that we embrace. It makes sense in a lot of places. In 
fact, when I speak to the ambassadorial seminars, one of which 
just finished and a second is in process, I have asked the 
ambassadors to be on the lookout for those kinds of 
opportunities where an APP will either represent constituent 
affairs issues, or most particularly, be useful to businesses. 
The one in Equatorial Guinea, obviously, is going to be helpful 
to the U.S. oil companies that are working in that area.
    We also should look more closely at our post in Wales. It 
is called a ``virtual presence post'', that is, a scaled down 
APP where an officer from London spends one week a month in 
that postassisting the 170 U.S. businesses that have operations 
in Wales. It is another variation of the APP, and we would have some 
that are less sophisticated than that, where we have a local national 
squirreled away in the corner of a library or a courthouse somewhere to 
help with consular issues.
    Mr. Rogers. Well, I am glad to hear this, because I am sold 
on the APP concept, after having experimented with Ambassador 
Rohatyn in France. I have visited three, I think, of those 
APP's. It is working, and it is very efficient. It is very cost 
effective, and we do not have the security headaches that a 
physical presence with a bulls eye on the door invites. So I am 
really encouraged to hear you say that. I just think it is the 
way of the future. I have not heard of the BPP's yet, but it 
sounds like a good way to go as well to fit the American 
presence with the need in that----
    Mr. Armitage. With a level of interest.
    Mr. Green. And I am sure it would be very easy to upgrade 
that to an APP if we, had the occasion----
    Mr. Rogers. Well, I am glad to hear about the APP's, and I 
think the more we can encourage that, the better off we are. I 
know the Subcommittee stands willing and ready to consider the 
request for reprogramming for those purposes as the year goes 
along.
    Thank you, gentlemen, for your testimony. I will have some 
questions to submit for the record, Mr. Chairman.
    Mr. Wolf. Without objection. Mr. Mollohan?

              RECRUITMENT AND CULTURE OF STATE DEPARTMENT

    Mr. Mollohan. Gentlemen, if I had a job to do, or had a 
particular government position to fill in my district, or 
wanted to hire somebody, one of the first places I would look 
would be a list of retired Army colonels who were from West 
Virginia to do it because, for obvious reasons, they do a great 
job, and they are at that point in their career that they would 
come on board with a lot of commitment capability and 
expertise. I am wondering--you mentioned as one of the sources 
for filling this employment shortfall at the State Department 
being a military--I think you said officers of different 
levels. And you know, first off, that is a good idea, and 
probably, to a certain extent, it is a good idea at any point. 
But I am wondering how far you take that without damaging the 
culture of the State Department.
    Mr. Green. Well, let me address that. What we are looking 
at, and I will use the retired officer/retired admin warrant 
officer as the vehicle, if I may. We do not want to change the 
culture to the degree that we do not offer opportunities for 
Foreign Service officers in the admin cone to become DCM's or 
even Chiefs of Mission. What we are looking at is--let us take 
the number 100. We are 100 short of admin officers. What we 
might choose to do is to have 70 of those come in under the 
normal process, that is, take the foreign service exam, the 
oral exam, and so forth. We may have another 30, which we 
recruit through one of these other methods, for candidates that 
we know do not want to be anything other than admin officers. 
They may be in a second or a third career, for that matter, and 
admin is what they are happy doing. This, also, would reserve 
for us the promotion opportunities within the Foreign Service 
for those admin officers who aspire to be Chiefs of Mission, or 
DCM's, other----
    Mr. Armitage. To some extent, Congressman, demographics 
make this a necessity. As we are getting older, this is what is 
happening. In the military, for instance, they are actually 
thinking now about bringing retired people back on active duty 
for certain duties that do not require them to run and take a 
hill, or jump out of a helicopter. It is the same thing in our 
business.
    Mr. Mollohan. Yes. You are talking about doing it at the 
margins, and it is not a character change in----
    Mr. Armitage. No, not changing the culture. We respect the 
culture.
    Mr. Green. Our number is not so great that we cannot be 
flexible in some of these recruiting tools that we are going to 
use.

                      INFORMATION TECHNOLOGY PLAN

    Mr. Mollohan. I do not know whether it has been ten years 
ago, or some time ago, Mr. Chairman, that the existence of Wang 
computers, that you could not replace and you could not fix 
were used as the excuse for the State Department's IT problems. 
I heard it mentioned here today, and I cannot remember exactly 
what----
    Mr. Green. Those were all replaced.
    Mr. Mollohan. Oh, they are gone.
    Mr. Green. They are gone.
    Mr. Mollohan. Okay. So that is not your problem, your IT 
problems today. Well, you have an information technology 
strategic plan 2001, 2005. That has got to replace the 
Information Technology plan for 1998 to 2000.
    Mr. Green. I wish I had brought a copy to give you, yes.
    Mr. Mollohan. Yes, because every single year, we have a 
five-year plan come here, and every single year, it is a mess. 
You lay out five goals here, secure global network and 
infrastructure through sustaining training productive 
workforce. Where are we in this? Are we starting from ground 
zero or----
    Mr. Green. Certainly, not. No.
    Mr. Mollohan. Which ones of these goals have been attained?
    Mr. Green. I do not have it in front of me, but----
    Mr. Mollohan. Well, we will do that for the record, and 
maybe we will look more closely at it. But that is an area that 
every year you seem not to get it right in this Subcommittee. I 
know you do have special problems.
    ICAS, where are you with that? And I know Chairman Rogers 
talked about it a little bit. Is that working, is it not 
working?
    Mr. Green. Yes, it is working. It could work better, but it 
is a voluntary system, with the exception of a couple base 
services that everybody has to participate in. Departments or 
agencies can opt out of certain support services, which, you 
know, can affect the cost. The more----
    Mr. Mollohan. And still be in residence?
    Mr. Green. Yes. If for example, you are the Agriculture 
representative and you want to use a different travel agent 
than the one that is provided through ICASS, you could do that. 
The more dilution that we have, obviously, affects costs 
downstream. It basically works for those admin functions that 
are traditionally provided by the embassy.
    Mr. Mollohan. Thank you, Mr. Chairman.

                           RELIGIOUS FREEDOM

    Mr. Wolf. Yesterday, at the Senate Foreign Operations 
Appropriations Committee, the Secretary said--and the quote 
was, ``Once we get this incident with the airplane completely 
behind us, you will see us engage with China.'' I really do not 
have a question unless you want to define what engage with 
China means. But I think as we do this, and so far the comments 
from the Administration have been very positive fromthe 
President and Secretary. But every time we view this issue, we have got 
to remember, there are now 14 Catholic bishops--there were only 12. 
There are now 14, 2 were arrested on Good Friday, that are in prison 
only because of their faith. They have never spoken out against the 
Chinese government. There are several hundred Protestant house church 
pastors that are in jail today in China. Many arrested, sometimes we 
never know they are arrested and released, but we know of 150 to 200. 
The Muslims are being pounded; they are being absolutely pounded in 
China, and very few people know there are Muslims in China. Very few 
people speak out for them. I am not sure the Administration has said 
anything about----
    Mr. Armitage. We talked about this issue quite a bit.
    Mr. Wolf. Tibet, there are about 150 to 200 Tibetan monks 
and nuns in prison. No one from the previous Administration got 
to go to Tibet. I think they may have asked, but they did not 
get the right to go. There are more slave labor camps, and you 
might want to check this out, in China today than there were 
when Solzheitsyn wrote the book, ``Gulag Archipelago''. For 
$50,000, you can get a new kidney. They go into the prison, 
they take your blood test, they take the prisoner's blood type, 
and then they kill someone who has the same type.
    I know you were around during the Reagan Administration, 
and I am not sure, Mr. Green--I think you were in the military. 
You know, Ronald Reagan never granted MFN. This is not an MFN 
issue. Ronald Reagan articulated our values, as did Jimmy 
Carter, with regard to human rights and religious freedom. And 
so as we talk about engaging, engaging is good but do it as 
Reagan engaged the Soviet Union, with his eyes open and with 
our eyes open.
    So I worry a little bit about this. I am a free trader. But 
on the other hand, more trade would have not changed Nazi 
Germany. In fact, as Winston Churchill was more concerned with 
regard to Nazi Germany than he was with the Soviet Union, 
because he knew it was a capitalist system that worked more 
efficiently and he was more concerned about it. When the German 
army was crossing the Czechoslovakian border, the British were 
still talking about trading with them, and I do not know how 
many millions of people died in World War II.
    So as we look at that engaging, just think in terms of the 
Catholic bishops, think in terms of the scholars that have 
recently been arrested, one from my congressional district who 
lives out in the McLean area, and think about all these people. 
The Catholic bishops do not have a political action committee, 
while some of the business interests do. So I think this is 
important for this Administration to articulate our values, as 
you have done very well. I am not being critical, but that is 
what has made America the country that we are. People around 
the world, whether it be in China or whether it be in Tibet, 
know that those values are the values of the United States.
    Mr. Armitage. On the question of religion, may I respond?
    Mr. Wolf. Sure.
    Mr. Armitage. When the President gave his speech, I had 
heard it already on Sudan. We had a briefing a couple of weeks 
ago. It was good. He also mentioned the leaders of freedom in 
China. He would tell you if he were sitting here today, that 
his biggest difference with the Republic of China would be on 
the question of religious freedom. That is what he would say. 
Now, I say that so boldly because I have no fear of 
contradiction, because I have heard him. I do not think you 
will find him wanting on that or other issues. As I understand 
it, engaging China is of clear and direct benefit to us. We are 
going to engage. We are also going to engage, clearly and 
transparently, when we do not like things. They have the same 
right to reciprocate.
    Mr. Wolf. Sure.
    Mr. Armitage. That is what the President said in my 
hearing. What I am saying is that you are pushing on an open 
door.
    Mr. Wolf. Well, they want the Olympics in 2008. We have got 
to go back and make sure history does not repeat itself, where 
the Olympics went to Nazi Germany in the year 1936. And you 
know, they will cleanup the streets of Beijing, they will 
arrest all the fallen. They will get all the house church 
pastors, they will get the underground church. They will just 
go into Lhasa and pull them out of the marketplace and throw 
them in jail. This leads me to the second question. The 
international religious freedom bill that passed the Congress, 
all of the commissioners terms have expired. There are no 
commissioners now, except for one. The Speaker yesterday 
appointed Nina Shea on Monday. So Nina Shea is the only member. 
We would hope that the Administration and the Secretary would 
appoint good people. They have got to be people that care about 
this with a passion, who really care, who are not just, you 
know, token, that they are going to be on there and show up at 
a meeting. The members who were on the commission were very 
good. I know a number are not going to serve. Abrams is not 
going to serve, Cardinal McCarrick obviously, with his new 
duties cannot serve. But we really need you to appoint good 
people who are bold and will speak out.
    Mr. Armitage. The Secretary has asked for just that list, 
and it is the same procedure that we followed when we picked 
the delegates for the Human Rights Commission in Geneva. We 
have some pretty strong, opinionated, upright, and upstanding 
citizens, and that is exactly what the Secretary is looking for 
in this regard, Mr. Chairman.
    Mr. Wolf. Once you get your team on board, you might want 
to ask the Chinese if you can send somebody to Tibet.
    Mr. Armitage. I will see the Dalai Lama next week, as you 
know, and I have got it.
    Mr. Wolf. The legislation also urged and required 
ambassadors to speak out. Some ambassadors are very bold and 
speak out for human rights. If you recall, Reagan went to the 
Danilov Monastery in Moscow and spoke out. Every time Secretary 
Shultz and Baker would go to Moscow, they would meet 
withdissidents. The current ambassador that we have in Egypt, a good 
person, never speaks out. The Coptic Christians are being persecuted in 
Egypt. The philosophy may be, let us do this quietly. The Egyptians are 
our friends. We have given them $43 billion since the Camp David peace 
accord. Friends can be candid with friends. You and I can be very 
candid. We may not agree, but we are not going to get mad at each other 
because we are friends. But we have to speak out boldly. It is like, 
politically, if somebody says, Wolf, I am really for you, but I just do 
not want to be publicly----
    Mr. Armitage. Do not want to be seen with you.
    Mr. Wolf. I think we should be bold and our ambassador 
should speak up, and this should be part of the training that 
goes on at the Institute there in----
    Mr. Armitage. Sir, it also comes from the top. If 
ambassadors see their leadership speaking out forthrightly, 
they will follow. If they do not see it, they will not.
    Mr. Wolf. And you might want to check and let us know, is 
it in the curriculum at the Institute, the Foreign Service 
Institute?
    Mr. Armitage. About religious freedom, in particular?
    Mr. Wolf. Yes--speaking out, because one of the provisions 
in there was that it would be taught. Could you see if it is 
being taught.
    Mr. Armitage. I will find out and I will notate the 
question.

                         EMBASSY PROJECT COSTS

    Mr. Wolf. A couple more, and then I will recognize Mr. 
Serrano. The average cost estimate for the embassy request for 
projects on your plate for fiscal year 2001 and 2002 is $95 
million. And a couple of projects on the horizon, Berlin and 
Beijing, will be several times that average cost. What steps 
are you taking and do you plan to take to bring down the cost 
of these projects? And would a single design ever work?
    Mr. Green. Yes. Not for a single, but for different size 
embassies, we are going to standardize everything except the 
facade and design that to look culturally attractive and 
sensible.
    Mr. Wolf. Is this new?
    Mr. Green. The new organization is putting building 
construction on a business footing. We will bring in all the 
stakeholders on day one so that we do not, after the darn thing 
is half-built, have somebody say that we have to add ten more 
people. Or somebody says they do not like the position of the 
building because their antennas do not work. Those changes and 
those change orders are the things that tend to run the price 
up. Obviously, there are costs that we are not going to be able 
to avoid because of security reasons. High real estate prices 
in certain countries where we want to be located in the middle 
of the diplomatic area is a good example. China is expensive. 
When people look at China, they have to realize that the 
billion dollar price tag that gets tossed around a lot covers a 
five to ten-year period, and it includes the main building plus 
four consulates. The cost is not just the main building and the 
main compound, but includes all the buildings in Beijing, plus 
four consulates. That single project is still an expensive 
operation. We have to use U.S. contractors. It is not cheap.
    Mr. Armitage. The bottom line is that a $100 million 
embassy does not make sense all the time. General Williams in 
the FBO is really keen on trying to use copies of scale to 
drive that price down. It would be excellent, if you had the 
time, sir, and the interest, to have General Williams up to the 
Subcommittee. Maybe not in a hearing, maybe just----
    Mr. Wolf. I met with him.
    Mr. Armitage. Well, you have seen then that he is really 
trying to get a handle on this thing. He is really something.
    Mr. Green. Well, he has a war room over at FBO. He calls it 
a war room. Once a month, they review every single project. For 
example, one project may be 20 percent through, yet we are at 
28 percent cost. Why? This review is for every single project, 
not just new construction, but also, rehabilitation. Each 
project is reviewed every month and all the stakeholders sit 
around the table for two days.
    Mr. Wolf. Well, that is good. The OPAP report advocated the 
creation of a government chartered corporation take the place 
of FBO to improve the management of U.S. Government overseas 
real estate. There is nothing in your budget. Is that still on 
the table?
    Mr. Green. We have done everything that OPAP has 
recommended with regard to the FBO except pull it out and 
create a GSA-like separate agency. It reports directly to me 
and business practices----

                       VICTIMS OF TRAFFICKING ACT

    Mr. Wolf. Well, that makes sense. The Congress passed a 
bill last year, the Victims of Trafficking Act authorizing $3 
million in fiscal year 2002 for the State Department to 
coordinate the activities of the inter-agency task force on 
trafficking. Is that funding included in the budget request and 
under what account is the funding requested?
    Mr. Armitage. It is in the INL budget for Ops.
    Mr. Wolf. $3 million?
    Mr. Armitage. I do not--Paula Dobriansky, the new Under 
Secretary for G, talked to us, the Secretary and me, a couple 
of days ago. She is setting up an office to coordinate a lot of 
INL issues, and some of the DRL projects in democracy, labor, 
and human rights. The office is going to be about 25 people in 
all, and it is going to cover trafficking from the beginning, 
to the highest level of power, to protect women and children 
from being sold into slavery and to stop trafficking 
prosecution--all of those things. She has a pretty good 
program. Primarily, the money is in the INL budget, though, 
sir. I am not sure if it is $3 million, but if that is what the 
law says, that is what it is.
    Mr. Wolf. I hope it is enough, because I saw the budget 
from the Justice Department, if my memory serves me. It was 
only like $720,000. It was not very much. You know, there are 
50,000 women a year brought to the United States, basically, 
sexual trafficked as slaves--in the United States, 50,000, and 
all over Italy, and different places. So you have got to put 
enough money in. And how well you work with regard to the 
Justice Department is very important. Will this have a high 
profile?
    Mr. Armitage. Yes, quite a high profile. We made the 
decision the other day to have the person report to Ms. 
Dobriansky as Under Secretary. However, they are tied with a 
special advisor to the Secretary, which will preclude any 
outside bureaucracy. It will operate inside the bureaucracy.
    Mr. Wolf. Now, do you know, personnel is really policy, and 
do you have a good person to run the office? There havebeen 
some names being kicked around, and do you have anybody that is going 
to run that office?
    Mr. Armitage. Yes. We have a woman who came from a human 
rights background in the State Department.
    Mr. Wolf. She is pretty good--she is in the State 
Department today?
    Mr. Armitage. She is currently assigned to a post, but she 
is in the States today, I believe. She finishes her tour in 
late August.
    Mr. Wolf. Do you feel comfortable telling us who it is?
    Mr. Armitage. I would just as soon tell you privately, 
because no one on the other staff knows, but I will be glad to 
tell you----
    Mr. Wolf. Okay. Well, no. I would like to meet with her 
when she comes back.
    Mr. Armitage. Done.
    Mr. Wolf. And I am sure Congressman Smith would, and I 
think Senator Brownback over in the Senate side would as well. 
But how long has she been with the State Department?
    Mr. Armitage. In the range of twenty years or so.
    Mr. Wolf. She is an attorney?
    Mr. Armitage. She has a very strong human rights 
background. I see here in the INL budget that there is $55 
million for programs to counter transnational crime, which 
includes trafficking of women and children.
    Mr. Wolf. How much was that?
    Mr. Armitage. $55 million total.
    Mr. Wolf. And how is that broken down?
    Mr. Armitage. Programs establishing a center to counter 
international smuggling and trafficking of persons, continuing 
support of State police contingent for deployment as part of 
international relief, and so on. I suspect that the actual 
money that you were talking about is in the $3 to $5 million 
range, but I will just have to----

               EDUCATIONAL AND CULTURAL EXCHANGE PROGRAM

    Mr. Wolf. Okay. If you could submit it for the record, so 
we will know. The last question before I will recognize Mr. 
Serrano. Your educational and cultural exchange program account 
receives large amounts of funding from other agencies to 
conduct programs for specific countries and regions. I was 
surprised to find that one result of these transfers is that 
over half the total funding for exchange programs for all 
sources is going for programs in Europe and the former Soviet 
Union. Does your funding request for fiscal year 2002 contain 
any funds to correct this distortion and increase the 
percentage of funds for exchanges for Latin America, Africa, 
and the Near East?
    Mr. Armitage. I have an unsatisfactory answer for you. A 
lot of this is seed money, which is the Eastern European 
Foreign Ops money that goes into ECA. But beyond that, you want 
Latin America and Africa, I assume.
    Mr. Wolf. Can you reallocate your base?
    Mr. Green. Well, the Defense Department is moving the 
difference with regard to Europe now and moving to Asia--I 
mean, the world is changing.
    Mr. Armitage. I am not an expert in this, but I think the 
seed and the NIS money probably will not move, but I think the 
other money, probably could be reallocated if it is, in fact, 
the case that we are not moving more to Latin America, to 
Africa, and to Asia.
    Mr. Wolf. Well, maybe you can look, because the President 
talks a lot about Latin America, and a portion is going to 
Africa, and you are in a conference in the White House with 
regard to Africa. Mr. Serrano?

                              RECRUITMENT

    Mr. Serrano. Yes, sir. Thank you, Mr. Chairman. I have a 
question that I had not planned on asking, but I thought of it 
during the last round based on what you said about what Mr. 
Mollohan was talking about. I have to be very careful not to 
step on any toes, and I mean that sincerely. You know, part of 
my concern with the State Department and part of my whole dream 
with getting this program going in the Bronx for people is my 
desire to have more and more people who are trained as 
diplomats to spread the good will of this country. Now, the 
second part is that I know that some of those talented people 
in this country are people who are in the military, and they 
are retired, and they are young and energetic, but the mission 
we have given them, traditionally, has been to take care of our 
needs perhaps seen by the world as with a show of force, of 
muscle. Now, how do you then go on and hire from this pool and 
make sure that we are not bringing into the Department people 
who may go into a confrontational mode rather than a diplomatic 
mode, and granted that everything I just said gets kicked out 
the window when we look at our Secretary of State, who has made 
a wonderful transition into being a first rate humane diplomat, 
and who comes from my neighborhood in the South Bronx?
    Mr. Green. You have to include CCNY in your program.
    Mr. Serrano. Well, we do not know that yet. We will see if 
we include CCNY. We have the purse strings here, and he has the 
policy account. But anyway, I hope I did not step on anybody's 
toes. I am not trying to do that at all, but I think it is a 
concern, if the number grows large, because on the one hand, I 
am telling you, go to the South Bronx, look at Joe Smith or 
Pedro Rivera, and see if you can recruit them. And as Chairman 
Wolf says to, you know, call on their patriotic duty to take 
less money with the AT&T down in Manhattan, and come work for 
us--now, and I am doing that with an agenda, and I admit it to 
the world, to create that kind of behavior. Do we run the risk 
of going back on that if we go into the military pool? Does 
that make any sense to you?
    Mr. Green. Yes, absolutely. Of course, I come from a career 
military background.
    Mr. Serrano. I understand that, so it was your shoes I was 
looking at.
    Mr. Green. A number of people in the Department have spent 
careers in the military. There is, certainly, no intention of 
looking only at military retirees. I think an advantage that 
they bring, as do other Government employees, is the dedication 
to public service, whether you are wearing a uniform or not 
wearing a uniform.
    Mr. Serrano. Granted.
    Mr. Green. The other thing that I think the military brings 
to the State Department is organization. When we talk about 
going out and recruiting maybe 30 admin officers, we are 
talking about admin officers; we are not, necessarily, talking 
about infantry officers. The last thing I want to say, and I 
think it is something that is needed in the Department, and 
whether that comes from the private sector, from the military, 
or from other Federal Government employees, are people who care 
about people. You see that in the military. You grow up taking 
care of people and that is part of the management problem that 
the Department has experienced. It is not going to get fixed by 
just hiring a bunch of military folks, and that is not what we 
would plan to do. We are going to look out at all sectors where 
we have peoplethat have experience and try to attract them into 
the State Department.
    Mr. Armitage. If I may add, I think there is a little 
misapprehension here. I think you pointed correctly to 
Secretary Powell. There is a need for a great deal of diplomacy 
as you wind your way through the military ranks, and anyone who 
thinks it is not very diplomatic is wrong. You need to have 
diplomatic skills to rise in the military. Moreover, the 
soldiers and sailors we have today have so much more training 
in things such as crowd control, negotiations, that kind of 
thing, than their predecessors of 15 or 20 years ago. They are 
trained to work with the press now and in skills that you would 
expect of diplomats. Finally, just to amplify Grant's final 
point, Secretary Powell has said that for his State Department, 
people will be graded as much for the way they lead and manage 
their people as for the nuggets of policy wisdom that they 
provide to the principal advisor to the President. That is a 
pretty good recipe for attracting people who did very well and 
will not have the sort of confrontational attitude that maybe 
one would associate and probably did associate 20 years ago or 
so with some of the military.

                   BUDGET REQUEST AND SECURITY ISSUES

    Mr. Serrano. Okay. Then I think if you are on the track 
that I am on, and as I said, it is a very touchy subject. You 
do not want to say the wrong thing, hurting people's feelings 
or making them think that you think they are not qualified. You 
certainly are, and you are right, very disciplined, very 
dedicated, but just that little difference between, you know, 
more diplomacy and less armament, then you wonder what happens 
if you go into that pool of people who made up might want more 
armament.
    One last series of questions. In your opinion, is the 
amount included in this year's budget request adequate to 
address the security needs of our embassies and State 
Department personnel? And I know that there are monies for 
repairing old buildings and creating new ones, and that it is a 
big controversy at times as to where we are going with that.
    Mr. Armitage. In a way, I am afraid that it is almost a 
trick question, because I would love to say, no, we need more. 
But I think practically that, we have to prove that we can 
spend the money wisely and well. If we are up here next year 
with a budget request and a solid history in both consulting 
with the Subcommittee and showing that we can spend the money 
wisely, then you are going to look at us a lot differently. We 
have been in the game seven weeks. You have the right to raise 
an eyebrow. A year from now, I think, I could be more 
comfortable answering, because I am not sure how much we can 
absorb, how much we can force through this system.
    Mr. Green. This is really not only in that area, but across 
the board. This is a down payment. We need to make sure that we 
can recruit these numbers of people. We need to make sure that 
we can do building construction and renovation smarter, that we 
can get the IT systems up and running. We will be back next 
year.
    Mr. Serrano. I know you will and the chairman knows that 
also. To give you an example of these requests, I know you are 
asking for a classified annex in Bogota, Colombia, which would 
be a part of the Andean Counter-drug Initiative, which I 
understand is the old Plan Colombia. Right?
    Mr. Armitage. Yes. We call it the Andean Initiative.
    Mr. Serrano. I know. And in Spanish, it is still Plan 
Colombia. You should know that term. It is going to take a 
while for you to get that through.
    Mr. Armitage. We are working on it.
    Mr. Serrano. When do you start picking diplomats to do 
that?
    Mr. Armitage. The question is who will be accommodated at 
the facility and why a facility is needed next to an embassy.
    Mr. Green. Part of the embassy grounds.
    Mr. Serrano. Well, why are you separating them from the 
other activities, if you will? I am not thinking so much the 
physical plant itself, but I mean, is this work so sensitive 
that it cannot be part of the rest of the building structure?
    Mr. Green. The embassy building itself, the office 
building, is full, and we need more classified space, and this 
has to be on the embassy compound. I do not know if that----
    Mr. Serrano. So it is part of the compound, you just need 
more space?
    Mr. Green. Yes, sir.
    Mr. Serrano. Both the Chairman and I touch frequently on 
policy, although, we are here, supposedly, to discuss budget. 
But understanding that in some parts of Latin America, as you 
well know, this plan is not that popular and some people are 
very concerned about more of a 1960's style, a 1940's style, of 
American intervention. And so when they hear that there are new 
buildings being built, some folks in that country and in 
surrounding countries get very nervous about, you know, is this 
step one towards some other intervention, including military 
intervention.
    Mr. Armitage. We are not immune to understanding the 
neuralgic history that you point to very diplomatically.
    Mr. Serrano. The what?
    Mr. Armitage. The neuralgic history that you point to very 
diplomatically. Obviously, going to the Andean Initiative is in 
a way a realization that we have to spread assistance around, 
recognize that other countries have different parts of the 
problem, and that if we were to concentrate only on Colombia, 
then like squeezing the balloon the problem will emerge in 
either Ecuador or Peru, or somewhere else--so we have to 
accommodate that which calls for a lot more diplomacy than it 
does military action.
    Mr. Serrano. Okay. Mr. Chairman, I have some more questions 
and I will submit them for the record unless you tell me to go 
and ask another 15 questions.
    Mr. Wolf. No. Just write them down. I am going to let them 
go. Just a couple points I would just----
    Mr. Serrano. I just wanted to take this opportunity to tell 
you that, you know, there are some agencies that come here and 
get a lot of hard questions and then we tell them, we will see, 
what we want to do, or what I want to do, or the Chairman wants 
to do. We do ask you a lot of hard questions, but I can tell 
you from this side, it is what we want to do, we want to make 
it easier. We want you, certainly, to make those changes that 
we spoke about, and the changes that are on my legislative and 
political agenda to bring people who represent different parts 
of America. But consider us on your side in trying to 
accomplish what you need to do.
    Mr. Green. Thank you, sir.

                  CONCLUDING REMARKS OF CHAIRMAN WOLF

    Mr. Armitage. Thank you, Mr. Serrano.
    Mr. Wolf. I would just end with just a couple comments.One, 
I appreciate your testimony. Mr. Serrano and I are going to work 
together on this issue. We both care deeply. In fact, that is one of 
the great things about this job is I can see something in the paper one 
morning, and come in, and begin to do something about it. And I can 
watch ``60 Minutes'' and see something that just drives me crazy, and 
come in here and do something about it. I do not want to go downtown to 
K Street. I want to stay up here and just do these things. And so while 
we raise the issues, we care.
    I have been impressed with what Secretary Powell has done. 
I think both of you are good people. I think he raises the 
issue with regard to the military, it is a legitimate issue to 
raise, but it is not one that bothers me. It actually comforts 
me. General Williams is a general, but I think, the American 
military does a great job. I mean, every time I go away, 
whether it be at Camp Barnes, wherever it is, these guys are 
good. I mean, they really make a difference. They really are. 
And nothing is perfect, but overall, I hope I do not offend 
anybody, but I would rather see more people coming into the 
State Department from the military than coming from Yale.
    Mr. Serrano. Wait a minute.
    Mr. Wolf. Well, you know, Yale is a great, great school. I 
think the President went there, but I think West Point is not 
bad, and ROTC is not bad, and so on.
    Mr. Armitage. How about Annapolis?
    Mr. Wolf. No. I think it is going to be a healthy mix, and 
I think we will do well. And both will----
    Mr. Serrano. I want to see how you get out of this one.
    Mr. Wolf. Well, I have nothing against Yale, but I think, 
you know, some state colleges are not a bad idea. A couple of 
issues--I think Africa has to be looked at. I am glad the 
Secretary has gone. I hope Mr. Kannsteiner, who I was impressed 
with, goes, not only to South Africa, but to the eastern Congo 
and the western Congo. This Administration has to come up with 
a good policy with regard to conflict diamonds. We have to deal 
with the issue of conflict diamonds. The war in the Congo and 
in Angola, the killing and many other places, Sierra Leone, it 
is fed by conflict diamonds, and we have got to come up with a 
policy. I know the diamond people have hired prominent 
lobbyists downtown. We are going to do everything we can to do 
something on the diamond issue. We are going to deal with this 
issue and the diamond people have got to know we are going to 
deal with it. Now, I want you guys to be on our side. I want 
you to be with----
    Mr. Armitage. I came up and briefed you on--we are on your 
side and we have been moving north and moving east, just the 
way you wanted it.
    Mr. Wolf. Okay. That is good, because the----
    Mr. Armitage. And the sanctions on diamonds are starting to 
bite in Liberia, starting May 7, so there is no difference of 
opinion.
    Mr. Wolf. God bless you. That is excellent. And Charles 
Taylor should never be allowed to travel outside the country 
until he changes. So that is an important issue, the whole 
issue of speaking out constantly for religious freedom and 
human rights. As you think in terms of Africa, the debt 
forgiveness, as we forgive debt, though, to ask the African 
countries to buy into democracy, freedom of speech, freedom of 
religion. I worry, although I did vote for the debt 
forgiveness, just to forgive debt that goes into the pockets of 
the dictators without making sure that some of these benefits 
go to the people. I think Africa needs a top to bottom review. 
I know the Secretary has spoken out on AIDS, and the President 
last Friday put $200 million in the fund with regards to AIDS, 
but AIDS is a crisis that is coming all over the world. And 
this West Nile Virus came from another place. A person came 
here and now West Nile virus is killing birds all over the 
United States. So we just cannot wall ourselves off. The world 
is out there, so I think the AIDS issue has to be dealt with.
    Mr. Armitage. If I may, I need to correct the record. I was 
informed by the Chicago Tribune that the Secretary is also 
going to Kenya and Uganda. It is pretty much an AIDS focused 
trip.
    Mr. Wolf. Well, Uganda is a good place to go, and you might 
want to go up north in Uganda and try to meet with some of the 
refugees coming out of Sudan there. I think you are going to be 
forced to do a special envoy for the Middle East, the 
complications, the complexities. Maybe the Bush policy is the 
appropriate policy for now, wanting both sides to want you to 
be involved. I think you are going to have to have somebody 
there. I think we ought to be looking at some of the other 
countries in the Middle East and I just think you are going to 
have to have somebody really dealing with that issue. The 
Balkans is not going to go away. Kosovo has got to be dealt 
with very carefully. One of the concerns I have is that 
Administrations, not yours, because you are new, but they think 
in terms of policies. I think you need some opportunities in 
the Balkans for reconciliation to reach out to bring the 
different groups together. I do not want to talk from a 
religious point of view, but from a spiritual point of view. I 
think you would be well served to get people from the National 
Prayer Breakfast or something to bring Croats and Muslims and 
Serbs and Kosovar Albanians and non-Kosovar Albanians, and 
bring them together. Too much is done in terms of policy. It is 
really relationships. Once you develop relationships, then you 
can begin to get onto the problems, and the relationships are 
not there in the Balkans. If we were to leave now in Kosovo the 
fighting would break out again, and the same way in Sarajevo, 
and I did support going there. But I think you are going to 
have to get into more with regard to relationships.
    The last issue, the expansion of NATO, troubles me very 
deeply. We had a democratic government in Romania, and now we 
have a guy named Iliescu who was in the Ceausescu 
administration that is president. Now, the frightening thing is 
they are now head of OSCE. And can you have a Romanian military 
involved in NATO? If you look at that issue, just be a 
littlesensitive.
    And lastly, every time you get an opportunity to speak out, 
to articulate the values that are who we are. The Declaration 
of Independence is actually the charter of the Constitution. 
And everyone knows--they all know about the Statue of Liberty. 
When Secretary Powell goes to Beijing I would love to see him 
say, ``I want to go to a house church, and I want to meet with 
a couple of Catholic bishops.'' I would like to have a visit to 
the prison. I would like to see if maybe we could see some of 
the Tiananmen Square demonstrators that are still in prison. 
They probably will not allow you to do it, but just ask for it. 
Chris Smith and I were in Perm camp 35 in the Soviet Union. The 
man that we interviewed knew of the speech that Ronald Reagan 
gave in Orlando when he called the Soviet Union the evil 
empire, and they knew of the rally on the mall where 250,000 
people came on behalf of the dissidents. And so now with the 
internet and everything, it gets out there faster. The more we 
are speaking out, and the Secretary is speaking out, the better 
for our country and better for the spread of human rights and 
religious freedom.
    With that I will end. Thank you. And end with recognizing 
Mr. Serrano, for one last comment.

         CONCLUDING REMARKS OF RANKING MINORITY MEMBER SERRANO

    Mr. Serrano. Chairman Rogers and I had an ongoing thing 
with a bet that I could not go a whole hearing, no matter what 
the subject was, without mentioning Puerto Rico or Cuba.
    Mr. Armitage. I want the same bet.
    Mr. Serrano. I never mentioned Cuba. Here is the story. 
Secretary Powell is asking for USAID money that goes for 
supporting democracy in Cuba. And what happens with that money 
is a lot of that money goes to groups in Miami. While that is 
supposedly going to bring around democracy in Cuba from Miami, 
I think first they have to work on democracy in Miami, but that 
is a subject for another day. I think some day you folks have 
to tell us, how is it that you have a policy towards a country, 
a policy I disagree with, and then you go to hire ``civilians'' 
at the local level, and fund their little or their big program, 
and have them somehow carry out part of our foreign policy 
damage intervention-persuasion-whatever. Again, I do not agree 
with that policy, but even if I agreed with it, I do not think 
I would want to give it out to local community-based 
organizations. That seems so bizarre. And so if you know 
something about that and care to comment about it now, I would 
appreciate it. If not, I would like you to tell us someday--do 
we do that with other groups? Do we fund Chinese-Americans to 
somehow bring changes in China? Do we fund Haitians to go do 
something in Haiti? And my last point, again, is my first 
point, how do you do that from Miami without living in Cuba?
    Mr. Armitage. I think this particular program, with which I 
am not very familiar, has a big congressional element to it, 
Congressman. I think it is not just the Department of State 
waking up one morning and doing this.
    Mr. Serrano. Well, we know that.
    Mr. Armitage. No. Well, but it is----
    Mr. Serrano. But you guys carry it out.
    Mr. Armitage. Well, it is our job.
    Mr. Serrano. It is not your job to fund local little 
projects, you know, to help people.
    Mr. Armitage. As I said, I am unfamiliar with the inner 
workings of this particular program. We had funded opposition 
groups in Haiti and other places, but I do not know whether we 
funded them in the United States.
    Mr. Serrano. We have been known to go into a country where 
we, you know, a child of the '60s, like myself, reads that, we 
have been known to do that. We help the opposition in Nicaragua 
run an election against the Sandinista government. We did that 
and we have done other things in other places, some great, some 
pretty embarrassing, some inhumane, and some very humane. That 
is our history. For the most part, it has been a good history, 
and for the vast majority of that time. But this one is unique. 
This one, if you really analyze it, is unique. You see groups 
in Miami--I mean, I would like to have groups in my 
neighborhood to go across somewhere, the money is good. So if 
you can tell us at another time, and remember so you do not 
leave here thinking I turned sour on you that I am still on 
your side, notwithstanding this foolish thing you do.
    Mr. Armitage. Actually, you treated us better than you did 
the Secretary.
    Mr. Serrano. No. I just asked him a question and he 
answered it.
    Mr. Armitage. You lured him in with that, ``We are from the 
South Bronx.''
    Mr. Serrano. He got President Castro to say what a great 
guy he is.
    Mr. Armitage. He did not need any help.
    Mr. Wolf. Thank you so much.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                            Thursday, May 10, 2001.

              INTERNATIONAL ORGANIZATION AND PEACEKEEPING

                               WITNESSES

DAVID C. WELCH, ASSISTANT SECRETARY FOR INTERNATIONAL ORGANIZATION 
    AFFAIRS, UNITED STATES DEPARTMENT OF STATE
AMBASSADOR JAMES B. CUNNINGHAM, ACTING UNITED STATES REPRESENTATIVE TO 
    THE UNITED NATIONS

                    OPENING REMARKS OF CHAIRMAN WOLF

    Mr. Wolf [presiding]. Welcome.
    We're going to just begin and do away with any opening 
statements on my part, so I'll recognize Mr. Serrano.
    I do want to ask you to take the word back regarding 
getting copies of your written testimony in on time. You're 
actually literally bringing it with you, and that's not fair to 
the staff.
    Everyone knows when the hearings are going to be. Out of 
consideration for both sides, I think you need to get the 
hearing testimony up within a reasonable time. Can we get that 
commitment from you?
    Mr. Welch. Yes, sir.
    Mr. Wolf. Mr. Serrano?

           OPENING REMARKS OF RANKING MINORITY MEMBER SERRANO

    Mr. Serrano. No opening comments. Just a welcome mat, and 
to note how timely the visit is here, considering what is 
happening on the floor.
    Mr. Wolf. We worked it out this morning. Go ahead.

             OPENING STATEMENT OF ASSISTANT SECRETARY WELCH

    Mr. Welch. Mr. Chairman, let me apologize for being a tad 
late. It's a struggle to get in. A lot of school kids outside.
    I'm pleased to appear again before this Committee. I'm 
pleased to be here in front of you as Chairman, the new 
Chairman, and congressional support for our efforts to further 
U.S. interests at the U.N. is crucial to us.
    And we should have called on you early on in your tenure, 
sir. I thank you for your interest in our work, and the 
cooperation between your Staff and the State Department.
    It's nice to be here again, Mr. Serrano.
    I want to focus on the U.S. relationship with the United 
Nations today.
    I'm joined by Ambassador Cunningham, our acting permanent 
representative in New York. He will have some brief remarks 
after I make my opening statement.
    Mr. Wolf. Your full statement will appear in the record.
    Mr. Welch. Thank you, sir.
    First of all, the Bush Administration supports the United 
Nations. That support was demonstrated when Secretary Powell 
took his first ``foreign'' trip to New York as Secretary of 
State to meet with Secretary-General Kofi Annan.
    Not long after that meeting, President Bush welcomed the 
Secretary-General here in Washington.
    Even though this Administration supports the United 
Nations, this remains a complex relationship. We are the 
largest contributor to the United Nations and the United 
Nations' system. We take pride in this.
    The Administration, the American people, members of 
Congress are right to expect that the UN carry out its 
functions in an effective, efficient manner.
    Our status as the largest contributor allows us to ensure 
that UN actions be consistent with our national interests.
    For these reasons, Mr. Chairman, the Bush Administration 
wants to clean the slate of the U.S./UN relationship to the 
greatest extent possible while continuing to press for UN 
reform.
    By removing past areas of concern between the United States 
and the United Nations, such as clearing the next tranche of 
arrearage payments and lifting the cap on peacekeeping 
payments, we can give the U.S./UN relationship room to grow and 
more effectively pursue our interests in multilateral fora.
    We can work with the UN to meet the numerous challenges it 
faces from keeping the peace in Africa, Europe, the Middle 
East, and elsewhere, to helping relieve the plight of refugees, 
to setting important international commercial and humanitarian 
standards and leading the fight against HIV/AIDS and other 
infectious diseases.
    The AIDS issue is an illustrative example of how the U.S. 
and UN can collaborate constructively to tackle one of the most 
daunting international challenges.
    We plan to be a key participant in the UN General Assembly 
Special Session on AIDS this June, and the Secretary-General 
has been here in Washington once this week already to discuss 
the issue with Secretary Thompson, among others, and he'll be 
back again tomorrow.
    In light of all these objectives, full funding by the 
Congress of our requested levels for CIO, Contributions to 
International Organizations Account and the Contributions for 
International Peacekeeping Activities Account, CIPA, is 
essential.
    This funding allows us to meet our international 
obligations to a host of organizations that serve our 
interests, to maintain the financial stability of the 
organizations and their activities, and bolster our influence 
and leadership.
    I would like to discuss those two accounts in turn.
    Mr. Chairman, in reality, the CIO request for FY 2002 
reflects a decrease from our FY '01 requirements. This is 
brought about primarily because of the change in the scales of 
assessment, a negotiation that we successfully concluded last 
December under the leadership of then Ambassador Holbrooke and 
Ambassador Cunningham and because of the continuation of our 
zero nominal growth policy with respect to budgets for the 
2000-2001 biennium. Agencies of the UN showed significant 
budget restraint.
    I would like to point out that in the CIO account, sir, 
we've kept the UN regular budget flat for six years now. In 
addition to our insistence on a no-growth budget, the U.S. has 
sought continuous improvements in the operations of the UN.
    A few examples:
    The General Assembly took a major step forward last year to 
authorize the preparation of the next biennium budget in a 
results-based format.
    The U.S. is pressing for the implementation of sunset 
provisions in the budgets of various programs. We hope and 
expect to make some significant progress this year.
    Efforts are underway to increase and enhance staff security 
measures that are currently fragmented in the UN system.
    Our ability to implement this extensive reform agenda, Mr. 
Chairman, depends in large part on our sustained financial 
support. We look forward to working with this subcommittee in 
securing funding for the CIO appropriation this fiscal year.
    I would like to discuss peacekeeping.
    The CIPA request contains funds for 13 peacekeeping 
missions and a portion of the costs of two war crimes 
tribunals. These missions include:
    The one in Kosovo, East Timor, Sierra Leone, Ethiopia and 
Eritrea, in addition to others.
    I want to reiterate for you, sir, that the United States 
critically reviews proposals for UN peacekeeping missions 
against criteria such as value of the mission, clear definition 
of its goals and mandate, its prospects for success, likely 
duration, and then how to exit.
    Secretary Powell elaborated on this process last week in 
testimony. To quote his words: ``There should always be some 
American policy interest in the particular peacekeeping 
operation that we are voting for in the Security Council. I 
think it is incumbent on us when new operations come along to 
make a clear judgment as to whether or not our interest is 
being served, as well as the interests of the United Nations 
and the interests of the country that is having the difficulty 
that is in question. When we have decided that peacekeeping 
makes sense to circumstances there so that the operation makes 
sense and we go along with it and vote for it, then we have an 
obligation to support it, financially or in other ways.''
    Secretary Powell went on to point out that U.S. troops will 
not participate in these operations unless we decide such 
participation is in our U.S. national interest.
    U.S. military personnel make up less than one-seventh of 
one percent of UN blue helmeted peacekeepers. Of course, there 
are non-UN peacekeeping missions where the U.S. provides a 
substantial number of troops, such as in the Balkans [KFOR and 
SFOR], such as in the Sinai, as part of the Multinational Force 
and Observers [MFO] and in enforcing the no-fly zones over 
Northern and Southern Iraq.
    These deployments are not funded through UN peacekeeping 
assessments.
    Currently, the UN administers some 15 operations worldwide 
and our budget request includes funding for those.
    I'd like to mention briefly our interest in reform of UN 
peacekeeping. After all, it's just as critical that in addition 
to supporting peacekeeping, it is equally essential that the UN 
implement structural and financial reforms so that the 
organization can do what the Security Council asks it to do.
    Enhancing the capacity of the UN Department of Peacekeeping 
Operations remains a top priority. It needs additional 
personnel and we also need to strengthen the civilian police 
unit and the UN's rapid deployment strategic analysis 
capabilities.
    Our ability to meet these goals, Mr. Chairman, would be 
impeded if we do not take positive action on the arrears and 
peacekeeping cap issues.
    I would like to highlight the arrears situation because it 
goes to the heart of what I discussed earlier, our interest in 
strengthening the relationship between us and the United 
Nations.
    In December, after months of tough talks and discussions 
with UN member states, the U.S. succeeded in revising the 
scales of assessment both for the regular budget and for 
peacekeeping.
    As it stands now, we are not able to fulfill our side of 
that bargain that we had reached in December.
    In the interest of removing irritants to the U.S./UN 
relationship, the Secretary and the President have made the 
payment of the uncontested arrearages a priority.
    And as he said before the House International Relations 
Committee in March: ``I want to stress the urgency of releasing 
$582 million in arrears payments to the United Nations and 
lifting the cap on peacekeeping payments so that we can pay at 
the rate we agreed at the UN after more than a year of 
negotiation. If we do not deliver on our commitment, we will 
halt the momentum for UN reform and accumulate new arrears. I 
also want to work with you to allow payments of the third and 
final tranche of arrears. This includes de-linking the agencies 
and organizations involved so that bad performers have only 
themselves to blame and those agencies and organizations not 
affected by benchmarks can receive their arrears now.''
    Mr. Chairman, the U.S. is incurring significant political 
and diplomatic cost because of the 25 percent cap and as I 
mentioned earlier, also by not paying the $582 million in 
arrears.
    Before I close, sir, I'd like to say a few words about last 
week's election for the Commission on Human Rights, an election 
that was held in the Economic and Social Commission of the UN.
    First and foremost, we are disappointed in the outcome of 
this vote. We campaigned actively in New York, Washington, 
Geneva, and foreign capitals, making our interventions in 
virtually in every instance in every capital of the ECOSOC 
members, the Economic and Social Commission members.
    Despite having received 43 documented commitments, we did 
not secure sufficient votes in this election. There are a lot 
of factors behind this outcome.
    It is important to note that a central element of all 
analyses of the vote is that the contested slate of candidates 
within the Western Europe and Others group [WEOG] worked 
against us. We've already raised this with European member 
states, the European Union troika, headed by Sweden, and we 
will continue to do so.
    The vote last week signaled resistance to our aggressive 
and principled stand in support of human rights at the 
Commission and elsewhere. Our resolve to address human rights 
problems around the world is a matter of U.S. policy. It will 
not be affected by this vote.
    We will continue to engage just as aggressively on human 
rights issues wherever they arise. We believe that the 
Commission is not going to be as strong an institution without 
the U.S. as a voting member.
    In the short term, the Administration will review our 
stance toward the Commission on Human Rights, and assess its 
value to our ongoing efforts on behalf of victims of human 
rights abuses around the world.
    I want to note that ECOSOC is made up of less than one-
third of UN member states. We received the votes of the 
majority of ECOSOC member, though not sufficient to be elected.
    We do not want the votes of a small number of disgruntled 
nations serving on ECOSOC to disrupt the broader U.S./UN 
relationship.
    The Administration believes strongly that any attempt to 
link U.S. payments to the United Nations, now or in the future, 
to U.S. membership or support for the Commission, is 
counterproductive. Not only will withholding money compound the 
problem of resentment towards the United States in the UN and 
provide ammunition to our adversaries, it will also frustrate 
our efforts to further U.S. political interests and to push for 
reform of the institution and its agencies.
    Before I close, sir, I would like to mention an ECOSOC 
result from last week which unfortunately hasn't received much 
public attention because of the other results.
    On May 4, we successfully concluded an intense diplomatic 
campaign when ECOSOC granted consultative status to Hadassah, 
the Women's Zionist Organization of America. Hadassah is a 
U.S.-based NGO that, as you know, conducts humanitarian work in 
many regions of the world. We know that Hadassah will make 
positive contributions to the work of ECOSOC.
    Thank you, Mr. Chairman, for your time. I want to reiterate 
that we are ready to work closely with you.
    As I said, Ambassador Cunningham has a few brief remarks 
and then we stand ready to take your questions, sir, from you 
and other members of the Committee.

              STATEMENT OF AMBASSADOR JAMES B. CUNNINGHAM

    Mr. Cunningham. Thank you, sir.
    Since this is the first time that I've had the privilege to 
meet with all of you in this room, although I have met you, Mr. 
Chairman, with Ambassador Holbrooke, last year, and I met with 
Congressman Rogers in New York, and when he was up last year.
    I just wanted to say a brief word about my background. I'm 
now the Acting Permanent Representative to the United Nations. 
I've been in the Foreign Service for 26 years. This is my 
second tour at the UN. The first was in the early nineties, 
right after Iraq invaded Kuwait. I served under Ambassador 
Pickering.
    I was selected to be Ambassador Holbrooke's Deputy and 
arrived in New York about a year-and-a-half ago.
    Mr. Welch's statement is also issued on my behalf so I 
won't go over the points in there. But I did want to say, from 
the point of view of our mission in New York, we worked hard to 
establish a solid foundation now for the Bush Administration to 
move ahead in building a relationship with the United Nations, 
especially on reform, where we've had significant success, as 
Mr. Welch outlined.
    To make the most of the promise of building on that 
relationship, we hope we can clear the $582 million in arrears 
soon, and lift the cap on the peacekeeping assessment and we're 
hopeful that that action will take place today in the House.
    We have a heavy agenda ahead in our relationship with the 
United Nations. Further work on reform, especially on 
peacekeeping reform, but also on management and other issues, 
and we have a very important special session on AIDS coming up 
in June that will be the fruit of a lot of hard work that's 
gone into building a stronger international framework for 
dealing with AIDS.
    And in general, an agenda across the board on advancing 
U.S. values and interests. And we hope very much for your 
support, and I would like to invite you and your colleagues to 
visit us any time in New York. You are very welcome to come and 
see us, and we would like to encourage you to think about that.
    The Human Rights Commission vote was outrageous but it 
represents several factors, principally the failure of the EU 
members to organize a clean election slate in the Western 
Group, and a small number of votes from those who opposed us 
for a variety of reasons, but particularly in reaction to our 
aggressive pursuit of human rights, and others who abandoned 
their commitments to us.
    We'll move on, as the Secretary said. We are evaluating the 
situation now, but that vote, by what is really a small number 
of UN members, should not undermine our broader relationship 
with the United Nations. And the Secretary General of the 
United Nations and other UN officials have made very clear 
their hope that we will continue our active engagement in human 
rights, as well as more broadly, and we will do so.
    Thank you, sir. I'm available to answer any questions you 
may have.
    [Written statement of Secretary Welch and Ambassador 
Cunningham follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                       UN HUMAN RIGHTS COMMISSION

    Mr. Wolf. Thank you very much. There will be a lot of 
questions and we're going to add in a lot of other issues.
    At the outset, let me just speak it myself. I think you 
have a moral obligation and burden in the Administration to 
aggressively push human rights everywhere and anywhere around 
the world whether it be in Tibet, whether it be in China, 
whether it be in Sudan, whether it be in Iraq, whether it be in 
Egypt.
    I know, Mr. Welch, you're going to go to Egypt. Your name 
has been circulated, but wherever we see the violation of human 
rights, I think we have to be much more aggressive in speaking 
out.
    The best export that we have is not our technology, but our 
values, the words that were crafted by Jefferson in the 
Declaration of Independence, that all men are created equal, 
endowed with life, liberty, and the pursuit of happiness.
    As we export our values, and we speak out--just like the 
bully in the school yard, if no one speaks out, he thinks it's 
okay. You have to.
    So I think with this action that has taken place, the 
United States ought to make sure that wherever it takes place, 
we are speaking out, we are on the side of those who are being 
abused, religious freedom violations.
    I think this is a greater burden on you and Mr. Negroponte, 
if he's confirmed, and whoever goes up there to speak out, a 
great opportunity but an obligation on Secretary Powell and 
also on President Bush, and I would hope you would agree.
    I also sent a letter yesterday--I think we shared it with 
your office--asking that the United States ask that there be 
public balloting from now on in the U.N. In the House of 
Representatives, one of the best things we did to clean up this 
place was to obligate that members cannot just leave a teller 
vote where you go through and nobody would know how you voted. 
You could say you voted whatever way you wanted to.
    Now the votes are roll call. In the Committee, we call the 
roll.
    The request was, and I don't think it's an unfair request, 
I think it's a good, open reform issue, that we in the United 
States ask that all future votes be made public.
    Can you comment on that?
    If you feel strongly about an issue, whatever country 
you're from, then there is nothing wrong to publicly say what 
your position is.
    Mr. Cunningham. The history of the secret ballot for 
elections is a long one, and it goes back to the very 
establishment of the United Nations.
    The points that you raise are certainly valid, and I'm sure 
the thought has occurred, I know, to a number of us, as we have 
looked at this, what the implications would be.
    The issue cuts both ways, however, for the very same reason 
that we vote secretly in American elections, there is an 
argument that having open ballots on candidacies will work to 
the detriment of smaller members of the United Nations who will 
come under either pressure from others in their region or 
retribution if they vote in certain ways. So it is an issue 
that requires careful consideration before changing it, but we 
will give it that consideration.
    Mr. Wolf. Would you elaborate a little bit more about what 
we saw in the Washington Post today, that State's Intelligence 
and Research Bureau had written a memo warning that the U.S. 
could be voted off the Commission, but that the warning did not 
reach the top levels of the Department until the eleventh hour.
    I don't know how you can define the eleventh hour, if you 
might tell us when they actually reached the top levels. We had 
the impression that the results took our mission, and the 
Department, by surprise.
    Why did the INR Bureau have better information than the 
Mission or the Internal Organization Bureau?
    Was the information taken seriously?
    Had it been given to Secretary Powell to make telephone 
calls?
    How soon did they know?
    And whatever happened to the memo?
    Mr. Welch. That's an easy one to answer, Mr. Wolf, because, 
to the best of our knowledge, there was no such memo. The story 
is incorrect.
    Mr. Wolf. When did you begin to know you had a problem, 
after the vote, or just before the vote?
    Mr. Welch. To be perfectly straight with you, this vote 
surprised us.
    Mr. Wolf. Did you have the votes in writing?
    Mr. Welch. We had 43 documented commitments.
    Mr. Wolf. And these were like the guy says, you have my 
vote, best wishes, Harry. Was it in writing?
    Mr. Welch. I'll let the Ambassador describe this.
    Mr. Wolf. Were they in writing, were the commitments in 
writing?
    Mr. Welch. Can I just stay on the question of the 
memorandum for one second, sir? This has been reported in the 
Washington Post as an established fact. I just want to make it 
very clear that the Secretary was quite surprised about this 
this morning too, as was I, as was Jim. It simply doesn't 
exist.
    It is a fact, however, that after the vote, a number of us 
have gone back to analyze what went wrong. Should we have had 
advance warning. If there was information out there, why was it 
that we were not aware of it?
    As far as I know, the INR Bureau did not prepare or receive 
any such data that would have called into question an 
expectation that we would lose this vote.
    Mr. Wolf. So there was no memo?
    Mr. Welch. That's correct, sir.
    Mr. Wolf. Ambassador Cunningham?
    Mr. Cunningham. On the question of the nature of the 
commitments, we had 43 firm commitments. Some of them were 
actual documents supplied to us with signatures. The vast 
majority of them were that category. Others came from cross 
referencing between capitols and information that we received 
from delegations in New York, so we double checked, and we 
considered those to be documented when they were confirmed by 
our embassies.
    We did not include in that list, countries who kind of 
winked at us and said, maybe we'll support you. These were 
people who told us they would vote for us.
    Mr. Wolf. So how many were in writing again would you say?
    Mr. Cunningham. In the high thirties.
    Mr. Wolf. It would seem that the major reason the U.S. lost 
was the failure to coordinate our candidacy. Was there any 
thought of asking anyone to drop out where there wouldhave been 
just three?
    Mr. Cunningham. We did so, sir, repeatedly. But we all 
announced our candidacies more or less at the same time, more 
than a year ago. Ever since that time, we have approached the 
other candidates and asked them to consider withdrawing their 
candidacies as well as other members of the European Union and 
the Western Group as a whole, and encouraged them also to 
approach the others about withdrawing their candidacies, but 
they refused to do so.

                         SPECIAL ENVOY TO SUDAN

    Mr. Wolf. Can the Commission have any validity now if the 
United States is off, and the Sudan is now on? We now know in 
the Sudan, 2.2 million people, mainly Christians, but a number 
of Muslims and animists have died.
    I've been to Sudan four times in the last eleven years, the 
last time in January of this year. Frankly I'm a little 
disappointed that the Administration hasn't moved a little more 
aggressively, Mr. Welch, in appointing a special envoy to deal 
with the issue of Sudan.
    If you could take the word back, there was an ICRC airplane 
shot down yesterday. Did you know about that?
    Mr. Welch. Yes, sir.
    Mr. Wolf. And the pilot was killed, and it was over 
government-held, Khartoum-held territory.
    And you know, the Catholic Conference has asked for a 
special envoy, the CSIS has asked for a special envoy, Cardinal 
Law has asked for a special envoy, Franklin Graham has asked 
for a special envoy. The world has asked for a special envoy.
    And yet there's not a special envoy and more people die 
every day in Sudan.
    To get back to the issue, there is slavery in Sudan. You 
understand that there is slavery in Sudan. I have a State 
Department cable acknowledging there's slavery. We could 
adjourn this meeting, fly to Nairobi, get up early in the 
morning and fly out, let the plane go back, and trek for five 
hours and buy slaves.
    Do you acknowledge there is slavery in Sudan?
    Mr. Cunningham. Yes, sir.
    Mr. Wolf. Do you acknowledge that many of the terrorist 
groups that operate in the Middle East have training camps in 
and around the Sudanese area, Khartoum, and out in the 
countryside?
    Mr. Cunningham. That's something that we're pursuing very 
aggressively in conversation with the Sudanese even as we 
speak.
    Mr. Wolf. Do you know that Osama bin Laden controlled the 
gum arabic trade and was involved in the Sudan up until a few 
years ago?
    Mr. Cunningham. I don't know about the gum arabic trade, 
but I know about the relationship with bin Laden, yes, sir.
    Mr. Wolf. And do we know, and I've seen it first hand, of 
the bombing of the villages in the south, far away from the 
areas of conflicts, out and out bombings of innocent civilians 
and killing them?
    Mr. Cunningham. Yes, and we've raised that repeatedly with 
the Sudanese in New York, and I know we've done it in other 
channels as well.
    Mr. Wolf. If the Sudanese are now on the Human Rights 
Conference and we are off, what does that tell the world about 
this Commission?
    Mr. Cunningham. If I may make a preliminary comment, and if 
you want to add on, I note because of all those reasons, and 
more that you didn't say----
    Mr. Wolf. I held back. There are a lot more.
    Mr. Cunningham. I know there are a lot. We were successful 
last year in keeping Sudan off the Security Council which was a 
very difficult effort but a signal achievement and which was a 
repudiation of the Sudan in front of the world, repudiation of 
its credibility.
    As to the question you asked about the Human Rights 
Commission----

                       UN HUMAN RIGHTS COMMISSION

    Mr. Wolf. What signal does that send to the world?
    Mr. Cunningham. It sends a signal to the world, I think, 
that the Human Rights Commission is a troubled body, as well as 
this vote does, but it is in place. People get on to the Human 
Rights Commission, try to get on the Human Rights Commission so 
they can either pursue human rights or defend themselves and 
deflect concerns that we and others raise in that body.
    It's got a mixed record. There's no doubt about it, we were 
not successful in some of the things we tried to do in the 
Human Rights Commission here as you know. We were successful at 
others.
    We pursue aggressively our concerns on the Human Rights 
Commission, and it's a very dynamic and much debated process. 
It could certainly work better, from our point of view, and 
even though we are not on the Human Rights Commission next 
year, we're still on it until January.
    Even though we are not on the Human Rights Commission next 
year, we will continue to pursue our concerns aggressively. We 
can do everything in the Human Rights Commission that we could 
do as a member except vote and except introduce, on our own, 
resolutions. Everything else we can do, and we will do, 
including going after Sudan.
    Mr. Wolf. Aren't we the ones that would generally introduce 
the resolutions?
    Mr. Welch. The United States did introduce them.
    Mr. Wolf. Therefore we won't be next year, and can't 
introduce that. Is that correct or not?
    Mr. Welch. We can't actually vote or introduce a 
resolution.
    Mr. Wolf. I asked the question of both of you. What impact 
does this have on the ability of the United States to speak out 
on the issue of human rights? What impact does this have with 
regard to the credibility of the Commission speaking out?
    Mr. Welch. I said in my opening remarks that we don't think 
the Commission is going to be the same kind of organization 
without us there.
    Mr. Wolf. You think it hurts the credibility?
    Mr. Welch. I do. But you've also said in your own remarks, 
sir, you added the plea for us not to abandon the playing field 
and mute our voice on human rights.
    I can assure you, we don't intend to do that, as Ambassador 
Cunningham said, and we don't intend to do it within the 
Commission. It's just going to have a different character 
because we couldn't introduce a resolution or vote.
    I would also add that for those who remain in the 
Commission, who claim to be like-minded on these subjects, this 
puts a special burden on them for increased activism as well. 
That's a lesson we are trying to drive home for those who 
wouldn't clean the slate so that we could get back in.
    Mr. Wolf. I saw an editorial in one of the papers. Have you 
gone back to the countries to ask what countries kept their 
word and what countries did not?
    Mr. Cunningham. No, sir, we have not. We are, however 
talking to delegations. We have not because, based on the 
assumption that we've been lied to once, they are hardly likely 
to tell us the truth a second time around.
    But we are talking to lots of delegations to improve our 
own understanding of who did what and I think we will improve 
that over time.
    Mr. Wolf. I have a lot of other questions.
    Let me recognize Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    I guess--and I'm not trying to show disrespect, but I guess 
the easy answer or quick answer is we were voted out because 
people do not want us to pursue our work, to continue our 
mission on human rights throughout the world.
    But it would seem to me that there has to be--and certainly 
the American people and the Congress need to have an idea of 
what other reasons came into--friends of ours, people who are 
committed to us, voting against us.
    So my first question would be, do we know, do we suspect 
that nations with a good record on human rights voted against 
us? And if they did, then why? Because it is easy to point to 
the ones that voted against us because, according to us, 
they're trying to hide their own records.
    But if someone is good on this issue, and voted against us, 
what is the reason?
    Mr. Welch. Well, I would break this into two parts in 
answering you, Mr. Congressman.
    First, everybody has a favorite analysis of what might have 
been the main reasons for this, but what's common to any 
analysis is that we faced a special challenge because we were 
running against three other European countries.
    There was a contested vote from the very beginning. 
Contested votes in the United Nations have always presented a 
problem for us, and more often than not, we don't win them.
    In this case, we worked very hard to accumulate the 
commitments that we thought would be sufficient, even allowing 
for a mendacity factor, to get us over and get us elected.
    Now as to why particular countries may have voted, and I 
don't know exactly how they voted, in contravention of the 
assurances that we received, then I think you get into the area 
what might have been motivating them. It could be a variety of 
factors and I'll let Jim chime in here. But some of them may 
have made commitments to vote for others, traded their votes.
    Some may have had issues that they were particularly 
concerned about, and many of those fall into the category 
you've mentioned, those who are opposed to what we do.
    And we play a pretty aggressive hand in Geneva at the 
Commission On Human Rights. We led on China, we led on Cuba, we 
defended Israel, we have a lot of positions and other votes 
that came up, including on Sudan, and yes, this provokes a 
reaction from others.
    Of course, we're going to continue to do that nonetheless, 
and I think that it would be very important that not only the 
voice of the Commission generally, but of the members who are 
like-minded on these questions, not to be muted by this kind of 
outcome. We won't cede that playing field simply because others 
disagree with it.
    Now I know that a third category of issues, I read these 
mainly background quotes from other diplomats about why some of 
the friendly countries might have been upset with the American 
positions, both in the previous Administration and in the new 
one.
    Frankly, I think that's a lot of Monday morning 
quarterbacking here, including by those who might feel somewhat 
embarrassed and surprised by this outcome to which they may 
have contributed.
    Mr. Cunningham. If I could add to that, Congressman. 
Everybody that we've talked to from the Secretary General on 
down has confirmed, in the voluminous press reporting, 
everybody was surprised by the outcome of this vote and it was 
not expected.
    I think in addition to the factors that David outlined, 
with which I agree, there is also an element that some of the 
members of the Commission thought they could have it both ways. 
They thought they could commit to us, but then vote otherwise 
in the expectation that it wouldn't make a difference.
    So I think that played an element in this as well.
    Mr. Serrano. Well, you gentlemen have given me information 
on how votes come to be, and believe me, in this body, we know 
well about people who commit two and three times.
    Mr. Rogers. What! [Laughter.]
    Mr. Serrano. No one in this room. [Laughter.]
    But eventually they get found out. But there is again, and 
I want to hammer a little bit at this, there is something going 
on here that we need to know I guess in order for all of us 
together to make sure that this doesn't happen in the future.
    And that is, if there is a country or a group of countries 
that agrees with us on these issues and yet voted against us, 
well, I've got to believe it's more than they're committed to a 
lot of people.
    Maybe that was some of them, but some of them must be upset 
at something we've done.
    So the big question I guess will continue to be is it 
something we're doing on those issues, or is there something 
we're doing on other issues? For example, are we withdrawing 
from some prior commitments we had that is upsetting these 
people, and they took it out on that vote.
    Something is going on here that I think people have to pay 
attention to. It's just easy to say, well, we are for human 
rights and the rest of the world is upset that we are. That is 
not true.
    There are many people in the world, probably the vast 
majority, who are happy that we are with their leaders. Those 
people voted against us, and you're basically saying, well, 
they could have committed to a lot of people.
    I think sooner or later we may find out that our behavior--
and when I say our behavior, I'm talking about part of the last 
Administration and this Administration--has upset people to a 
point where we have to evaluate not only what happened there, 
but what is happening in other places.
    With that in mind, on the floor today, there are two 
amendments that deal with issues that concern you folks.
    We have, from the Administration, a statement against the 
bill in general, but we have heard nothing from the 
Administration on the amendment in particular.
    One of them is Mr. DeLay's amendment on the International 
Criminal Court, which I'm sure you are familiar with.
    And the other one is the Hyde-Lantos-Sweeney amendmentwhich 
has the impact of further delaying the payment of $244 million. That 
one is tied to this issue.
    Do we know what the Administration's position is on those 
particular amendments? Based on your comments, by the way, that 
you hope that nothing that's going on hurts in any way our 
relation to the UN.
    Mr. Welch. Thank you, Mr. Serrano. Let me attempt to answer 
your questions.
    With respect to the latter question, the amendment to 
further sequester arrearage payments for a different, newer set 
of benchmarks, whatever those might be, I, in my opening 
remarks, presented our case that we are against the linkage of 
our arrearage payments in this matter because we feel that we 
made a deal in December, and we want to live up to our word on 
that deal. We believe that it is very important to go forward 
with that.
    That Administration position, sir, has been articulated by 
the White House spokesman as recently as yesterday. And that 
would be the Department's position with respect to these 
amendments today as well.
    On the other amendment that you asked about----
    Mr. Serrano. If you'll forgive me for a second, this is the 
only problem--I have two minutes to go vote--I don't want to 
lose that, so if you could hold your thought and we can 
continue and I will come back, Mr. Chairman, and just pick up 
where we left off.
    Mr. Rogers [presiding]. Thank you, Mr. Serrano.
    Now, if there's one thing that the United States stands for 
worldwide, it's human rights. We are the beacon. If there's 
anything that the United Nations has the chance to stand for 
around the world, it's human rights.
    They can be the beacon.
    Throughout the United Nations entire existence, one of its 
chief founders, the United States, has sat on the Human Rights 
Commission.
    Now in place of this beacon of human rights, the United 
States, sitting on that Human Rights Commission, you have the 
likes of Sudan and Libya as the examples of human rights around 
the world, thanks to this vote.
    We want to know who doublecrossed us. You can tell us 
privately, if that is your desire. But we will know one way or 
the other.
    Can you do that for us?
    Mr. Welch. First, sir, I don't think we know.
    Mr. Rogers. You will find out, won't you?
    Mr. Welch. I don't know what I would get for an answer if I 
asked those 43 countries.
    Mr. Rogers. Surely, you're not going to rely upon just 
asking them. Did they lie to us?
    You have ways of knowing. We have ways of knowing in this 
political body who doublecrossed us, who told us a lie. If they 
don't tell you that, you just know it. You find it out through 
your friends and colleagues and associates and the like.
    Surely, that's the way that works up there, doesn't it?
    Mr. Welch. Well, I think the code of conduct up there is a 
bit different than it is here, sir. I have little confidence 
that we would get an honest answer out of these countries. We 
are doing an analysis, though, and it does include how we 
assess the quality of the assurances that we receive.
    Ambassador Cunningham would tell you, Mr. Rogers, that when 
we enter these votes, we build in a certain factor that would 
allow for the case where somebody might make a commitment that 
they don't mean. Even making that allowance and then perhaps 
doubling it again, we thought we had sufficient commitments.
    Secretary Powell's view on this is that we are not likely 
to get an honest answer, though again we may find out through 
means of our own with respect to some of those, I dare say 
probably a handful. I'm not sure what that would teach us with 
respect to how the vote went overall.
    Mr. Rogers. It will teach us that there are some people we 
owe one to, and that there are countries that want something 
from us. I think we should be mindful of these things and take 
the time to repay the favor.
    Mr. Welch. Yes, sir.
    Mr. Rogers. You folks in the State Department live by a 
different creed than us in the political world sometimes. When 
someone does it to you here, there's always the chance to do it 
back onto them.
    I would hope that that kind of activity would take place 
there, because that's what's necessary.
    Mr. Cunningham. May I comment on that, sir? First of all, I 
agree with David. We will never know with certainty that we 
will find for our own interest we will be pursuing the best 
understanding we can of what happened precisely, because we 
need to make the best calculation we can of who's reliable and 
who's not.
    Mr. Rogers. Exactly.
    Mr. Cunningham. Our culture in this regard in the State 
Department isn't that different than the one you just outlined. 
Let me just add the point of view of somebody on the ground.
    Mr. Rogers. That is refreshing to hear. Somebody apparently 
was really lobbying against us. Could it be that it was China? 
This Commission is where the U.S. sponsors the annual 
resolution condemning Chinese treatment of dissidents, is it 
not?
    Mr. Cunningham. Yes, sir, that's correct.
    Mr. Rogers. Did you find any indications that China was 
lobbying against us on this vote?
    Mr. Cunningham. We believe that the Chinese and the Cubans 
and others were lobbying against us. We weren't at all 
surprised by that. It's the normal course of events. But I have 
to say that we did not, as we've been looking at the aftermath 
of this, we did not find any evidence that there was any kind 
of broader conspiracy or major campaign that produced this 
result.
    We always expect in this situation that there will be a 
group of countries who will lobby against us, and we factored 
that into our calculations.
    Mr. Rogers. What was the vote? The numbers?
    Mr. Cunningham. It was 52 for France, 41 for Austria, 32 
for Sweden and 29 for the United States.
    Mr. Rogers. So you got 29 votes. How many did you expect to 
get?
    Mr. Cunningham. We had commitments for 43. The rule of 
thumb is around 10 percent defections, even when you have 
written commitments. We built in a factor of 20 percent to try 
to ensure that we knew where the ballpark was, and we lost 
almost a third in the end.
    Mr. Rogers. So you somehow lost 14 countries who had 
committed to you, did not vote with you, correct?
    Mr. Cunningham. That's right. And we voted forourselves.
    Mr. Welch. One vote we are certain about is the United 
States voted for itself.
    Mr. Rogers. Did you lose 14 or 13 then?
    Mr. Cunningham. Fourteen.
    Mr. Rogers. You got 29 votes. You were expecting 43. So you 
lost 14 votes. Fourteen countries lied to you. Is that 
reasonable to say?
    Mr. Cunningham. Yes, sir.
    Mr. Rogers. As I said before, we want to chat with you 
about finding out who those 14 liars are. There will come a day 
when they will want something from us. Is that not correct?
    Mr. Welch. Yes.

                FY 2002 BUDGET REQUEST FOR PEACE KEEPING

    Mr. Rogers. Let me switch gears now to peacekeeping 
quickly. I am concerned with what I would call an absolute 
explosion in UN peacekeeping dollars and missions that we've 
seen over the last two years. For '02, you're requesting $844 
million. That's the U.S. share, which is 25 percent of the 
total peacekeeping costs. That's 48 percent more than we 
provided just two years ago, and nearly half of that total is 
slated to go towards the Congo and Sierra Leone alone.
    UN peacekeeping has a shady track record. The complex 
situation on the ground in these places will make quick and 
successful outcomes very unlikely. We, as you said in your 
statement, are in 14 peacekeeping missions of the UN at this 
time. Is that correct? Fourteen?
    Mr. Welch. Fifteen total, 13 of which are funded from the 
CIPA budget. There are two that date back sometime that are 
funded out of the regular budget.
    Mr. Rogers. The five largest peacekeeping missions were 
established only in the last couple of years. Kosovo, $123 
million; Sierra Leone, $318 million; East Timor, $130 million; 
the Congo, $84 million; Ethiopia/Eritrea $57 million.
    As I say, our share is a full 25 percent minimum. The 
Secretary has said in regards to peacekeeping, as you indicated 
in your statement, that we should only be in those missions 
where the United States has a vital interest.
    Tell me the vital interests in just these five, the 
largest--Kosovo, Sierra Leone, East Timor, Congo, Ethiopia/
Eritrea. What is the United States' vital interest in those 
peacekeeping missions?
    Mr. Welch. I think the Secretary's words were that we have 
a national interest.
    Mr. Rogers. All right. I'll change my question. What's the 
United States' national interest?
    Mr. Welch. In the case of the large Africa peacekeeping 
missions, they relate to particular conflict situations that 
have been endemic in sub-Saharan Africa for sometime. They 
reached a level of intensity that the international community 
they felt had to act in the interest of restoring stability in 
some of these cases, which differ from one another. And you 
mentioned them.
    We assessed the missions on their merits and contributed 
our input to how they were constructed.
    Mr. Rogers. The question is, what is the United States' 
national interest?
    Mr. Welch. It's in maintaining peace and stability in those 
areas. In the case of the Balkans and East Timor, there you 
had--in the case of the Balkans, Kosovo, one of the newer 
missions, that was put into effect after NATO acted in the 
aftermath of the human rights depredations by the Yugoslav 
regime there.
    In the case of East Timor, that was in furtherance of 
implementing the results of a referendum that would bring East 
Timor eventually to independence. In those cases, regional 
organizations had the lead.
    In the case of the African missions, regional organizations 
have played a somewhat different role.
    Mr. Rogers. I'm trying to understand what national interest 
it is to the United States that there is a civil war, if you 
will, going on in the Congo. How does that affect us? What is 
it about that that has any impact at all on the United States' 
national interest? Sure, all of us have an interest in peace 
and that people not be killed or hurt in civil war. But, in 
every corner of the globe, that's going on, and yet we don't 
intervene with the United Nations or any other way.
    What is it about these 15 missions that we're in? I would 
ask you about Morocco. I will always ask you about Morocco.
    Mr. Welch. Yes, sir. You always do.
    Mr. Rogers. What is it about registering voters in Morocco 
for a referendum on whether or not Western Sahara should be a 
part of Morocco? What national interest does the United States 
have in that question?
    Mr. Welch. It varies on the situation, Mr. Rogers. But I 
can say this. In general, UN peacekeeping provides a choice 
between doing nothing and doing it all ourselves. The nature of 
each mission differs depending on the circumstances.
    In the Congo, you have the involvement of a lot of outside 
parties, armies of other countries that destabilize the 
situation there. Grievous humanitarian conditions affecting 
most of the country. There is a need to do something there, if 
nothing else, to protect lives. We happen to believe that's a 
valid pursuit.
    In the case of the mission MINURSO that you do indeed 
always ask us about, it has two objectives. One is to maintain 
stability in the area because that was a difficult conflict 
through much of the '80s and into the early '90s. It's brought 
that. But what it has not done is satisfy the other part of its 
mandate. That is, to find a solution to the conflict between 
Morocco and the Polisario by means of a referendum.
    Because that pursuit has run into problems, the Secretary 
General's special envoy, former Secretary Baker, has been 
engaged in trying to find an alternative path to a solution. 
He's reported some progress on that basis. We and others joined 
in renewing the mandate once again.
    Mr. Rogers. Secretary Baker has been there now three years 
trying to bring this to a conclusion. We've spent $400 million 
over ten years in the deserts of Morocco and the Western Sahara 
with nothing to show for it. They've been trying to register 
the tribes to vote in a referendum for the last ten years. 
Essentially, the money is being spent to register nomads in the 
deserts of Western Sahara.
    There's no end to this. This can go on for eternity, and it 
will never be resolved. Yet we continue, or you recommend we 
continue pouring money down that drain. Secretary Kofi Annan, 
and I'm quoting, said ``Regrettably, I cannot report progress 
towards overcoming the obstacles to the implementation of the 
settlement plan''. End quote. That'sbeen said by four or five 
Secretaries General.
    I've been there and inspected it and talked to the late 
king about it in great detail. We met with Secretary Baker. 
We've been over this now for years, and it's an absolute waste 
of money to the point that last year's bill and the year before 
that prohibited State from paying any money into the United 
Nations for the MINURSO peacekeeping mission.
    Yet here you are back again asking for $13.5 million. Has 
anything changed in the last year on MINURSO?
    Mr. Welch. Sir, you're right. We've been prohibited from 
paying for this mission. We are assessed for its cost, however, 
by the United Nations. And our budget requests are based on a 
reasonable expectation of what our assessed costs will be.
    It's because others share your frustration that Secretary 
Baker has been pursuing an alternative path here. He has been 
at it for some time. This is a difficult endeavor. His work 
represents I believe the best chance for success here.
    I understand your frustration about the referendum path. I 
don't disagree. It doesn't seem likely that's going to produce 
much.
    That said, there is the other element to the mission, sir, 
which we think remains very valid and not as stressed by the 
conditions there. That is the element of restoring stability to 
the area.
    Mr. Rogers. I just think it's a works project for Morocco, 
and I think we've been suckered in for 13 or 14 years now, and 
I think we'd better get out. Mr. Chairman, I don't have any 
questions at this time.
    Mr. Wolf [presiding]. Mr. Kolbe?
    Mr. Kolbe. Thank you, Mr. Chairman. I'm not sure Mr. 
Serrano had finished his line of questioning.
    Mr. Serrano. Go ahead.
    Mr. Wolf. We're going to be here. Mr. Serrano will stay.
    Mr. Kolbe. He's the clean-up batter here?
    Mr. Wolf. We're going to be here, because we've got a lot 
of questions, so I thought maybe if you're tearing out of here.

              VOTING PROCESS ON UN HUMAN RIGHTS COMMISSION

    Mr. Kolbe. Thank you, Mr. Chairman. I guess you can see 
from the line of questioning here today it doesn't seem to make 
too much difference which party is running the State Department 
at the other end of the Mall here. The frustrations remain just 
the same here among the Members of the Congress here.
    A couple of questions back on this issue of the Human 
Rights Organization, and I had an interesting dinner last night 
with some people that you've worked with. But what would be 
required to provide for an open ballot voting on this? Would it 
requir changing the charter?
    Mr. Cunningham. I don't think it would require a change in 
the charter. It would require a change--it would require a 
decision by the membership to change the procedures under 
which----
    Mr. Kolbe. In ECOSOC?
    Mr. Cunningham. ECOSOC in this case, I believe, yes.
    Mr. Kolbe. ECOSOC. So that organization itself couldn't 
change that or record its votes?
    Mr. Cunningham. To tell you the truth, I'm not 100 percent 
certain about that, because the issue has just come up in the 
last day. Okay. It just says for each--I have guidance here 
that says for each UN organ. So, yes.
    Mr. Kolbe. Well, I think it's a legitimate one to pursue. I 
understand it's a two-edged sword, and I think you're 
absolutely right. There's some downside to that. But I think in 
general, countries standing up and casting their votes openly 
as you have to do in the Security Council is certainly a wise 
thing. I think it's one of the things that ought to be looked 
at.
    You also made a point, and I just want to reiterate this. 
That we can continue to participate in the Commission even 
though we are not a voting member. Is that not correct? We can 
participate in the debates, sit in as an observer. And 
somebody--one person said last night sometimes it's very hard 
to tell who is a voting member and who's not actually.
    Mr. Cunningham. Except when you vote. [Laughter.]
    Mr. Kolbe. Except when you vote. That's right. But in other 
words, other than introducing a resolution and casting a vote, 
we can participate and we will continue to have some status in 
there and have an observer in there?
    Mr. Cunningham. Absolutely. And more than participate. We 
can participate very aggressively. There's no hindrance on 
that. The only things--to be precise again--the only things we 
can't do, we cannot initiate a resolution by ourselves. We 
would need to find a co-sponsor, but we can co-sponsor 
decisions. And we cannot vote. Other than that, we can do 
anything that any other member of the Human Rights Commission 
can do.
    Mr. Kolbe. Mr. Cunningham, you were caught completely 
unaware on this? Did you have any indication that it was coming 
this way, going down this way?
    Mr. Cunningham. As I said, Congressman, when you have a 
secret ballot, you learn early on that there's a degree of 
unpredictability here which we have seen before and other 
members of----
    Mr. Kolbe. Did you have any warnings?
    Mr. Cunningham. Specific warnings, no. Other than the 
general phenomenon that you have to be careful to keep lobbying 
and rechecking your votes, which we did. I was on the floor of 
the ECOSOC at 10:30 when they gaveled the meeting to order to 
call the vote, lobbying an ambassador to vote for us. And we 
continued to do that up to the end.
    Mr. Kolbe. Mr. Chairman, this discussion about who betrayed 
us here reminds me a little bit of some of our own votes here 
in our conferences and our caucuses for leadership positions, 
having stood once for that and having what I thought was lots 
of commitments. [Laughter.]
    And I'm not sure there's an awful lot of value in trying to 
go back and actually find out who--because I don't think you 
really will. You always have your suspicions, but you never 
really could absolutely determine that.
    I'm more interested--and nobody's asked this--in why this 
happened. As to why you think this happened. What really is 
underlying this. And I'm not asking you to tell me whether or 
not you think the views of the other countries and why it's 
happened is correct or it's the right policy. But what was 
underlying this? Why did this happen to us? As best you can 
tell us, what do you believe was going on with other countries. 
And I have some suspicions. I'll ask you if you don't relate 
them.
    Mr. Cunningham. I believe that what happened was the result 
of several things coming together in this target of opportunity 
that was created by the fact that we were forcedto run on 
what's called an opposed slate.
    Those factors are our aggressive stance in the Human Rights 
Commission itself, which had just ended in Geneva a very short 
time ago, and then we went right into the elections. So the 
feelings from that experience were still fresh.
    A number of nations were upset with us because of our 
aggressive stance on some of the country issues and for 
principal positions that we took on other issues that were 
discussed in the Commission, including our determined support 
of Israel.
    Another factor was, as you've seen in the press, a growing 
perception among some parts of the international community that 
the United States is pursuing polices that are out of step with 
the mainstream of the international community, things that we 
feel strongly about.
    Mr. Kolbe. Are you still talking about human rights or 
other issues now?
    Mr. Cunningham. In other words, I'm talking now about other 
issues.
    Mr. Kolbe. Such as?
    Mr. Cunningham. There have been references to the Kyoto 
protocol, to our stance on missile defense, our opposition to 
the International Criminal Court. All these issues where we 
have taken firm positions that aren't universally shared.
    The vote trading that goes on, which we don't participate 
in but almost everybody else does. All these things came 
together. And I think what happened was there were different 
countries who abandoned us or didn't vote for us, which is the 
way to put it.
    I want to be clear. You don't vote for--you don't vote 
against somebody, you vote for. So the object is to get people 
to vote for you. Countries did not vote for us for a variety of 
this combination of reasons, coupled with a core group that we 
know will never vote for us anyway.
    So I think that just came together in this circumstance in 
a way that we frankly did not anticipate.
    Mr. Kolbe. Well, I happen to think you're right. I agree 
with the Administration's position, for example, on missile 
defense. I agree with the position on Kyoto that we should 
proceed with great caution in that area. But I do think that 
other countries view our position there as acting unilaterally 
or without proper or prior consultation.
    Do you think there's a--well, maybe this is a question that 
perhaps you can't answer. I'll have Secretary Powell before my 
Subcommittee this afternoon. [Laughter.]
    Mr. Cunningham. Ask me anyway so I know. [Laughter.]
    Mr. Welch. So we can let him know too, Mr. Kolbe.
    Mr. Kolbe. Well, in retrospect, the things we might have 
done to prevent this from happening.
    Mr. Cunningham. Well, as Mr. Welch said, we're not going to 
change our positions to accommodate the opposition. We take our 
positions and then we face up to the results and we try to 
overcome the opposition of others on the merits. That's the way 
we run. We don't trade votes. We don't exchange promises that 
we'll be nicer the next time around on whatever issue it is.
    Mr. Kolbe. Shouldn't we have been talking more, a 
discussion with people and tell them why we're taking a 
position on those other things like Kyoto, national missile 
defense and the International Criminal Court?
    Mr. Cunningham. Indeed, we have active discussions with 
everybody on all of those issues, both in New York and in our 
bilateral relations, yes.
    Mr. Kolbe. By the way, is it your assessment that these 
decisions by the other countries in the votes are made at the 
level of the ambassador there at the United Nations, or are 
most of these coming from capitals giving specific directions 
to their ambassadors on the vote?
    Mr. Cunningham. In most cases I think the decision is made 
in capitals. Some of the ambassadors have flexibility, I'm 
sure. Others, for their own reasons--how an ambassador votes is 
also a secret from his own capital. I don't like to tell that 
to Mr. Welch. [Laughter.]
    Mr. Welch. That doesn't occur in our case. [Laughter.]
    Mr. Cunningham. I was going to say, some delegations may 
not be as disciplined as ours. I was frankly attempting to 
convince ambassadors who had told me of their instructions. In 
some cases, I was trying to convince them to frankly ignore 
their instructions.
    Mr. Kolbe. Why don't you engage in horse trading? I mean, 
isn't that kind of--around here we'd say that's pretty standard 
legislative procedure. Why does the United States take the 
position that, you know, if you vote for me on this committee, 
I'll vote for you on that committee?
    Mr. Cunningham. For a variety of reasons. First of all, 
this isn't a legislature. We're not talking about legislation. 
That's a negotiation. We negotiate all the time and we're 
trading all over the place.
    When we're talking about candidacies to guide UN bodies or 
to implement our policy in a UN setting, we don't believe that 
it's good practice to horse trade. Our approach is, you should 
address the candidates on their merits and on the basis of 
their commitment to what the purpose of the body is, which is 
why we find it frankly distasteful that a country like Sudan is 
on the Human Rights Commission.
    I also want to be clear that we did not run against Sudan. 
There's no connection between our election and Sudan's 
election.
    Mr. Kolbe. No, I understand that. I think there's, by the 
way, a great misconception around here about that.
    Mr. Cunningham. I just want to be clear. We were running 
against the Europeans, not against Sudan.
    Mr. Kolbe. If we want to rap knuckles today, we should rap 
the knuckles of the Europeans. I understand you won't comment 
on that one.
    Mr. Cunningham. We'll address that in due course.
    Mr. Welch. I don't mind commenting on that, though. As I 
said at the beginning, there is an inescapable fact. We had to 
run on a contested slate. That caused us a problem. We thought 
we had overcome the problem. We obviously didn't. That's an 
inescapable fact, and that is a responsibility that the 
Europeans bear a heavy burden for.
    Number two, this is not something that we will sort of let 
sit. This is a persistent problem in the WEOG group. It has 
occurred in other cases. And if we look ahead to next year, 
there is already a contested slate for the WEOG seats next year 
in the Commission on Human Rights. And we need to address that.
    We've already put this firmly before the European--the EU 
troika headed by Sweden. Belgium is coming in next. So thatthey 
understand the responsibility they bear for this outcome. That's the 
one thing that is certain about this process.

             WORLD HEALTH ORGANIZATION AND HIV/AIDS FUNDING

    Mr. Kolbe. I'll make my prediction. That is, we'll be back 
on the Human Rights Commission within a year. Mr. Chairman, 
just one quick question. I realize I've used my time to get to 
the area that I have a specific responsibility as the chairman 
of Foreign Operations.
    Describe to me a little bit about the work of the World 
Health Organization and the HIV/AIDS and its relationship to 
the money that comes from this Subcommittee versus the money 
that comes from Foreign Operations through USAID.
    We have--our WHO commitment is $114, $115 million I think 
you're asking for this year.
    Mr. Welch. Yes.
    Mr. Kolbe. Do you have any knowledge about how much of 
that, how that is spent, what that goes for, how much that goes 
to AIDS programs? The analysis here that we have doesn't tell 
us very much about that.
    Mr. Welch. I'd like to provide that answer later to you, 
Mr. Kolbe. I don't have available with me today a breakout of 
WHO's expenditures in terms of the infectious diseases it's 
targeting.
    Also, the level of American support with respect to 
attacking the HIV/AIDS problem is under discussion with the 
Administration right now as part of our focus on this issue 
that could have some implications for the distribution of our 
assistance, which would be through budgets that we don't have 
responsibility for.
    If you don't mind, I'll provide a fuller answer to you in 
writing.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Kolbe. Thank you, Mr. Chairman.

                       UN HUMAN RIGHTS COMMISSION

    Mr. Wolf. I want to recognize Mr. Serrano. But before I do, 
speaking again for myself, I think you're not being totally 
candid, and this is not a good thing. Just to have you say we 
can participate but we can't vote and we can't offer 
amendments. I mean, people run for the House of Representatives 
so they can vote and so they can offer amendments.
    And so it's a big deal. We have offered a lot of those 
amendments that have been there, and if we're not there, we can 
be sitting there, but I think, you know, maybe you were trying 
to put a different type of picture on it.
    I have supported you on this. Last year I supported the 
peacekeeping effort. I was one of a handful of Republicans that 
did. But this is not good for the UN.
    This is a major setback because wounds were beginning to 
heal, and now they're being ripped open. And it's a double rip 
because it was not only in this, but it was the Narcotics 
Bureau. For the U.S. not to be involved in that is 
unconscionable.
    So for some people who are trying to heal things and bring 
things back again, the wound was ripped open like that. I think 
it's much more significant than maybe you were saying.
    And secondly, Mr. Kolbe is probably right. You won't find 
out. But the Europeans are our friends, and I think friends are 
very candid with friends. In fact, the Members of Congress that 
I'm really close to, I can ask them anything I want to. 
Congressman Tony Hall and I are good friends. I can ask him 
anything I want to and he can ask me anything, because good 
friends are not offended by that.
    So I think we ought to ask. With regard to the Europeans--
how many positions do they have?
    Mr. Cunningham. On the Human Rights Commission?
    Mr. Wolf. Yes.
    Mr. Welch. They will now have nine or ten.
    Mr. Wolf. Nine or ten? And we have zero, zip. Not one. And 
good friends don't treat friends that way. I don't treat--if 
Hal Rogers is my friend, I don't treat him that way. If Mr. 
Serrano is my friend, we may have differences, but I don't 
treat him that way.
    So I would ask. You ought to ask. You want to know. Because 
maybe they should then know how serious we are and not that it 
doesn't matter because we can't offer amendments and we can't 
vote, but we are angry. We are upset.
    Because we believe very deeply the fundamental values of 
our country--and our country is made up of people from every 
other country in the world--is that we care deeply about human 
rights. We care deeply about the Tibetan monk that's being 
tortured. We care deeply about the Catholic bishops that are in 
jail. We care deeply about what's going on in East Timor.
    So, we're not against anybody, we're for human rights. So 
we want to be on that Commission, and it is not a valid 
Commission without us. It does not make any sense in anyone's 
mind if the United States isn't on there. There are probably 
other commissions that we don't have to be on, but this is one.
    So I ask you to ask them. And if you don't ask, then I'll 
write a letter to everyone and ask them, how did you vote? And 
tell us why you voted that way. Maybe we missed something that 
we should know.
    But if they don't want to tell us, then friends don't treat 
friends that way. They treat enemies that way. Maybe jealousy 
is involved. But friends are friends. And I think if they're 
all our friends--and go back to World War II in 1941 and 1945, 
and my Dad serving, and the moms and dads of other people here, 
and others who wore the uniform. The Americans who have been in 
the Berlin Brigade for years andyears. They used to protect 
with regard to Berlin.
    The Americans that are spending hours and days away in 
Kosovo and Camp Bondsteel. The American men and women away from 
their families for six and seven months at a time. And I 
supported our efforts in Kosovo. I supported our efforts in 
Bosnia. But there are Americans there in Bosnia. There are 
Americans in Sarajevo. There are Americans at Camp Bondsteel.
    So friends treat friends with respect, with dignity, and I 
say ask. And if they're offended, then they're not really our 
good friends. Ask. Tony Hall can ask me anything. Hal Rogers 
can ask me anything. Kolbe and Serrano can ask me anything, and 
I'll tell them the truth. And I would tell you every time 
somebody runs for office in the House, I tell them how I'm 
going to vote.
    If a Member comes up to me and asks me, I say, I already 
committed to Dick Armey, or I already committed to X, because 
I'm not embarrassed. It doesn't mean that I don't like them. 
Maybe it's a different reason. But I think friends have got to 
be open and candid with friends. So ask them.
    Mr. Serrano?
    Mr. Welch. Mr. Wolf, thank you for the statement.
    Mr. Wolf. That was not a question. That was a statement. 
[Laughter.]
    Mr. Welch. I know, sir. I was just going to tell you that 
I'm not at all surprised at your reaction. I'll mail this 
transcript to the Europeans with whom I've been meeting so that 
they understand what I said to them about our attitudes on this 
has a major reflection in Congress.
    Mr. Wolf. Mr. Serrano?
    Mr. Serrano. Thank you, Mr. Chairman. I'm going to go back 
in a second to the questions that you were in the process of 
answering. But let me preface my comments by saying that I'm 
sure you do know that I disagree strongly at times with our 
foreign policy.
    I can't help in the middle of all this to--please, not to 
rejoice--but almost to be amused somewhat in a sad way that the 
fact that here we spend so much energy trying to cozy up to 
China and so much energy trying to beat Cuba into the ground, 
and somehow they teamed up. You expected it from Cuba. It 
shouldn't surprise anyone. But we certainly may not have 
expected it from China.
    And what I think part of Chairman Wolf's frustration may 
be, which I share, is that we don't seem to be getting a clear 
picture as to what happened. What we seem to be hearing back 
is, well, everything will be okay. We can present amendments.
    You know, it's interesting. During the last time that 
Democrats were in control of the House at the end of our 
tenure, we instituted something that would allow the 
representatives from our colonies, Puerto Rico, Guam and so on, 
to vote on amendments but they couldn't have a full vote. And 
while we thought it was a step forward, the fact of life is 
they didn't participate. They just were playing around with 
amendments. They had nothing else to do on the final vote.
    And we don't seem to hear from you the outrage that we may 
not--that we will not be participating at this level.
    Now remember, I told you on the one hand that I'm very 
critical, especially in the area of Cuba, on our foreign 
policy. But I'm also a big supporter of our involvement in the 
UN. And I'm a big supporter of paying our dues, of our 
participating and of our paying those dues.
    So what I still go back to is at one time or another, you 
folks are going to have to analyze this. You can get back to 
the Chairman and get back to the Members of this Committee and 
this Congress and tell us what went wrong.
    Because if people that we are bending over to be helpful 
did not vote for us after they promised they were going to vote 
for us, then what does that tell us about the way we deal with 
them? And doesn't that improve my argument that maybe we should 
be nicer to people that we don't have a relationship with so 
that we can at least put them all on a level playing field? 
That's my comment, if you care to comment on it.
    And I want to get back to how does the Administration feel 
about the two amendments that are on the floor today? One which 
hikes up the dollars, the Hyde/Lantos Amendment, and the other 
one on the International Court.
    Mr. Cunningham. I'll give the microphone to Mr. Welch to 
answer those questions. They're more in his provence than mine.
    I just wanted to be very clear, we're not minimizing the 
effect of this. And as a matter of fact, I said in my own 
comments opening that the vote was outrageous. And Congressman 
Wolf made a very important point. It's not just outrageous 
because it's a slap at us, and that we were abandoned by some 
of our friends. It's outrageous because it's a fundamental 
assault on the UN and the UN human rights mechanisms.
    Whatever motivations went into the decisions of individual 
members when they marked their ballots, everybody who knows 
about human rights, including all the people who work in the UN 
and who are committed to the UN's role in human rights, know 
that the outcome of this election is seriously damaging to 
their aspirations for human rights and for the UN's role in the 
world, and that's our aspiration as well.
    So that is an outrageous result. And we're very upset about 
it. We want now to find a way to recoup the damage and to 
prepare for the next phase of this ongoing debate, and that's 
what we are going to focus on.
    But I want to be very clear. I did not intend in anything 
that I said to imply that I was trying to minimize the impact 
of this. And again, it's not just because of our ability, but 
it's the fact that the impact of this is undermining the United 
Nations and its human rights mechanisms, which is something 
that's very important to us, and we want to try to keep as 
strong as possible and to keep our participation in it as 
strong as possible. And my commitment to you is to try to do 
that.
    Mr. Serrano. Well, let me just comment further on that. You 
had mentioned before the fact that there were other concerns, 
and I commend you for being open about that. There were 
concerns about other issues throughout the world not having to 
do perhaps directly with the human rights issue.
    And so I would hope that in finding out how we're going to 
participate throughout the UN in all of the different 
commissions and committees, that we take into consideration 
that this is going to be an ongoing issue. Because it seems 
that certainly this Administration is going to undo a lot of 
the things we have committed to doing in the past, and ifthat's 
the case, then people may on one committee take out their frustrations 
with us on other committees or on how they feel about our behavior 
throughout the world on other issues.
    So I think we'd better learn quickly that if that's going 
to be the behavior of the world as a response to our behavior 
that we have to maybe look at the whole picture and not 
necessarily as to why we lost the vote here or lost a vote 
there. And I'd like to hear about the amendments on the floor 
if possible.
    Mr. Welch. Okay. Yes, sir, Mr. Serrano. Before you departed 
for the vote, I had said that we regarded the December deal 
that was made in the General Assembly on changing the scales of 
assessment, which is a fundamental part of the Helms/Biden 
legislation, as a very, very positive outcome for the United 
States.
    And we think we should live up to our part of the bargain. 
Our part of the bargain is to, on the basis of the passage of 
these changes by the United Nations, pay our arrears. And we 
feel we should go forward with that. That's the 
Administration's position.
    Second, you had asked about the International Criminal 
Court.

                     AMENDMENTS REGARDING UN ISSUES

    Mr. Serrano. I'm still concerned--and I'm not trying to be 
picky on this--the Administration's statement says that they 
oppose the bill in general but did not comment at all about 
whether they support amendments that speak against what you're 
talking about. The Hyde/Lantos Amendment speaks against what 
you just said. So why is it so difficult for the President who 
says ``I will veto the bill because of other provisions'' to 
say ``and I'll also veto the bill if it has this provision''?
    [Pause.]
    Mr. Welch. I guess you're reading from the Administration's 
commentary on the legislation. I gather that that----
    Mr. Serrano. The Statement of Administration Policy.
    Mr. Welch. Right. What we call the SAP. That was put 
together before the amendments were forwarded. We haven't 
actually even--I haven't personally read the amendment that 
you're referring to.
    But what I can say is that in advance of this, we have a 
position that we want to see the arrearages paid. We want to 
clean the slate on this.
    Mr. Serrano. So you feel your position is contrary to the 
Hyde/Lantos Amendment?
    Mr. Welch. That's correct. Sir, I can't speak to the other 
parts of the bill. It's not my job.
    Mr. Serrano. I'm not asking you to.
    Mr. Welch. But others will be today.
    On the International Criminal Court, of course, I'm not 
begging off answering your question fully, but it is not a UN 
issue per se. The Bush Administration doesn't support the ICC 
in its present form. These views are very well known.
    We think that the risk to U.S. soldiers coming under ICC 
jurisdiction is unacceptable. I gather we're looking 
internally. It's not my job, but that work is underway on how 
best to respond to the treaty. I am not sure how these views 
would be expressed in the specific Administration policy on the 
DeLay Amendment. So this is just a general comment on the ICC.
    Mr. Serrano. Okay. The bill also provides to get our 
membership back in UNESCO. Again, SAP. I love that. Is that 
what it is, SAP? [Laughter.]
    I've known some bills. [Laughter.]
    This may not be one of them. But the SAP says that they 
would oppose authorizing our membership in UNESCO. My question 
would be why would the Administration oppose after all that 
UNESCO has tried to improve and change its ways, and in view of 
the fact that they now are promoting an initiative called 
Education for All by 2013, to provide all boys and girls with a 
basic-primary education, and also a program to bridge the 
Digital Divide. I'm sure that you folks recommend on this, so 
what is wrong with UNESCO now that we cannot join?
    Mr. Welch. We haven't requested funding for rejoining 
UNESCO. Rejoining UNESCO would cost a great deal. We estimate 
somewhere in the neighborhood of $60 million or more. That 
would make our participation in UNESCO, were it to happen, one 
of the largest programs under the CIO account.
    I think that's a significant decision in its own right, if 
only for funding reasons. We departed UNESCO, Mr. Serrano, as 
you know, in the 1980s. It had a very checkered track record 
back then. For some time there were a few improvements, but 
over time, UNESCO has made a lot of improvements. Membership 
needs to be evaluated on its merits. There are a lot of people 
interested in that. I take your point on some of its 
activities.
    We're taking a look at it because of this expression of 
Congressional interest, but also because we are interested 
ourselves. When UN organizations reform, we look again at the 
merits of participation. However, I come before you on this 
Committee today in defense of budget requests. We haven't made 
one on this, and it would be a very large one, were we to make 
it, and in view of other priorities.
     I don't want to speak to my own personal views on this, 
but I think the financial question has to be heavily weighed.
    Mr. Serrano. Mr. Chairman, I have some more questions, but 
I'll give up my time.

                              PEACEKEEPING

    Mr. Wolf. I want to express the deep disappointment--maybe 
it's just a procedural process, and I'm hopeful that it is--
because if it's not, I think it's really shocking--in the 
position of the Administration's policy coordinated by OMB and 
concerned agencies. It says that you are also opposed to the 
language which would establish a U.S. Special Envoy for Sudan.
    That is shocking. That means you oppose what Cardinal Law 
supports. You oppose what the Catholic Conference supports. You 
oppose what Franklin Graham supports. You oppose what almost 
the entire United States Congress supports. You oppose what the 
NAACP and the Black Caucus supports. You oppose what most 
prominent evangelical leaders in the United States and most of 
the large human rights groups.
    So my sense is hopefully this is just a process, that you 
don't want the Congress telling you what to do. But this is now 
becoming the Bush Administration's problem on Sudan. That young 
Danish fellow is dead now because nobody is doing anything over 
there. You need to appoint a Special Envoy to bring the parties 
together, someone of the capacity of a Jim Baker or a Chet 
Crocker. I can give you five other names.
    I'm just going to assume that this is more process. That 
nobody wants to be told. But I think in the friends-tell-
friends honesty we are asking, and if theAdministration doesn't 
do it, all of the death and the destruction and everything is really 
going to be on your shoulders.
    You've been in over 100 days, and nothing is being done 
with regard to the peacekeeping. And I support the peacekeeping 
overall. I'd rather have peacekeepers there than have United 
States military serving there, particularly in some of these 
difficult areas.
    I've expressed to the Administration my concerns about the 
U.S. Mission in Sierra Leone where I visited last year. You 
have an entrenched, well-armed guerrilla army, the RUF, in 
control of a good portion of the country, including the diamond 
areas. With the assistance of the Charles Taylor government in 
Liberia, you have fighting on the Sierra Leone-Guinea border 
also abetted by Liberia, which is causing yet more civilian 
suffering.
    They're cutting off the arms of children. They're cutting 
off the legs of children. We went into a village where they 
told us they literally came in and said, ``Do you want a short 
sleeve or a long sleeve?'' If you pick a long sleeve out, they 
cut the arm off here. If you pick a short sleeve, they cut it 
off here. This is not a story that someone told me. This is 
what we actually saw with our own eyes.
    So far, you've wanted to expand the peacekeeping force. The 
policy, however, has proven both expensive and ineffective. 
Driving the RUF from their positions by the use of force or a 
credible threat of force seems to be a task the UN is not well 
suited to perform. The UN Security Council recently voted to 
increase the authorized force strength to 17,500 troops, by the 
far the largest UN force in the world.
    The budget asked for further troop increases next year when 
the current six-month mandate ends, and the situation on the 
ground remains basically unchanged, will the Administration be 
evaluating this or will the UN be evaluating it? And what are 
you doing to bring Foday Sankoh to trial? He was the one who 
has been responsible for the cutting off of the arms.
    And, of course, you know that the previous administration 
support allowed him to be heading the diamond mines, and the 
vice president. What are you going to do? Are you going to 
reevaluate this in six months with a different approach? And 
I'm not for disengaging in Sierra Leone. I'm not for saying get 
out. But something's got to be done better to get control over 
those diamond areas. And what are you doing with regard to the 
War Crimes Trial against Foday Sankoh? I'm waiting to hear and 
to see a story when I wake up someday in the Washington Post, 
Foday Sankoh broken out of prison and now living in Liberia, 
where Idi Amin is living in Saudi Arabia. When is he going to 
be brought to trial?
    Mr. Welch. Let me address the question with respect to 
UNAMSIL and the evaluation of its progress. Mr. Wolf, we had 
this discussion before when I first met you.
    We take the concern you expressed very seriously. This is a 
big, expensive peacekeeping mission.
    Mr. Wolf. Have you been there?
    Mr. Welch. No I have not.
    Mr. Wolf. Has Secretary Powell been there?
    Mr. Welch. I don't think so. He's not been there. Secretary 
of State----
    Mr. Wolf. The people that are making the decisions have not 
been there.
    Mr. Welch. If I could complete my answer. He's been to 
Sierra Leone.
    Mr. Wolf. Has he been to Sierra Leone to see the people 
with the arms cut off?
    Mr. Welch. Not while Secretary of State.
    Mr. Wolf. So the two of you are making the policy on Sierra 
Leone and neither of you have been there? Has anyone from the 
Administration planned on going there soon?
    Mr. Welch. Yes. A number of my colleagues have been there. 
You've been there, Jim.
    Mr. Wolf. Does the Secretary or you or your new assistant 
secretary for African Affairs plan on going to Sierra Leone 
soon?
    Mr. Welch. You will have a chance to ask him personally. I 
know that he will be in touch with you very early. He's in a 
position to do so after confirmation. I can't imagine that 
somebody who would have this issue within their 
responsibilities would not undertake to do that.
    Mr. Wolf. I think it would be helpful if they did.
    Mr. Welch. I agree with you. It always helps to see it 
firsthand. Your question was, are we serious about evaluating 
progress, or, by implication, are we on a blind path of support 
without regard to what it is that's happening? I think it's the 
former, not the latter.
    We have some examples of progress since Mark Bellamy and I 
were up to brief you, if I could just mention some. These place 
names may be more familiar to you, sir, than they are to me. 
But there are specific examples of the outward deployment of 
UNAMSIL.
    In mid-April, two of the Zambian companies deployed to a 
place called Mono Junction north of Kenema. The U.S.-trained 
Nigerian battalion finished its deployment to Magburaka in late 
April. The Bangladeshi battalion has moved to Makeni also in 
late April. There are some peacekeeping troops now conducting 
some patrols in an area called Tango Field, which I'm told is 
in the diamond-producing areas.
    My understanding is the UNAMSIL officials do have a 
conversation with the RUF before patrols, not to seek their 
approval, but to alert them that they're coming in, in order to 
avoid any misunderstanding.
    When the Deputy Secretary General recently visited Sierra 
Leone in early April, she delivered a stiffly-worded warning to 
the RUF's leadership. The force commander, I gather, has done 
the same.
    In sum, we think that the attitude of the mission is more 
robust, and we are seeing some progress on the ground. A 
Pakistani brigade is scheduled to arrive later this summer. We 
hope and expect that that will contribute to this progress as 
well.
    What I'm not here saying is that the RUF has been defeated. 
It hasn't been. But it's fair to say that they're being pushed 
back. That is not, I understand, without some consequences as 
well in other places.
    Mr. Wolf. What are you doing with regard to bringing Sankoh 
to justice?
    Mr. Welch. If you don't mind, I'll turn the microphone over 
to Ambassador Cunningham.
    Mr. Cunningham. I have been to Sierra Leone. I was there 
with the UN Security Council last October, so I've seen it 
firsthand and talked with the people there.
    I agree with your assessment about the desperatesituation 
that exists. I want to add to what David said to kind of complete the 
picture of the strategy that we put into place to squeeze the RUF.
    We've just finished the process, imposing sanctions on 
Liberia, which went into effect on Monday, cutting off their 
diamond sales and travel by senior officials. Particularly the 
latter element is going to cause considerable pain for the 
Liberian leadership.
    Mr. Wolf. Are the Europeans on board with that travel ban 
thing?
    Mr. Cunningham. Yes, it's a global ban, if you will, that 
everyone has committed to. And we have also, as you know, we've 
reimposed the arms embargo several months ago, whcih is being 
violated, we assume, but still limiting President Taylor's 
ability to re-arm his forces, which are now under considerable 
stress because of the border conflict.
    We think this has taken its toll on the Liberians, and 
that's a key part of our strategy is to fence off the RUF's 
avenues of support. UNAMSIL is moving into RUF-held areas. 
Government troops and administration are moving in to take over 
control of those areas. The RUF is either being forced to move 
back or to accommodate itself to the government presence, and 
we're trying to close the back door, if you will, the link 
between Liberia and the support that he provides to the RUF 
leadership. We think we're having some effect in that.
    The goal of all this is, as you said, to get the RUF out of 
the control of the diamond areas so the government can assume 
its rightful control and to force RUF members either to disarm 
and go to disarmament camps, or for their leadership to go into 
a political process. And this effort will continue.
    And the arrival of the Pakistani brigade at the end of the 
summer will then set the stage for the next phase of this, 
which will be further movement of the UNAMSIL forces.
    On the Special Court, we're having a very detailed 
discussion with the UN administration now over the agreement 
that we've crafted on how to set up the court. The UN has come 
back with a budgetary arrangement that we think is excessive 
because it's built more on the model of the courts that we set 
up for Rwanda and the former Yugoslav Republic.
    We're trying to find ways to provide the framework and 
structure of the court that will be more effective and cheaper 
than what they're proposing. We're having that debate right 
now.
    We will also then have to have, depending on that 
discussion, we also then need to figure out how to fund the 
court, because under their approach, they have put forth a 
proposal that costs more than $100 million over three years.
    The way we want to pay for the court is to do it through 
voluntary funding rather than UN assessments. It's very 
unlikely we will not get voluntary funding to cover an 
administrative arrangement that's that expensive. So we're 
trying to scale back the structure of the court and to go 
forward with this now as quickly as possible since we now do 
have an agreement on the tasks of the court and how it will be 
set up.
    Mr. Wolf. How many people do they think they're going to 
try? They're talking about $100 million, right? How many people 
do they think are going to appear before the court?
    Mr. Cunningham. Our guess is on the order of 25 to 30 
people.
    Mr. Wolf. It almost seems that they don't want it to 
happen, so they're going to make the price so high. How long 
has Sankoh been in jail now?
    Mr. Cunningham. Longer than that. Since the summer of last 
year, almost a year.
    Mr. Wolf. When do you think this will take place?
    Mr. Cunningham. We're meeting on this today. We're pushing 
to get this done as quickly as possible now that we've overcome 
the major hurdles. But I can't predict, because your reaction 
to the $100 million figure was exactly ours when we saw the 
budget estimate. I don't think there's any way that we can go 
forward on that basis. We need to find a cheaper way to do 
this.
    Mr. Wolf. Rwanda is bringing people to justice there, and 
they don't have any kind of money like that. They're talking 
about $125,000. I'm going to recognize Mr. Serrano. He wants to 
make a comment. But before I brake the train and leave that 
subject, what about lumber too? Because we were told that 
they're clear-cutting lumber. Charles Taylor clear-cutting 
lumber. If you want an environmental position to be against 
clear-cutting lumber, you may be shutting the diamonds down, 
but what about the lumber? Is there anything you've done with 
regard to that?
    Mr. Cunningham. That is in reserve, as it were, for a later 
stage if we need it. When we first advanced our proposal for 
looking at additional sanctions, there was quite a bit of 
resistance to addressing the lumber issue as being too all-
encompassing, and concern that cutting off the lumber trade 
would have a serious impact on the economy itself of Liberia, 
which is in very dire straits. That is the impact on the people 
of Liberia, not on the leadership.
    Mr. Wolf. I think you ought to tell Charles Taylor he ought 
to consider leaving the country, and he ought to go some other 
place similar to Mengistu of Ethiopia. You ought to tell him 
his days are basically numbered. The people of Liberia have 
suffered too much. The people of Guinea are now suffering 
because of Liberia. The people of Sierra Leone are suffering. 
Just get out while he can get out. Because eventually, he's 
going to be part of a situation of going before the court. And 
you ought to let somebody else come in whereby the people there 
can live in peace.
    I understand the hospital is closed now, the Kennedy 
Hospital. Life over there is miserable.
    Mr. Cunningham. It is. I've been there, too.
    Mr. Wolf. Mr. Serrano?
    Mr. Serrano. Mr. Chairman, I have an emergency meeting of 
the Black and Hispanic Caucus. I have some questions that have 
to do with the effects of the delay in payment of our arrears 
which I would like to submit for the record and get some 
comments on as soon as you can.
    Mr. Wolf. Without objection, so ordered.
    [The information follows at the end of the hearing.]
    Mr. Wolf. One other question on that. Despite the 
atrocities of the RUF, the Lome accord included provisions that 
would ensure RUF participation in the future of Sierra Leone 
government after RUF violated the peace agreement last year, 
including the killing of UN peacekeepers.
    I was of the opinion, and maybe I apparently was wrong, 
that those plans were over. That would be like saying that 
Milosovic was now going be still involved. The UN was reporting 
last week that the UN-sponsored discussions in Abuja, including 
decisions regarding the transformation of the RUF into a 
political party. Are you still talking about the RUF is going 
to be part of the political party? What does that do to the 
Sankoh situation?
    Mr. Cunningham. The Lome agreement created a position for 
the RUF in the government as a matter of right as part of the 
accord, which left Sankoh in control, effective control of 
large amounts of territory, including the diamond areas. And 
indeed, the mechanism for exporting diamonds.
    That was part of the original deal. That's now, as you 
suggested, out the window. And that's the view of the Security 
Council. That prospect no longer exists.
    But part of the debate that's going on now is the RUF's 
assertion that if they behave themselves they can resume that 
privileged status, and that's not our view, and it's not the 
view of the Security Council.
    Mr. Wolf. That's good.
    Mr. Cunningham. But the RUF has created a new kind of 
political directorate. There are different strands within the 
RUF, and we and other Council members and the government of 
Sierra Leone want to force them into that direction to break 
with the rebels who want to stay in the bush and address 
political issues, but not as members of the government as a 
matter of right. And that's part of the discussion that's going 
on now.
    Mr. Wolf. Okay. I mean, as individuals, if somebody wasn't 
involved as an atrocity, they can be RUF or not RUF and run. 
But for those who were involved in the cutting off of arms and 
legs and doing atrocities, like Sankoh, having him participate 
again would just be not appropriate.

                           CONFLICT DIAMONDS

    Mr. Cunningham. We agree about that.
    Mr. Wolf. Maybe both of you can talk about the diamonds, 
conflict diamonds. My view is that the Administration hasn't 
really found its thoughts on the issue of conflict diamonds. 
Can you tell me if the State Department is bringing the U.S. 
Trade Representative and everybody along? What are you doing on 
conflict diamonds?
    Congressman Tony Hall has a bill. Are you expecting to be 
supporting that bill?
    Mr. Welch. We haven't taken a position on the bill. We're 
still evaluating it. There are other potential legislative 
initiatives.
    Mr. Wolf. That the diamond industry wants.
    Mr. Welch. I gather----
    Mr. Wolf. The diamond industry has powerful interests in 
this country and in this city to represent the diamond 
interests. These registered lobbyists all go to Sierra Leone, 
go out to the villages and talk to the kids without any arms 
and legs.
    I'm very suspicious of the industry bill, and I think this 
is an opportunity for the United States. We have a 
responsibility. Liberia--it was really the United States' 
responsibility there. So I hope the Administration doesn't cave 
or get spun around by some high-powered K Street lobbyists and 
New York City big law firms and people who are powerfully 
connected to weaken this.
    Because what is going to happen is, there's going to be a 
consumer boycott. I mean, 65 percent of the diamonds that are 
sold in the world are sold here in the United States. And when 
I saw how the American people several years ago went against 
fur with a group called PETA. I mean, kids and arms and 
diamonds.
    So I think the Administration can hopefully support a very 
good bill. Congressman Hall's bill is a good bill. It protects 
the diamond industry, because we don't want to do anything to 
hurt the legitimate diamond merchants. But I think people are 
going to reach a certain point when they say, it's just not 
working. They're still coming. Let's just boycott it.
    And in the process of boycotting, a lot of innocent 
jewelers and people are going to be hurt. If you could tell 
us--I don't want to put you on the spot now. But if the 
Administration could get back and tell us maybe next week for 
the record if we could have its position on Mr. Hall's bill, I 
would appreciate it.
    Mr. Welch. I think I can provide something on answer now, 
and as we formulate a specific response on that legislation, I 
will provide that to you as well, Mr. Wolf.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Welch. I think our aim is consistent with yours.
    Mr. Wolf. I know it is. I don't have any doubt.
    Mr. Welch. We do have an interagency process underway to 
work this, not simply with respect to our position on any 
legislative initiative, but also the problem directly. It does 
include representatives from the economic organizations. 
Because there's some potential trade implications to some of 
these measures.
    We think that something that isn't sort of like Liberia-
specific, but rather more global, would be the objective.
    Mr. Wolf. Absolutely.
    Mr. Welch. I believe that's your concern as well. You're 
absolutely right. Something needs to be done in this area, and 
we are pursuing it.

                          WAR CRIMES TRIBUNAL

    Mr. Wolf. I think hopefully this session, too, because 
otherwise, I think there will be an issue of a boycott, if not 
a worldwide boycott. And I think that the good diamond 
merchants and the good jewelers and the countries that are 
relying on legitimate diamonds would be hurt. Because then 
people won't know what is what and just not buy anything.
    With regard to the war crimes issue, the UN's Office of 
Internal Oversight Services released a disturbing report in 
February on fee splitting at the U.N. War Crimes Tribunals. 
Some United Nations attorneys working as defense counsel for 
accused war criminals are accused of bribingtheir clients.
    An accused criminal classified as indigent chooses his or 
her own attorney. By offering kickbacks to the accused's 
attorney, the attorneys can improve their chances of being 
chosen. I'll pay you and I'll pick you, and are therefore being 
paid significant fees.
    As a result of this practice, U.S. contributions to these 
War Crimes Tribunals are ending up in the pockets of accused 
war criminals. What legal actions have been taken to punish the 
perpetrators and recover the funds?
    Mr. Cunningham. I frankly don't know about that particular 
report, Mr. Wolf, but I will look into it.
    Mr. Wolf. If you can.
    Mr. Cunningham. You are reading from a report. Is that 
correct?
    Mr. Wolf. It was the UN's Office of Internal Oversight 
Services.
    Mr. Cunningham. The understanding of staff here was that 
that investigation was ongoing, but I will check into it and 
we'll get back to you through Mr. Welch.
    Mr. Wolf. If you could, about recovery and also any of the 
reforms that would keep it from continuing.
    Is there an IG-type person at all the tribunals?
    Mr. Cunningham. Yes. The Office of Oversight has been out 
there repeatedly.
    Mr. Wolf. Is there one assigned to each tribunal?
    Mr. Cunningham. I believe there's a person in each tribunal 
who is responsible for that.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                       U.S. REPRESENTATION IN UN

    Mr. Wolf. Check and make sure and let us know so we can 
know the names of the people. The GAO was looking at trends in 
the level of U.S. representation in professional and senior-
level positions within the UN. They found that Americans are 
underrepresented in many UN-affiliated agencies. They found 
that the State Department efforts to achieve equitable 
representation are weaker than those of other major donor 
countries.
    Is increasing American representation an important 
Department objective? Are we pushing to have more Americans?
    Mr. Welch. Yes we are, Mr. Wolf. I think--I don't know if 
the GAO report is out yet.
    Mr. Wolf. We're looking at it.
    Mr. Welch. I believe they're going to share a conclusion 
that we agree with, that we are underrepresented. Actually, 
this is not simply a topic of our direct concern with respect 
to the individual agencies in the UN itself, but it's also a 
topic of discussion we have with the other major contributors 
to the UN.
    It in fact is the case that some of the other major 
contributors, especially Japan, share this problem as well. We 
and Japan, of course, comprise over 40 percent of the budget, 
but we are woefully underrepresented, particularly at certain 
levels.
    So we're trying to rope others into helping us with this 
issue. It's a keen focus of ours. We have had some successes 
increasing American representation at higher levels of the UN, 
and particularly one important thing that Ambassador Cunningham 
shared a hand in working toward was the appointment of an 
American to a very senior position in the Department of 
Peacekeeping, Michael Sheehan, an Assistant Secretary General 
there.
    That doesn't mean we shouldn't pay attention to the lower 
levels. We do that as well.
    This is work in progress. We're disappointed by where we 
are, and we have to recommit ourselves to it.
    Mr. Wolf. I think it would be helpful to have an American 
on the peacekeeping--you know, the UN's record in Rwanda, I 
mean, I don't know how they're ever going to live that down in 
1994 actually. The Clinton Administration's record was not that 
much better.
    But I think it would be helpful. Does the Department of 
State meet with the different agencies at the UN to talk to 
them about American service and representation and employment? 
Are you out there aggressively?
    Mr. Welch. Yes, sir. I've done that personally, and so have 
some of the people who work for me, one thing that Ambassador 
Cunningham and Dick Holbrooke paid a lot of attention to. 
Furthermore, Secretary Albright did this personally with some 
of the higher ranking jobs, and Secretary Powell, one of the 
very first things he did in fact was engage on a personnel 
issue.
    It depends on the agency involved as to how we do it.

                FY 2002 BUDGET REQUEST FOR OECD BUILDING

    Mr. Wolf. We're probably going to have to do it even more. 
Because, if I understand your letter, there are retirements 
coming up. I'm sure the GAO will be updating and follow this 
up. But I think it's important for us to make the case. I think 
it's good for the UN, too.
    Your budget request includes $3.5 million for what are 
described as startup costs for the renovation of the OECD 
headquarters building in Paris. Is this necessary? And also, 
what would the $3.5 million you're requesting be used for? We 
don't have any justification of what it would be actually used 
for. It's almost like it's a placeholder to kind of put 
something in there.
    Mr. Welch. You've hit upon one of the modest increases in a 
budget that otherwise has stayed flat or declined. This 
headquarters building in Paris needs renovation. It's got a 
fire safety hazard problem. There was asbestos used in its 
construction. These require mediation.
    Mr. Wolf. Have you tried relocating to a lower-costcity? 
Seriously. I didn't mean that as a joke. As somebody who's been 
supporting, but is just trying to show that we can do some things, 
maybe it could be in a different city. The costs in another city 
outside or a new building somewhere else, like many people who have 
moved into downtown Washington have moved to Fairfax County with bigger 
and better buildings. Plus the commute. So have they looked at that, or 
just we're going to stay where we are? Why don't they sell that off? 
They could make a lot of money.
    Mr. Welch. We're not certain if that option has been 
considered. In some cases, there are standing agreements or 
even perhaps charter requirements for the location of the 
headquarters of the international organizations. I'm not sure 
if that's implicated in this case. I'll have to take a look, 
sir, and answer your question later.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wolf. Okay. So what is the $3.5 million for? If 
somebody asked you, well, what's the $3.5 million? Are we 
ripping out three floors of asbestos or what are we doing?
    Mr. Welch. There would be two purposes for these funds. To 
pay a first increment to secure a lease on a temporary facility 
where during the renovation some 750 employees would be housed.
    Second, the funds would go as a contribution to the initial 
project cost for the abatement of asbestos and construction.
    We think that the best approach here is to spread these 
costs out over a period of time.
    Mr. Wolf. Maybe you can, for the record then, go back and 
ask. I mean, that's a tough question to answer. But if you can 
just say what were literally the $3.5 million be used for and 
see if they have any other alternative estimates for moving or 
anything like that.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                           RELIGIOUS FREEDOM

    Mr. Wolf. I have a number of other questions we're going to 
ask you, but I wanted to just divert back. I don't want to put 
you on the spot. I know you have--I've read that you're being 
considered to be the ambassador to Egypt. Is that accurate? 
There have been some press reports. I'm not asking if you're 
going to be. Have you been?
    Mr. Welch. Well, Mr. Wolf, the White House has announced 
its intention to nominate me.
    Mr. Wolf. That's all I need.
    Mr. Welch. So it's a public fact, sir. However, I've not 
formally been nominated to the Senate.
    Mr. Wolf. Let me make a statement to you to sensitize you 
to an issue. Since the passage of the Religious Freedom Act in 
1998, U.S. embassies abroad have been instructed to monitor 
religious freedom violations in their host nations and report 
their findings to Washington.
    We're getting a lot of good reports, a lot of good things 
are taking place. The staff are listening to the local 
persecuted community, to use that phrase.
    The reports that we receive from Egypt have been not very 
good; in fact, it's been bad. I don't know that the American 
ambassador in Egypt has ever publicly spoken out on the 
persecution or the anti-Semitic cartoons, which I will share 
with you, that are in the Egyptian press, and the persecution 
of the Coptic Christians.
    Their attitude has always been well, we're going to do this 
privately. Well, I remember talking to Natan Scharansky once 
and he told me that every time Ronald Reagan or Jackson or 
Vanick or someone spoke out on their behalf, his life got 
better.
    And while it may have alienated the Soviets for a period of 
time, things were positive. It's kind of like when I'm out 
running for office and somebody tells me, Wolf, I'm really for 
you but I just don't want to be publicly identified, I want to 
keep it private.
    I say if you're not going to be with me publicly, I don't 
know. I just don't think there's been a public position taken 
by many of our ambassadors on this issue.
    I've heard from several leaders of the Coptic Christian 
Community that the embassy staff has been unwilling to help or 
even listen to their complaints.
    An Egyptian Christian human rights lawyer reported to the 
Washington-based Freedom House that for two years he attempted 
to meet with U.S. Embassy staff without success.
    A Protestant leader reported that the embassy is hostile to 
the Christian community in Egypt. The Coptic Christian 
Community in Egypt goes back to the days of Jesus. I mean, we 
ought not be hostile, we ought to be speaking out.
    In January of the year 2000, 21 Coptic Christians were 
brutally massacred when an armed mob entered their buildings, 
killing men, women, and children.
    Despite the fact that all the murdered were Christians, the 
embassy, which is responsible for writing the State Department 
reports, erroneously reported the incident as clashes and 
exchanges. Well, if you were killed or a member of your family 
were killed, that's a massacre, that's not a clash or an 
exchange.
    We hear reports that the embassy sometimes is saying 
actually the same words that the Egyptian government is saying. 
Now we are friends with the Egyptian government. In fact,----
    Did Mr. Cunningham leave?
    Mr. Welch. He's coming back.
    Mr. Wolf. One of the concerns I've had with the Sudan is 
that the Sudan government was responsible for the assassination 
attempt on President Mubarak. I think he's one of our best 
friends in the Middle East. Can you imagine the disaster that 
would have been?
    But we are finding their comments of the American Embassy 
are almost the same as the Egyptian government. And I think 
ambassadors' jobs are to represent the United States to the 
country, and not necessarily take the line of the country.
    They are our friends. Egypt is our friend. I stipulated--in 
fact, when I was on the Foreign Operations Subcommittee, we 
supported the aid, and I like the EgyptianAmbassador here in 
the United States. They are our friends, but friends, getting back to 
the other thing that we weren't going to get back into, friends are 
candid with friends.
    And I don't know why the Egyptian government allows 
persecution of the Coptic Church. It just doesn't make any 
sense to me. So while I don't want to lock you up, this is not 
a confirmation hearing, but I just want to sensitize you, if 
you are fortunate enough, and I hope you are, because I know 
you've had a great record. I'm going to follow the issue. This 
is my legislation working with Congressman Smith and Senator 
Dan Coats, Senator Nickles and Senator Specter. There are a lot 
of people that care deeply.
    This passed without any negative votes in the Congress. I'm 
going to kind of watch and ask the members of my Staff to 
continue to watch. I've given up on the current ambassador. I 
just don't think he's going to say anything.
    Also, I would like to share with you some of the anti-
semitic cartoons that are in the Egyptian press, and some of 
the press is controlled by the Egyptian government.
    So whether it's anti-Israel or anti-Jewish cartoons, anti-
Coptic Christians, I'm going to ask you to adopt the policies 
you might say of Ronald Reagan.
    When Ronald Reagan went to the Soviet Union, he just spoke 
out for human rights. When Secretary Shultz, who was one of our 
better Secretaries of State, when he would go to Moscow, he 
would meet with the dissidents. He would meet with them in the 
embassies. He stood in solidarity with them. So if the Russian 
government didn't like it, he didn't say anything offensive, 
but he met with them.
    And I would ask you that if you become, and I hope you do, 
the Ambassador, that you will articulate our values with regard 
to the Coptic Christians and the right to worship and the right 
to build a church, that you will speak out against the anti-
semitic cartoons in the Egyptian press, but I think whatever 
you do, do it publicly.
    Don't say well, you know, we don't want to kind of get 
involved, but we're really with you. I think you should let 
them know because they are our friends and we want them to 
continue to be our friends. And we want a good relationship 
with them, as they want with us.
    And they are good people. I think President Mubarak is a 
good man. I think the ambassador here in town is a good man. 
But they've got to hear from us publicly. And I would hope that 
you would speak out publicly.
    I'm not going to ask you to comment because this is not a 
confirmation hearing. But we are going to watch and see. The 
current thing of privately just doesn't do it because the 
conditions have gotten worse, they've not gotten any better.
    Mr. Welch. Mr. Wolf, you're right. I would prefer not to 
comment.
    Mr. Wolf. I don't want you to comment.
    Mr. Welch. However, the current American ambassador to 
Egypt is a close colleague.
    Mr. Wolf. And a good person, but the approach that he took, 
that's not a clash when 21 people are massacred, and I've been 
there, and I've spoken and I said, well, you guys ought to get 
with the program. This is what we do, we export our values.
    So he's a good person. I'm not saying anything negative. I 
just don't think the approach that he took was the approach 
that friends ought to be taking with friends.
    Mr. Welch. Thank you for your remarks, sir.
    I'd like to speak to him, and then have him get back to you 
in some fashion.
    Mr. Wolf. He may be right and I may be wrong.
    Mr. Welch. I just don't know what the answer is, and I 
think it's very important that you hear from our 
representatives there.
    Mr. Wolf. We have communicated.
    Mr. Welch. I see, and I'm sorry I'm not prepared to answer, 
and am probably not disposed to either at the moment.
    In terms of what might come in the future, Mr. Wolf, I know 
of your work in this area, and though I live a mile south of 
your district, I'm acquainted with your interests.
    Should it come to pass that I am nominated to the Senate, 
and that I am confirmed, I'd like to come back to you and talk 
to you again.
    Mr. Wolf. Sure.
    I wanted to ask Mr. Cunningham another question.

                        UN BUDGET FOR 2002-2003

    With regard to the reform you had spoken about, and there 
had been some successes on the policy, the UN has offered now 
close to zero nominal growth for the last six years. That was 
managed, however, by largely eliminating unfilled positions and 
a multi-year trend of significant exchange rate savings.
    Do you have any thoughts for 2002-2003 budget under 
development? Will there be zero nominal growth?
    Mr. Welch. I appreciate getting this question. I wanted to 
answer. Our position with respect to the UN budget is that they 
should maintain it within current existing resources. We have 
communicated that position not very long ago in a letter from 
Secretary Powell to the Secretary General, and Mr. Wolf, he's 
also done so orally.
    This is in keeping with our policy of budget discipline at 
the UN and its sister organizations generally.
    However, the formation of the next biennium budget is a 
process that takes some time and eventually evolves to a vote 
in the fall or some times as late as December.
    I don't know what it will be at that point. We have some 
priorities for that budget too in terms of what we would like 
to see the UN doing more of.
    For example, reform of peacekeeping is a key interest of 
ours. There may be some costs associated with that. We think, I 
take it from some of your earlier remarks, that you would share 
this concern that there should be an enhanced security for UN 
personnel.
    Quite a few UN personnel or NGO or ICRC personnel, like we 
saw yesterday, are hurt around the world. And enhancing their 
security is a key objective.
    Mr. Wolf. I agree.
    Mr. Welch. I don't know how those costs will be reflected 
in the budget proposals, if they would be. There could be also 
some inflation costs and it's hard to predict now what the 
exchange rate might do.
    So what I'm saying, the bottom line is, I don't know how 
that budget would evolve. I know the trend we would like to 
see, which is to see it continue within its existing resources.
    Mr. Wolf. Let me also publicly state for the record that I 
do appreciate Ambassador Holbrooke's service. I thought he did 
an excellent job and Mr. Cunningham mentioned how he kept the 
Sudanese off the Security Council.
    I think he is really--I would love to see him beappointed. 
He's one of five, if you asked me for the names of special envoys to 
the Sudan, because I thought he did an excellent job. I want the record 
to show that he and Mr. Cunningham, who was on his staff, I thought 
they did a very good job.
    Mr. Welch. Thank you.
    Mr. Wolf. I have a couple for Mr. Cunningham. [Laughter.]
    And he's AWOL. He's not mad, is he?
    Mr. Welch. You know, when this hearing had been scheduled 
some time ago, we had a miscommunication about scheduling, and 
I basically forgot to tell Jim that he needed to be here today, 
because it's a tradition. We always have the current rep or the 
acting current rep come before you for this session.
    He actually cancelled a lunch that he had planned with the 
Secretary General and the other members of the Security 
Council. I think it was scheduled for today in order to be 
here.
    I don't think he took off to have lunch with them. I hope 
he will be back shortly.
    Mr. Wolf. Let me go through a few of these, and then I 
don't want to keep you because last year the allocation of 
funding, last year, Ambassador Holbrooke testified that the UN 
Department of Public Information has 800 budgeted positions, 
twice as many as the Department of Peacekeeping.
    Ambassador Holbrooke said: ``There's no excuse for 800 
people in DPI.''
    Even more troubling was the testimony that the Secretary 
General does not have the authority to correct such staffing 
inequities.
    What are you doing to achieve the needed downsizing of the 
political parts of the UN bureaucracy to help the UN succeed at 
the more critical functions, particularly the one you just 
mentioned, peacekeeping?
    Mr. Welch. Holbrooke was dead right, Mr. Wolf. This is a 
particularly egregious example of the inefficiencies within the 
UN.
    I think DPI, plus the Economic Commissions, probably 
consume some 20 percent of the budget of the UN and it's just 
an excessive amount.
    We have tried several systemic rectifications, results-
based budgeting, sunset provisions, for these various funds, 
programs and activities. Those are underway. We're having some 
success there.
    Second, you know, what we try and do is gather a coalition 
of the interested too in particular on examples like that, so 
that those like ourselves, who are big contributors, will feel 
we have a say in how these resources are distributed and we'll 
go make our voices heard on particularly egregious examples 
where we believe seriously greater efficiencies can be found.
    Unfortunately, Ambassador Holbrooke is also right that the 
Secretary General, who is the Chief Executive Officer of this 
institution, has had some of his power usurped by the General 
Assembly membership in dealing with some of these things. And 
they write in a lot of line item budget items that they want.
    The struggle in the ACABQ, the Fifth Committee, and 
eventually in the General Assembly is always about those 
things. And you can trust us to be in their face as often as we 
can be, especially with the other member states about this.
    I agree. This is an area where meeting its other more 
urgent and more priorities that the UN could save money, and a 
lot of it.
    Mr. Wolf. We're asking Mr. Cunningham with regard to the 
DPI. The other question you can help us with, the reduction in 
the size is really almost a test.
    Is there any hope of having that reduced as a sign to show 
that there are some real positive things?
    The other question I pointed out, Mr. Holbrooke said that 
there were 800 people at DPI. Do you have any comments about 
that?
    And what do you think next year holds?
    Are we asking for a reduction? Does the U.S. have a 
position at the UN on that?
    Mr. Cunningham. Let me address that. Let me apologize for 
being gone. I was blocked from returning by your efficient 
security forces. [Laughter.]
    Who made me go down and get a pass to reenter. On DPI, yes, 
we have. In our view, the operation needs to be streamlined and 
rationalized.
    I can't say the UN has agreed to that proposition but they 
have agreed with us to look at how DPI is operating. They, 
themselves, are in a period of transition now. They have an 
interim director in the department, the previous under 
secretary having departed.
    We're trying to work with the interim director and with the 
Secretary General to take a good, rational look at how the UN's 
public information operation is constituted, what it does, and 
what could be done better, and what could be pared away, if you 
will.
    We think there is some prospect there for good changes. 
We're bringing in some expert advice to look at their library 
operations and some other things. We're also bringing in 
somebody from our own service who has done a similar kind of 
work in our own public information office with the cooperation 
of the UN, to take a look at their operations and see what 
they're proposing.
    Mr. Wolf. I wanted to ask you one question on the building. 
One big requirement facing the UN is renovation. Is there 
anything in the Department budget for this issue?
    Do you want to say something about the renovation of the UN 
building?
    Mr. Welch. UN headquarters or the UN mission?
    Mr. Wolf. Headquarters. The cost of that is roughly a 
billion dollars.
    Mr. Welch. No, we've not made a request with respect to the 
UN headquarters. They have a process underway to look at their 
requirements for rehabilitation and reconstruction of the 
building.
    Mr. Wolf. What would be our share of that?
    Mr. Welch. We don't know yet. Frankly, it is premature to 
make a judgment of that magnitude.
    Mr. Wolf. So the Committee has no expectation to be 
receiving anything this year?
    Mr. Welch. I don't expect so. The General Accounting Office 
is undertaking a study of what the UN calls its capital master 
plan which provides options for this project. It's considerable 
work.
    We welcome the help of the GAO actually because we are not 
in a position to do all the evaluation ourselves. In due 
course, though, Mr. Wolf, we would like to come back to youand 
talk about that because it will have implications in the future, and we 
have to decide how we will address that.
    Mr. Wolf. I want to raise this with Mr. Cunningham, so we 
don't have another embarrassment. I read this Freedom House 
Monitor, and it said once again Freedom House is under attack 
at the United Nations.
    At a January 2001 meeting in the UN Committee on Non-
Governmental Organizations, Freedom House, which I think does 
an outstanding job, former Secretary Richardson was on the 
board, Freedom House faces renewed complaints from China and 
Cuba and fresh charges from the Sudan.
    These dictatorships are working to strip Freedom House of 
its consultative status at the UN, I guess under its capacity 
as an NGO, and take away the UN accreditation.
    That's not going to happen is it?
    Mr. Cunningham. No, it hasn't happened.
    Mr. Wolf. This says they are ready to move.
    Mr. Cunningham. That's from January.
    Mr. Wolf. So that won't happen?
    Mr. Cunningham. We've already been through that and dealt 
with that in the course of there's an accreditation committee. 
We've dispensed with that.
    Mr. Wolf. They did not call CSI, did they?
    Mr. Cunningham. Yes, they did.
    Mr. Wolf. Because they were speaking out against slavery in 
the Sudan. Things like that just really make it hard. I mean, 
it just makes it hard.
    Here's a group, Christian Solidarity International, dealing 
with the slavery issue in the Sudan, and they're no longer 
accredited.
    How does that process work when they are no longer 
accredited?
    Mr. Cunningham. Each of the NGOs that's accredited needs to 
go through something called the Accreditation Committee, which 
has difficult membership.
    Mr. Wolf. Who is on that Committee?
    Mr. Cunningham. I don't have the members here.
    Mr. Wolf. Why don't you supply it for the record.
    Mr. Cunningham. I'll do that.
    [The information follows:]

  Q and A from 5/10/01 CJS Testimony of Ambassador Jim Cunningham and 
                              David Welch

    Q: Which countries are represented on the Economic and 
Social Committee's Nongovernmental Organization (NGO) 
Committee?
    A: The 19-member NGO Committee is composed of Russia, 
China, Cuba, Sudan, Algeria, Tunisia, Lebanon, Senegal, 
Ethiopia, Colombia, Bolivia, India, Pakistan, France, Germany, 
Chile, Romania, Turkey, and the United States.

    Mr. Wolf. Are some of our friends on there so the other 
countries like Sudan, is Sudan on the Committee?
    Mr. Cunningham. I'm not sure if they are or not.
    Mr. Welch. This is a problematic membership.
    Mr. Wolf. For the record, was anybody connected with the 
Sudanese government involved in the bombing of the World Trade 
Center?
    Mr. Cunningham. Not that I know of.
    Mr. Wolf. Can you check that? Why don't we check that so 
that we can have a definitive answer? Was anyone connected with 
the Sudanese Mission in New York in any way connected with the 
bombing of the World Trade Center?
    Mr. Welch. The Sudanese Mission in New York. We'll provide 
an answer to you, Mr. Wolf.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                               MACEDONIA

    Mr. Wolf. You never spoke out about this issue, and I've 
been a little surprised. When I was in Kosovo, we went out and 
then we went into Macedonia before all the activity took place. 
And we went out to visit the people on the border, the trip 
wire, the so- called Blue Helmets that were in Macedonia.
    The reason they're not there, if you look at today's paper 
and yesterday's paper, the world should know the reason they're 
not there is because of what country?
    Mr. Welch. China.
    Mr. Wolf. China. Why? What did China do? I know what they 
did, but I want to get it on the record so that people begin to 
say, well, gee, you know, we wanted to grant them PNTR, we want 
to know--China, because of what's taking place, and if you 
disagree, you certainly may have more information.
    But that's partially responsible for what's taking place in 
Macedonia now. China did what?
    Mr. Welch. The mandate of the UN mission that was there was 
up for renewal. In the vote on that in the Security Council, 
China vetoed their mandate renewal. The reason it said it did 
so was particular to its national interests, not to the threat 
to peace and stability that that mission was designed to 
address.
    Unfortunately, they chose, for Chinese reasons alone, 
toveto the resolution because of Macedonia's relationship with Taiwan.
    Mr. Wolf. Has that had any bearing on what's taking place 
now? Would we have been better off had that been still at the 
trip wire?
    Mr. Welch. I'm not certain. There's been some passage of 
time between the current events and the withdrawal.
    Mr. Wolf. But a vacuum was created.
    Mr. Welch. Certainly there is a security issue in that 
area, and I would imagine that a UN presence might have done 
something to avoid that. It's hard to say, though, whether the 
conditions would have been such that the mandate might not have 
changed in that interim period.
    I can't answer that because I wasn't there.

                             AMERICA'S ROLE

    Mr. Wolf. I don't think it would have. I think their 
mandate was to be the trip wire, and once the Chinese knock 
them out, you've created a vacuum there. I mean, if you've been 
to the border, it's a very rough, open, and therefore there's 
nothing there.
    People connected to the KLA just come across and now you 
have fighting in Macedonia. It's at least partly the 
responsibility of the Chinese government.
    In the interest of time, I just want to submit the rest for 
the record. I think in summing up, one, that you can really 
look at the peacekeeping effort with regard to Sierra Leone. 
Two, to make sure the war crimes, the worst thing that could 
ever happen is that Foday Sankoh got out and went back into the 
bush and started that up again, because so many people are 
suffering, are dying.
    One of the reasons I've been supportive of these efforts is 
partially because I believe America has been blessed, and to 
whom much is given, much is required. But in the requirement of 
carrying out the requirement, there are certain ways that you 
do it.
    I think this Administration should try to emulate Ronald 
Reagan's approach. Trust but verify, when we seek out these 
roles for our values.
    I think one of the best speeches Ronald Reagan ever gave, 
that was so criticized, is the speech he gave where he called 
the Soviet Union the Evil Empire.
    I met with people in the Perm and the Gulag to tell me that 
they had found out about that speech. That speech gave them 
encouragement because Reagan stood for fundamental values.
    We may and you up in the UN will be going through the same 
phase.
    They didn't want Ronald Reagan to deploy the cruise 
missiles. And I was in Holland and the Dutch were all over the 
place. Ronald Reagan's position on the cruise missiles was a 
very, very positive thing.
    They criticized Ronald Reagan for his Evil Empire speech. 
They said it was naive, and now people know it was a great 
speech, and really related to fundamental values.
    We have to stand up. I want to support the UN. I want to be 
involved in the peacekeeping and fund those things.
    But within our values, and sometimes I get the sense that 
people in our government may very well be pulling back from 
articulating our values. We are at our very best when we're 
pushing those values.
    And the Charter is not only the Constitution of the United 
States, it's the Declaration of Independence, and it says that 
God granted those things, not the UN General Assembly, not some 
Congress or anything else.
    But when we are on that message pushing our values, and 
what we believe in, we're at our best. So if we offend a 
friend, we offend a friend, and they can talk about their 
values and we'll talk about our values.
    But I'm going to tell you, the people in their countries, 
their leaders may not completely say that what we are doing is 
right, but the people in their countries do agree with us, so 
we should just push the values.
    And I think President Bush has been doing that.
    I believe that you have to articulate these things at the 
UN and in Cairo.
    The last thing is, just take the message that we need a 
special envoy for Sudan of the caliber of a Chet Crocker or a 
Jim Baker, or a Holbrooke, the same way that Senator Mitchell 
focused on the issue of Northern Ireland.
    If we don't do it, we are in essence saying, and Secretary 
Powell doesn't have the time. I read that Senator Mitchell went 
to Ireland--it may or may not be true--54 times.
    Powell doesn't have the chance to go to the Sudan 54 times 
nor does your Assistant Secretary for African Affairs. He's a 
good person but he won't have that opportunity. You need 
somebody to focus or center on this like a laser beam. Bring 
the parties together; otherwise, more people will die.
    And with the oil revenues that are coming, I think this is 
now going to be the Administration's problem. I will say 
Clinton did a terrible job on this issue. He appointed a 
special envoy and he went off and was up in Cape Cod somewhere 
and it was done over Labor Day weekend.
    Harry Johnson never met with the President, he met with 
Sandy Berger once.
    When this envoy is appointed, he should stand right next to 
George W. Bush, President Bush, and on the other side should be 
Secretary Powell, and they say, this is my person whom we have 
focused and given a portfolio to bring this issue to a 
conclusion with regard to peace. Peace with justice, not just 
peace, but peace with justice.
    We've now lost two generations and I had a bishop, a 
Catholic bishop, say to me, is it because we're black? Is it 
because we're black that nobody cares?
    And they mentioned the war in Kosovo and they said what's 
the matter, we're not asking for troops, we're not asking for 
additional funding, we're asking for someone to use diplomatic 
pressure and the prestige and the credibility, somebody who can 
go to Egypt, if you're the next ambassador, and meet with 
President Mubarak, someone who can meet with our European 
allies, someone who can really push this.
    If we don't try, we will never, ever succeed. And my sense 
is, I'm getting feelings that the Administration knows this is 
a tough, tough job. They may not be successful and so they 
don't want to get involved in something that they're not 
guaranteed success. There is no guaranteed success, but there 
is guaranteed failure if we don't try.
    We also have to try because it deals with terrorism. Osama 
bin Laden was responsible for the bombing, we believe, of the 
USS Cole.
    He is responsible, we now know, for the bombing of the two 
embassies--Some of your colleagues that you knew. He was 
involved in the assassination attempt on PresidentMubarak.
    A lot of bad things are coming as a result of the war in 
Sudan and what's taking place, in addition to the bombing and 
killing of innocent people.
    The last known victim was that young Dane, who died 
yesterday. But in the little village of Yeh or Toure, there 
were 50 or 75 more that died. A lot have died of starvation. A 
lot are dying of sleeping sickness.
    So this Administration is running out of time. We are 
asking you to appoint somebody to go back and tell President 
George W. Bush and Colin Powell, Secretary Powell, we're 
asking.
    They're asking, well, what does Wolf know? But the Catholic 
Conference, the CSIS, Franklin Graham, all the evangelical 
groups, all the prominent Jewish groups, everyone that I know, 
the Black Caucus, the NAACP, everyone is now saying this is a 
good thing. Personnel is policy.
    To say that we are waiting to develop the policy--personnel 
is policy. You put the right person in, that's policy. You put 
the wrong person in or don't give them anything, that's also 
policy.
    The right person, like I said, a Jim Baker, or Chet 
Crocker, can develop that policy, can really make a tremendous 
difference.
    So--you're running out of time, and history will not judge 
this Administration, this Secretary of State, this government 
very well if it neglects and does not deal with this issue.
    The Secretary tells me he wants to take it on personally. 
He wants to be the special envoy, and he's prepared to go to 
Khartoum. Okay, if he's going to do it himself, but if he's not 
prepared to do it himself, we truly need a special envoy, 
because you're going to burden your new Assistant Secretary for 
African Affairs.
    I mean, Mozambique, Sierra Leone, Guinea, Angola, Congo, 
he's going to have a tough, tough job. He seems like a very 
good person and we wish him well, but we really need to do 
that.
    With that, unless you want to make any fast comment or any 
last comment, we're just going to submit the rest of the 
questions for the record.

                           CONCLUDING REMARKS

    Mr. Wolf. Hopefully this was not a tough hearing, and I 
personally, and I know the members of the Committee appreciate 
the service that you did.
    I was in Lebanon two-and-a-half weeks ago, and I went out 
to the site where the embassy was bombed, and then I went out 
and I saw the names of all of our people who were killed in 
serving our country.
    I know many of the people in the State Department have paid 
a tremendous price as did the Marines there and your people 
around the world.
    So we appreciate your service and look forward to working 
with Secretary Powell, and give you the resources to do what 
you have to do, and to do it in a safe environment.
    So I don't want the tone of this meeting to be an 
adversarial one. It's just that there are some issues that the 
Congress cares deeply about, and frankly on this issue, Sudan, 
I'm not going to let it go.
    You guys are going to hear from me forever. [Laughter.]
    Mr. Cunningham. That's pretty clear.
    Mr. Wolf. Once you do it, then I think you can get 
everybody together, and I believe that the Commission may very 
well be right, that we can bring a just peace perhaps even by 
the end of this year for the Muslims in Khartoum, the 
Christians in Khartoum can just live in peace and prosper and 
develop that oil and live in peace.
    So unless you have any last comments you would like to 
make?
    Mr. Cunningham. I would simply like to say, first of all, 
it never occurred to me for a second that there was anything 
adversarial about this.
    We need to work together and I've found this discussion 
extremely useful and helpful, particularly your comments about 
the Commission on Human Rights vote, which I will pass on to 
our allies and friends and others.
    Also to say on the issue of Sudan, we have ongoing 
discussions with the Sudanese in New York. We raised the same 
concerns that you have with them there, although it's not 
really the focus of our discussions.
    But it is an ongoing problem for us in New York as well, 
and we want to work with you from the perspective of the U.S. 
mission, to deal with these issues and to be as helpful as we 
can in supporting the same goals that you have.
    Mr. Wolf. Thank you very much.
    Mr. Welch. Thank you, Mr. Wolf, again for your help on the 
peacekeeping money. We do appreciate that.
    Mr. Wolf. Thank you.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Armitage, Richard................................................   121
Cunningham, J.B..................................................   217
Green, G.S., Jr..................................................   121
Powell, Hon. C.L.................................................     1
Welch, D.C.......................................................   217


                               I N D E X

                              ----------                              

                           Secretary of State

                                                                   Page
ABM Treaty Negotiations..........................................    59
Albania and Macedonia............................................    69
Ambassador-at-large Positions....................................    61
Bombing Deaths in Sudan..........................................    47
Boys and Girls Clubs and Extradition.............................    54
China............................................................    60
Concluding Remarks...............................................    88
Cuba.............................................................    85
Deputy Secretary for Management and Resources....................    30
El Salvador and the Andean Initiative............................    28
Embassy Construction.............................................57, 81
Embassy Security.................................................    19
Embassy Security and Cultural Exchange Programs..................    50
Financial Audits.................................................    61
FY 2002 Budget Request for Administration of Foreign Affairs.....    18
Memorial in Lebanon..............................................    38
Middle East......................................................    45
Minority Hiring..................................................    27
Nation-Building..................................................    43
Opening Remarks of Committee Chairman Young......................     1
Opening Remarks of Committee Ranking Member Obey.................     1
Opening Remarks of Subcommittee Chairman Wolf....................     1
Opening Remarks of Subcommittee Ranking Member Serrano...........     2
Opening Statement of Secretary State Colin Powell................     2
Peacekeeping Review..............................................    58
Procurement Waivers..............................................    58
Religious Freedom and Sexual Trafficking.........................    79
Right-Sizing at Embassies........................................    33
State Department Employees.......................................    44
State Department Office on Capitol Hill..........................    78
Sudan............................................................    16
Survivors' Rights, AIDS Policy and the Middle East...............    34
Training.........................................................    50
UN Arrears and Peacekeeping......................................    25
USIA Integration.................................................    77
Visa Waivers for Russia..........................................    39
War Crimes Tribunal and Global Poverty...........................    41

                      State Department Management

Budget Request and Security Issues...............................   170
Concluding Remarks of Chairman Wolf..............................   172
Concluding Remarks of Ranking Member Serrano.....................   174
Deputy Secretary for Management and Resources....................   143
Educational and Cultural Exchange Program........................   168
Embassy Construction.............................................   155
Embassy Project Costs............................................   166
Employee Retention...............................................   153
Foreign Language Training........................................   157
FTE Levels at State Department...................................   147
FY 2002 Budget Request for Administration of Foreign Affairs.....   133
Information Technology...........................................   138
Information Technology Plan......................................   163
Minority Hiring..................................................   138
New Hiring Initiative............................................   140
Office of Defense Trade Controls.................................   150
Opening Statement of Chairman Wolf...............................   121
Opening Statement of Ranking Member Serrano......................   121
Recruitment......................................................   169
Recruitment and Culture of State Department......................   162
Religious Freedom................................................   163
Right-Sizing Embassies...........................................   159
Secretary's Trip to Africa.......................................   156
Special Envoy to Sudan...........................................   132
Statement of Deputy Secretary Armitage...........................   122
Statement of Under Secretary Green...............................   123
Victims of Trafficking Act.......................................   167

              International Organizations and Peacekeeping

Amendments Regarding UN issues...................................   252
America's Role in the World......................................   279
Concluding Remarks...............................................   282
Conflict Diamonds................................................   259
FY 2002 Budget Request for OECD Building.........................   265
FY 2002 Budget Request for Peacekeeping..........................   239
Macedonia........................................................   279
Opening Remarks of Chairman Wolf.................................   217
Opening Remarks of Ranking Member Serrano........................   217
Peacekeeping.....................................................   254
Religious Freedom................................................   271
Special Envoy to Sudan...........................................   233
Statement of Ambassador Cunningham...............................   221
Statement of Assistant Secretary Welch...........................   217
UN Budget for 2002-2003..........................................   273
UN Human Rights Commission................................231, 234, 249
US Representation in UN..........................................   265
Voting Process on UN Human Rights Commission.....................   242
War Crimes Tribunals.............................................   262
World Health Organization and HIV/AIDS Funding...................   246

                                <greek-d>


</pre></body></html>
